         Office of Inspector General

         Audit Report




    GRANT MANAGEMENT


Region 2's Management of Children’s Health 

    Risk Initiative and Related Projects

             Report No. 2001-P-00002

                January 30, 2001 

Inspector General Division   Eastern Audit Division

 Conducting the Audit        New York City, New York

Region covered               Region 2

Program Office(s) Involved   Division of Environmental Planning & Protection,

                             Radiation and Indoor Air Branch


                             Grants and Contracts Management Branch



Audit Team                   Herb Maletz

                             Tapati Bhattacharyya

                             John Richberg

                             Zelda Wrotzlovsky

January 30, 2001

MEMORANDUM

SUBJECT:	      Final Report on Region 2's Management of Children’s Health Risk Initiative and
               Related Projects
               Report No. 2001-P-00002

FROM:	         Herbert Maletz
               Audit Manager
               Eastern Division

TO:	           William J. Muszynski
               Acting Regional Administrator
               Region 2

Attached is our final audit report, Region 2's Management of Children’s Health Risk Initiative and
Related Projects. The objectives of this audit were to determine the adequacy of (a) the
The Region’s process of selection, award and management of Children’s Health Risk Initiatives
and related projects, and whether these projects were in line with the overall Agency mission of
protecting children from environmental hazards; (b) the Region’s systems, policies and procedures
to oversee, monitor and evaluate success of projects to assure they were timely completed in
accordance with the terms of the respective instruments and established criteria; and (c) the
recipient’s financial and management controls to effectively achieve its performance commitments
to address health and safety risks to children. This report contains findings and recommendations
which affect Region 2's efforts in managing its Children’s Health Risk Initiative and Related
Projects.

This audit report contains issues that describe conditions the Office of Inspector General (OIG)
has identified and corrective actions that OIG recommends. This audit report represents the
opinion of the OIG. Final determination on matters in the audit report will be made by EPA
managers in accordance with established EPA audit resolution procedures. Accordingly, the
findings contained in this report do not necessarily represent the final EPA position, and are not
binding upon EPA in any enforcement proceeding brought by EPA or the Department of Justice.
ACTION REQUIRED

In accordance with EPA Order 2750, you as the action official are required to provide this office
a written response to the audit report within 90 days. Your response should address all
recommendations and include milestone dates for corrective actions planned, but not completed.

We have no objections to the further release of this report to the public. Should your staff have
any questions about this report, please have them contact Herb Maletz (212)637-3058 or Tapati
Bhattacharyya (212)637-3074.

Attachment
                              Region 2's Management of Children’s Health
                                       Risk Initiative and Related Projects

             EXECUTIVE SUMMARY




Purpose        The audit was conducted to evaluate the overall
               effectiveness of the Regional Children’s Health Risk
               Initiative and related projects and identify areas where
               improvements could be made. The specific objectives were
               to determine the adequacy of:

               a.	    The Region’s process of selection, award and
                      management of Children’s Health Risk Initiatives
                      and related projects, and whether these projects
                      were in line with the overall Agency mission of
                      protecting children from environmental hazards.

               b.	    The Region’s systems, policies and procedures to
                      oversee, monitor and evaluate success of projects to
                      assure they were timely completed in accordance
                      with the terms of the respective instruments and
                      established criteria.

               c.	    The recipient’s financial and management controls to
                      effectively achieve its performance commitments to
                      address health and safety risks to children.

Background     Children face significant and unique health threats from a
               range of environmental hazards. They are often more
               heavily exposed and more vulnerable than adults to toxins in
               the environment from asthma-exacerbating air pollution and
               lead-based paint, to treatment-resistant microbes in drinking
               water, and to persistent chemicals that may cause cancer or
               induce reproductive development changes. Children’s
               developing immune and nervous systems can be highly
               vulnerable to disruption by toxins in the environment and
               the consequences may be lifelong.

               To strengthen the protection of our children from
               increasingly pervasive environmental health threats,

                          i
                               Region 2's Management of Children’s Health
                                        Risk Initiative and Related Projects

                   Administrator Browner announced EPA’s National Agenda
                   to Protect Children’s Health from Environmental Threats
                   in September 1996. On April 21, 1997, President Clinton
                   signed the Executive Order on the Protection of Children
                   from Environmental Health Risks and Safety Risks. This
                   Order requires all Federal agencies to assign a high priority
                   to addressing health and safety risks to children, coordinate
                   research priorities on children’s health, and ensure that their
                   standards take in account special risks to children. In May
                   1997, Administrator Browner formed a new office to be the
                   Agency’s “conscience” on children’s issues. The Office of
                   Children’s Health Protection (OCHP) implements EPA’s
                   1996 National Agenda and the 1997 Executive Order.

Results in Brief   Region 2's children’s health initiative made great strides in
                   the last three years towards accomplishing its goals in line
                   with EPA’s overall mission. The Region (i) formed a
                   Children’s Health Workgroup; (ii) initiated a pilot project in
                   Newark, New Jersey; (iii) increased use of Indoor Air
                   Quality (IAQ) plans in schools; (iv) formed partnerships
                   with institutions, agencies, and community organizations;
                   and (v) funded children’s health projects in New York, New
                   Jersey and Puerto Rico. During this period, Region 2
                   awarded 44 assistance and interagency agreements totaling
                   about $3.5 million for children’s research, training and
                   outreach activities. These accomplishments occurred
                   despite the Region’s limited resources which required
                   innovative approaches to achieve the planned goals.

                   Although these awards increased public education and
                   community outreach, further actions are needed to ensure
                   EPA projects are timely completed and yield significant
                   benefit to children. For example, the Child Health
                   Champion Campaign Project, a major initiative pilot project,
                   has not been and we do not expect it to be fully successful.
                   More effective EPA project management could have made
                   the Project Officer (PO) aware of problems in a more timely
                   manner, and appropriate retooling actions could have been
                   taken sooner. The project’s planned Asthma Busters (“the
                   campaign’s link to the community”) have not been

                              ii
                              Region 2's Management of Children’s Health
                                       Risk Initiative and Related Projects

                  recruited, a target study has not started, the control group
                  has not been identified, a follow up component has been
                  eliminated, and a no cost time extension was approved.

                  In addition, review of an Indoor Air Quality Tools for
                  Schools grant noted weaknesses. The grantee and EPA
                  believed the project had been far reaching because it was
                  working with five districts, which represented 19 schools.
                  However, four of seven important workplan steps were not
                  fully performed for all schools and primary objectives of
                  assisting schools in identifying, preventing and resolving
                  IAQ problems were not fully met.

                  Review of other projects noted that Region 2 needs to
                  improve its management of children’s health initiative and
                  related assistance agreements. Systemic problems included
                  (i) inadequate review and approval of applicants’
                  workplans; (ii) incomplete decision memoranda; (iii)
                  untimely progress and final reports; (iv) lack of financial
                  monitoring; (v) frequent no cost time extensions; (vi)
                  inadequate documentation of monitoring actions
                  (conversations, meetings, on-site reviews); (vii) projects not
                  reviewed and evaluated; and (viii) untimely project closeout.
                  Weaknesses were also noted in recipients’ accounting
                  systems to properly allocate actual personnel expenditures
                  to EPA awards.

                  These conditions were generally caused by inadequate
                  controls over assistance agreement monitoring activities.
                  Specific contributing factors were POs project filing systems
                  not being in accordance with Headquarters requirements;
                  numerous number of projects and other program priorities;
                  and inadequate system for tracking untimely progress
                  reports. As a result, projects were not always completed
                  timely and often did not provide the promised research,
                  education, or outreach environmental products. Thus,
                  anticipated progress on children’s environmental health
                  issues was not always attained.

Recommendations   We recommend that the Region 2 Administrator improve

                            iii
                                    Region 2's Management of Children’s Health
                                             Risk Initiative and Related Projects

                        assistance agreement management by:

                        Ensuring that a final statement of work is submitted and
                        adequately reviewed before a project is awarded. Specific
                        goals, objectives and reasonable performance measures
                        should be included and program office decision memoranda
                        should be fully completed with required information.

                        Periodically reviewing recently revised PO project files
                        organization, to ensure they are complete, organized and in
                        compliance with requirements.

                        Reducing the number of projects assigned to a PO by
                        redistributing workload, assigning fewer projects,
                        combining agreements into larger projects, assigning
                        alternate POs to assist the PO in certain areas, or limiting
                        responsibilities for attending conferences, conducting
                        training, and performing outreach activities.

                        Developing an outline for information that recipients should
                        provide in progress and final reports, and scheduling a
                        conference with on-going recipients to remind/reinforce
                        EPA requirements and recipient technical and financial
                        responsibilities.

                        Evaluating all completed projects to determine whether
                        goals and objectives were accomplished, problems were
                        encountered, and lessons were learned.

Region 2 Response and   On November 16, 2000, Region 2 responded to the
                        September 19, 2000 draft report and provided additional
OIG Evaluation          information on certain projects reviewed. The Region did
                        not agree with all our conclusions or recommendations. We
                        summarized aspects of their response in various places of
                        the audit report and provided appropriate comments. See
                        Appendix A for the entire response. An exit conference was
                        held on January 18, 2001.




                                   iv
                                                                    Region 2's Management of Children’s Health
                                                                             Risk Initiative and Related Projects

                                              TABLE OF CONTENTS




EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

     Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

     Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

     Results in Brief . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv

     Region 2 Response and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv


ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii


CHAPTER 1

     INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

     Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

     Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

     Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

     Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


CHAPTER 2

     CHILDREN’S HEALTH INITIATIVE

     REGION 2 PROGRAM EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

     Office of Children’s Health Protection . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

     Region 2's Strategic Plan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

     Projects Reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

     The Child Health Champion Campaign . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

     WNYCOSH IAQ - TFS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

     NIAID - Hunts Point IAG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

     Rutgers Training Center IAG Amended Nine Times . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

     Camden - Asthma & Lead Abatement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

     Montefiore - Asthma . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

     Puerto Rico DOH . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

     Montefiore Lead Busters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

     IPM - Lehman Houses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40

     Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

     Region 2 Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42

     OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43



                                                                   v
                                                                     Region 2's Management of Children’s Health
                                                                              Risk Initiative and Related Projects

CHAPTER 3

     MANAGEMENT OF ASSISTANCE AGREEMENTS NEEDS IMPROVEMENT . . .                                                                      49

     What Was Found . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         49

     Why It Occurred . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        49

     What Was The Effect . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          49

     Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     49

     Project Monitoring Conditions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              52

     Reasons Why Conditions Occurred . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    64

     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          68

     Region 2 Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        71

     OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         73


CHAPTER 4

     OTHER MATTER . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 79

     Children’s Health Workgroup . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 79

     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 80


EXHIBIT 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81

     Projects Reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81


EXHIBIT 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 83

     Sample Award Conditions Used By EPA’s New England Region . . . . . . . . . . . . . . . . . 83


EXHIBIT 2a . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 85

     Sample Quarterly Report Format . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 85


APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87

     Region 2 Response to the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87


APPENDIX B . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 117

     Report Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 117





                                                                   vi
                   Region 2's Management of Children’s Health
                            Risk Initiative and Related Projects

        ABBREVIATIONS



AB      Asthma Buster

ASU     Asthma Study Unit

CA      Cooperative Agreement

CCC     Center for Chesapeake Communities

CFR     Code of Federal Regulations

CUP     Community/University Partnership

DECA    Division of Enforcement and Compliance Assistance

DEPP    Division of Environmental Planning and Protection

DHHS    Department of Health and Human Services

DOH     Department of Health

EPA     Environmental Protection Agency

ETS     Environmental Tobacco Smoke

FMFIA   Federal Managers’ Financial Integrity Act

FSR     Financial Status Report

GCMB    Grants and Contracts Management Branch

GCRC    Grants Customer Relations Council

GPRA    Government Performance and Results Act

GS      Grants Specialist

HUD     Housing and Urban Development

IAG     Inter-Agency Agreement

IAQ     Indoor Air Quality

ICAS    Inner City Asthma Study

ICC     Ironbound Community Corporation

IFMS    Integrated Financial Management System

IPM     Integrated Pest Management

MER     Management Effectiveness Review

NCTE    No Cost Time Extension

NIAID   National Institute of Allergy and Infectious Disease

NYS     New York State

NUCEA   National University Continuing Education Association

OARM    Office of Administration and Resources Management

OCHP    Office of Children’s Health Protection

OEJ     Office of Environmental Justice

OIG     Office of Inspector General

OMB     Office of Management and Budget



                 vii
                    Region 2's Management of Children’s Health
                             Risk Initiative and Related Projects

PI        Principal Investigator

PO        Project Officer

PRASA     Puerto Rico Aqueduct Sewer Authority

PTSB      Pesticides and Toxic Substances Branch

RIAB      Radiation and Indoor Air Branch

RMDS      Resource Management Directive System

SOW       Statement of Work

TFS       Tools for Schools

WNYCOSH   Western New York Council on Safety and Health





                  viii
                        Region 2's Management of Children’s Health
                                 Risk Initiative and Related Projects

               CHAPTER 1
             INTRODUCTION



Purpose      The audit was conducted to evaluate the overall
             effectiveness of the Regional Children’s Health Risk
             Initiative and related projects and identify areas where
             improvements could be made. The specific objectives were
             to determine the adequacy of:

             a.	    The Region’s process of selection, award and
                    management of Children’s Health Risk Initiatives
                    and related projects, and whether these projects
                    were in line with the overall Agency mission of
                    protecting children from environmental hazards.

             b.	    The Region’s systems, policies and procedures to
                    oversee, monitor and evaluate success of projects to
                    assure they were timely completed in accordance
                    with the terms of the respective instruments and
                    established criteria.

             c.	    The recipient’s financial and management controls to
                    effectively achieve its performance commitments to
                    address health and safety risks to children.

Background   Children face significant and unique health threats from a
             range of environmental hazards. They are often more
             heavily exposed and more vulnerable than adults to toxins in
             the environment from asthma-exacerbating air pollution and
             lead-based paint, to treatment-resistant microbes in drinking
             water, and to persistent chemicals that may cause cancer or
             induce reproductive developmental changes. Children’s
             developing immune and nervous systems can be highly
             vulnerable to disruption by toxins in the environment and
             the consequences may be lifelong.

             Recognizing these vulnerabilities, EPA declared that
             children need special protection against environmental

                       1

           Region 2's Management of Children’s Health
                    Risk Initiative and Related Projects

toxins. To strengthen the protection of our children from
increasingly pervasive environmental health threats,
Administrator Browner announced EPA’s National Agenda
to Protect Children’s Health from Environmental Threats
in September 1996.

This National Agenda Instructs The Agency To:

•	     Ensure that EPA standards are protective of any
       heightened risks faced by children.

•	     Develop a scientific research strategy focused on the
       gaps in knowledge regarding child-specific
       susceptibility and exposure to environmental
       pollutants.

•	     Develop new policies to address cumulative and
       simultaneous exposures faced by children.

•	     Expand community right-to-know allowing families
       to make informed choices concerning environmental
       exposures to children.

•	     Encourage parental responsibility for protecting
       children from environmental health threats by
       providing them with basic information.

•	     Encourage and expand educational efforts with
       health care providers and environmental
       professionals so they can identify, prevent, and
       reduce environmental health threats to children.

•	     Provide necessary funding to address children’s
       environmental health as a top priority.

On April 21, 1997, President Clinton signed the Executive
Order on the Protection of Children from Environmental
Health Risks and Safety Risks. This Order requires all
Federal agencies to assign a high priority to addressing
health and safety risks to children, coordinate research

          2

                                    Region 2's Management of Children’s Health
                                             Risk Initiative and Related Projects

                        priorities on children’s health, and ensure that their
                        standards take in account special risks to children.

                        In May 1997, Administrator Browner formed a new office
                        to be the Agency’s “conscience” on children’s issues. The
                        Office of Children’s Health Protection (OCHP) implements
                        EPA’s 1996 National Agenda and the 1997 Executive
                        Order.

Scope and Methodology   We performed this audit in accordance with Government
                        Auditing Standards (1994 Revision) issued by the
                        Comptroller General of the United States as they apply to
                        performance audits. Our review included tests of the
                        program records and other auditing procedures we
                        considered necessary.

                        We conducted audit work at EPA’s Regional Offices in
                        New York City and Edison, New Jersey. We reviewed
                        project files containing grant applications, award
                        documents, progress reports, final reports, workplans,
                        justifications for award, Financial Status Reports, and
                        related correspondence to evaluate the overall effectiveness
                        of the Regional Children’s Health Risk Initiative and related
                        projects. To meet our objectives we conducted the
                        following audit work:

                        •       Met with OCHP officials to determine their overall
                                goals and their roles and responsibilities.

                        •       Interviewed various Headquarters and Region 2
                                staff involved with the Children’s Health Risk
                                Initiative Program. These individuals included
                                project officers, grants specialists, site managers,
                                deputy directors, and branch managers.

                        •       Reviewed Regional project files to determine
                                whether they were current, financial information was
                                being reviewed, adequate progress reports were
                                prepared timely, and files were organized.



                                   3

            Region 2's Management of Children’s Health
                     Risk Initiative and Related Projects

•	     Reviewed the Grants and Contracts Management
       Branch (GCMB) files to determine whether any
       requests for advance or reimbursement and financial
       status reports were submitted. These reports
       disclose funds expended, amounts still owed and
       types of expenses incurred.

•	     Evaluated workplans and progress reports to
       determine if they were complete, and adequate
       progress was being made to accomplish anticipated
       goals.

•	     Reviewed prior audit reports and resulting
       corrective actions.

•	     Reviewed permanent files, audit follow-up files, and
       working papers of prior audits to determine
       potential issues.

•	     Since a significant number of the selected awards
       pertained to the Radiation and Indoor Air Branch,
       we reviewed relevant sections of the 1999
       Memorandum of Agreement between Region 2 and
       the EPA Office of Air and Radiation. We performed
       a limited review of EPA’s 1997 Strategic Plan,
       Region 2's October 1998 Strategic Plan, Annual
       Performance goals and EPA’s first Annual
       Performance Report (March 1999).

We judgmentally reviewed 16 on-going or recently closed
projects based on such criteria as dollar amounts, type of
agreement, and/or specific environmental threat (e.g., lead
poisoning, asthma). We determined the purpose of the
selected projects and compared them with activities
performed to conclude whether the goals and objectives
were achieved.

We reviewed internal controls related to selecting grantees
and awarding grants, cooperative agreements, and
interagency agreements. We did not review controls
associated with the input of information into the Region’s

          4

                                   Region 2's Management of Children’s Health
                                            Risk Initiative and Related Projects

                       Integrated Financial Management System (IFMS) or any
                       other automated system.

                       We reviewed Region 2's FY 1997, 1998 and 1999 Federal
                       Managers’ Financial Integrity Act (FMFIA) Assurance
                       letters. These letters neither discussed the Children’s Health
                       Initiatives nor disclosed any material weakness in the
                       program. The letters mentioned various Region 2 actions to
                       improve oversight of assistance agreements. These actions
                       are discussed in Chapter 3 of the report. Our fieldwork was
                       performed from April 1, 2000 to June 20, 2000.
                       Subsequently the Region provided additional documents
                       which were reviewed while writing the draft report.

Prior Audit Coverage   The OIG has not previously conducted any audits of this
                       new program. However, during the last three years the
                       OIG issued many audit reports regarding administration and
                       oversight of assistance agreements. Below is a brief
                       summary of certain audits. Corrective actions have included
                       system changes such as the Agency’s new post award
                       monitoring strategy.

                       1.	    The Center for Chesapeake Communities (CCC)
                              (9100117, March 31, 1999)

                       EPA awarded a non-competitive cooperative agreement to
                       the CCC without adequate justification which created an
                       appearance of preferential treatment. EPA also awarded
                       cooperative agreements to intermediaries, which in turn
                       awarded service contracts. The CCC acted favorably when
                       a contractor absorbed certain costs for incorporating the
                       CCC. This appearance of a conflict of interest should have
                       precluded award of the contracts. Neither the CCC nor its
                       contractor had financial management systems to properly
                       account for Federal funds.

                       2.	    Grants Awarded to the Center for Environment,
                              Commerce & Energy (9300006, February 17, 1999)

                       EPA awarded two grants with identical workplans, but
                       expected different work products. One grant was awarded

                                 5

           Region 2's Management of Children’s Health
                    Risk Initiative and Related Projects

by the Region III Chesapeake Bay Program Office and the
other by EPA’s Office of Environmental Justice. The
workplan was not adequate for either grant and contributed
to both offices receiving unsatisfactory products.

3.	    Pre-award Management of EPA Assistance
       Agreements (8100256, September 30, 1998)

Project officers did not always develop a well-defined
workplan, adequately determine and document that costs
were reasonable, or prepare decision memoranda which
contained all information required to support award
recommendations. Neither project officers nor program
officials reviewing and signing assistance approval
documents followed established guidance.

4.	    Assistance Agreements Awarded to National
       University of Continuing Education Association
       (NUCEA) (7100297, September 24, 1997)

NUCEA was to provide lead detection and abatement
training. The audit found that significant improvements
were needed in training procedures. For example, of 6,134
people EPA paid to train, 20 percent were not in lead
detection and abatement occupational fields. Also, EPA
paid fee waivers totaling $237,000 without receiving any
benefit. Project officers did not adequately monitor the
assistance agreements.

5.	    EPA’s Environmental Justice Small Grants Program
       (7100247, July 30, 1997)

The Office of Environmental Justice (OEJ) and the Regions
needed stronger program and grantee accountability
controls. Regional project officers did not actively monitor
project execution or use final reports. Neither the Regions
nor OEJ could determine successful grants because they did
not conduct substantive reviews of final reports.




          6

           Region 2's Management of Children’s Health
                    Risk Initiative and Related Projects

6.	    EPA Assistance Agreement Awarded to the Rural
       Community Assistance Program (7400013,
       December 3, 1996)

Improvements were needed to ensure EPA provides
adequate oversight. EPA’s file had little documentation to
show that the required oversight reviews of planned events
and costs were conducted. EPA should use site visits as a
monitoring tool, but few were performed.




          7

                 Region 2's Management of Children’s Health
                          Risk Initiative and Related Projects




This page intentionally left blank




                8

                                       Region 2's Management of Children’s Health
                                                Risk Initiative and Related Projects

                             CHAPTER 2

                    CHILDREN’S HEALTH INITIATIVE

                   REGION 2 PROGRAM EVALUATION



                           In 1997 the Office of Children’s Health Protection (OCHP)
                           was created to work with EPA Headquarters and Regions,
                           Congress, academic institutions, health professionals,
                           community groups, parents and others. OCHP’s mission
                           was to make children’s health protection a fundamental goal
                           of public health and environmental protection. This mission
                           was to be accomplished by coordinating children’s health
                           protection across the Agency, ensuring strong standards
                           that protect children’s health, using the best scientific
                           research to protect our children’s futures, and increasing
                           public education and community outreach on children’s
                           issues. At the Regional level, children’s health initiative
                           actions were primarily managed through assistance
                           agreements. We reviewed Region 2 agreements to
                           determine if they were timely and fully accomplishing the
                           expected environmental outcomes.

                           Region 2's children’s health initiative made great strides in
                           the last three years towards accomplishing its goals in line
                           with EPA’s overall mission. The Region (i) formed a
                           Children’s Health Workgroup; (ii) initiated a pilot project in
                           Newark, New Jersey; (iii) increased use of Indoor Air
                           Quality (IAQ) plans in schools; (iv) formed partnerships
                           with institutions, agencies, and community organizations;
                           and (v) funded children’s health projects in New York, New
                           Jersey and Puerto Rico. During this period Region 2
                           awarded 44 assistance and interagency agreements totaling
                           about $3.5 million for children’s research, training and
                           outreach activities. Although these awards increased public
                           education and community outreach, further actions are
                           needed to ensure EPA projects are timely completed and
                           yield significant benefit to children.

Office of Children’s       OCHP helped implement the President’s April 21, 1997
                           Executive Order to ensure new policies, programs, activities
Health Protection

                                      9

            Region 2's Management of Children’s Health
                     Risk Initiative and Related Projects

or standards address children’s unique risks presented by
environmental health or safety threats; address government
activities that might have an environmental health or safety
impact upon children; and assist parents in evaluating
children’s environmental health and safety risks. OCHP
chairs an EPA Board on Children’s Environmental Health to
integrate activities that will be protective of children,
identify children’s health initiatives, and disseminate lessons
learned. The Board serves as a resource for planning
activities designed to assure sufficient program and
Regional resources are available to adequately protect
children’s environmental health.

OCHP is divided into three teams. The Regulatory Team
provides a focal point for customers working to improve
regulatory systems to better protect children’s health. The
Science Team works to improve children’s health through
research on children’s risk issues and development of
scientifically sound public health environmental policy. The
Community Affairs and Outreach Team serves customers
who promote children’s health protection through public
information, education, and training. This team’s specific
responsibilities include:

•	     Expanding action on children’s environmental health
       risks by identifying successful outreach efforts that
       can be duplicated, lessons learned that can help
       others avoid potential pitfalls, and assisting program
       and Regional offices in forging links with external
       partners and communities to implement programs;

•	     Working with the Office of Environmental Justice,
       other program and Regional offices, and other
       stakeholders to ensure the regulatory system better
       protects children from environmental health risks;

•	     Providing an EPA framework to evaluate and show
       progress towards children’s health goals; and
•	     Serving as primary contact for EPA and other
       Agencies on children’s environmental health issues.

          10

                                       Region 2's Management of Children’s Health
                                                Risk Initiative and Related Projects

                            The Government Performance and Results Act (GPRA)
                            requires annual performance plans and reports. These plans
                            express objective, quantifiable, and measurable goals;
                            establish performance indicators to be used in measuring or
                            assessing relevant outputs, service levels, and outcomes of
                            each program activity; and provide a basis for comparing
                            actual program results with established goals.

                            Starting March 31, 2000 GPRA requires each Agency to
                            submit an annual program performance report which
                            includes performance indicators established along with
                            actual program performance achieved as compared to
                            established goals. If a performance goal was not met, the
                            report will explain plans and schedules for achieving the
                            goal, and whether the goal was impractical or infeasible.

                            EPA’s 1999 Annual Performance Goal #62 was to evaluate
                            five EPA regulations to ensure they were protective of
                            children’s health. However, EPA’s March 2000
                            performance report noted reviews were not completed, but
                            evaluations of eight regulations were to be completed in FY
                            2001. The report recognized much work was needed to
                            address risks from environmental hazards, and noted OCHP
                            milestone dates. In FY 2000 EPA will evaluate the Child
                            Health Champion Pilot to learn about community needs for
                            protecting children’s health, and develop the Children’s
                            Health Valuation Handbook.

                            The OCHP Director’s May 5, 2000, “Indicators of
                            Children’s Environmental Health” stated it is important to
                            develop measures of EPA’s progress in achieving
                            environmental health protection of children and a basis to
                            identify future priority areas. An important part of
                            measuring EPA’s progress and identifying additional efforts
                            is tracking measures of children’s environmental exposure
                            and health outcome. The OCHP and Office of Policy,
                            Economics and Innovation will develop a report focusing on
                            children’s environmental health indicators.

Region 2's Strategic Plan   Region 2's October 1998 Strategic Plan outlined the next

                                     11

            Region 2's Management of Children’s Health
                     Risk Initiative and Related Projects

three years’ children’s priorities and overall goals, strategies
and tasks through which children’s activities will be
coordinated, and the outcomes. Region 2's goal was to
improve children’s health by implementing environmental
programs that will yield significant benefit to children. To
achieve this goal, the Region’s three-tiered approach was to
implement activities identified on a national basis as
priorities in reducing threats to children’s health, conduct a
pilot program to identify the most critical environmental
threats impacting children’s health, and implement activities
to reduce risks identified during this assessment.

Region 2's Children’s Health Workgroup was to coordinate
activities, share information, and work on cross divisional
activities. Regarding indoor air pollution, the Region
planned to (a) support education of effective asthma
intervention and management practices, (b) support
intervention projects to reduce/eliminate exposure to indoor
pollutants, (c) form partnerships with research institutions,
other agencies, and community organizations, (d) increase
school IAQ management plans and develop plans for Puerto
Rico and the Virgin Islands, (e) work through cooperative
partners to reduce smoking exposure in the under 6 age
group, and (f) target hospitals and physicians to reach
newborns and parents regarding environmental tobacco
smoke (ETS) health threats.

The Region recognized performance measurement would be
difficult and many improvements would be measured at the
national level. Regional performance measurements
included a 20 percent reduction in children’s asthma
hospital admissions, 10 percent increase in the number of
the Region’s schools that would adopt good IAQ practices
by 2005, and a decrease in children’s blood lead levels.
Region 2's 1999 Memorandum of Agreement with the
Office of Air and Radiation noted specific Radiation and
Indoor Air Branch (RIAB) performance measures. For
example, under Indoor Environments, Headquarter’s overall
objective is that by 2005, 15 million more Americans will
live or work in homes, schools, or office buildings with

          12

           Region 2's Management of Children’s Health
                    Risk Initiative and Related Projects

healthier indoor air than in 1994. The performance goals
are that 850,000 additional people will live in healthier
indoor environments, and 1,600,000 students, faculty and
staff will experience better IAQ in schools.

Region 2 developed performance measures (commitments)
to address this area for FY 1999. Specifically, RIAB will:

1.	    Continue to encourage IAQ Tools for Schools
       implementation so that 25-50 additional Region 2
       schools will have documented implementation.

2.	    Capitalize on media campaign to reduce smoking
       where children reside, and conduct followup
       outreach to continue progress toward reducing by
       195,000 the number of children exposed to ETS in
       their homes. Region 2 and the New York State
       (NYS) Lung Association will target day care
       centers/maternity awards to reduce ETS exposure.

3.	    Support innovative intervention techniques to
       combat indoor environmental causes of asthma.

4.	    Support community empowerment to deal with
       increasing asthma rates and education for residents
       on common asthma indoor environmental triggers.

Measurement #1 will be discussed later in this chapter.
Regarding measurement #2, the Regional Administrator
informed the media to air a recent ETS public service
announcement, and the NYS Lung Association is working
with the Office of Children and Family Services to provide
the ETS day care module. Also, a grant with the Arthur
Ashe Institute provided ETS and asthma education.
To support measurements #3 and 4 RIAB funded five
projects ($695,000), and acted as PO for a large
community-based Newark, N.J. project. An asthma
educational video was also developed, a $75,000 grant in
Harlem was funded, and four presentations were made to
local groups and schools. While the Region had an overall

         13

                                Region 2's Management of Children’s Health
                                         Risk Initiative and Related Projects

                    strategy and funded various asthma projects, specific
                    performance measures have not been developed to
                    determine the results of these efforts.

Projects Reviewed   We reviewed 16 Region 2 children’s health projects
                    awarded in the last three years (totaling $2.3 million). Eight
                    asthma projects ($1.3 million) were managed by one PO,
                    and three projects ($662,000) pertained to IAQ areas. The
                    Division of Environmental Planning and Protection’s
                    (DEPP), Radiation and Indoor Air Branch (RIAB) managed
                    these 11 projects. We also reviewed three lead projects
                    ($300,000) monitored by the Division of Enforcement and
                    Compliance Assistance’s (DECA) Pesticides and Toxic
                    Substances Branch (PTSB). Two projects were
                    successfully completed, while the third was not as
                    successful. We attempted to review two other projects.
                    However, after interviewing many Region 2 officials, one
                    project (PRASA Initiative) could not be identified, while the
                    other one (Vega Baja) was a routine Superfund cleanup site
                    where families were tested for lead. We do not see any
                    unique actions specifically related to children’s health in
                    these two projects. (See Exhibit 1 for further details).

                    RIAB’s dedicated personnel actively strived to implement
                    the children’s health initiative. For example, the Branch’s
                    New York City Childhood Asthma Initiative has contributed
                    to decreased asthma hospitalization rates. Our audit
                    focused on the activities of two hardworking and motivated
                    POs. In addition to managing many agreements, these POs
                    had many other duties and responsibilities (conducting
                    training; coordinating other activities; and attending
                    conferences, meetings, etc). One PO had concurrently
                    managed 15 to 28 agreements in addition to other
                    responsibilities. Although this hands-on individual made a
                    valiant attempt to effectively manage her projects (including
                    a major pilot project) this was a difficult task. As a result,
                    many projects reviewed did not fully achieve the desired
                    goals, objectives or results. The ensuing paragraphs
                    illustrate partially successful projects and one project that
                    appears to be very successful.


                              14

                                  Region 2's Management of Children’s Health
                                           Risk Initiative and Related Projects


The Child Health      In 1998 EPA designed the Child Health Champion
                      Campaign to empower communities toward protecting
Champion Campaign     children from environmental health threats. EPA
                      established a one-year pilot involving 11 diverse nationwide
                      communities. Region 2's pilot program at the Newark
                      Ironbound Section was to address in a significant and
                      lasting way the need for information dissemination, early
                      identification, and prevention and reduction of asthma
                      triggers among Ironbound children. A Community Team
                      identified children’s environmental health problems, and set
                      specific goals with measurable outcomes. The project goals
                      were to increase understanding of environmental factors and
                      children’s asthma relationships; build high level community
                      participation in activities that help ameliorate early
                      childhood asthma detection and prevention problems;
                      reduce asthma environmental risks; and reduce children’s
                      asthma affliction by raising awareness of environmental
                      conditions. The Action Plan noted the following core
                      elements.

                      1.     An Asthma Information Referral Center.
                      2.     Effective multi-lingual literature.
                      3.	    “Asthma Busters” train the trainers campaign that
                             recruits and trains residents to conduct effective
                             outreach and community based training.
                      4.	    Training and outreach on children’s health related
                             issues including asthma triggers.
                      5.	    A targeted study of at least 20 preschool asthmatic
                             children to measure effectiveness of an intervention
                             program.

Measurable Outcomes   After a year of educating, informing, training and learning,
To Be Achieved        measurable outcomes were expected. Based on monthly
                      hospital reports and school records, the project expected a:

                      •	     25% reduction in hospital emergency visits due to
                             asthma for children 0-10 years old as indicated by
                             hospital data from Zip code 07105.
                      •	     25% reduction in school absences due to asthma in
                             grades Pre-K to 5.



                                15

                                     Region 2's Management of Children’s Health
                                              Risk Initiative and Related Projects

                        •
      50% reduction in emergency visits to hospitals and

                                pediatricians due to asthma for targeted study group

                                children.

                        •
      75% reduction in school absences due to asthma for

                                children in the targeted study group.


Difficulties During     The Action Plan and Statement of Work (SOW) were to be
Implementation Stage	   implemented between September 1999 and August 2000.
                        During the implementation phase the grant recipient faced
                        significant difficulties and could not fully accomplish several
                        planned tasks. Since delays in one area caused delays in
                        related tasks, the recipient unilaterally revised subsequent
                        workplan time lines. Dates for hiring a nurse, training
                        asthma busters, and conducting a target study were
                        changed, and followup of the target study family and child
                        after 6 and 10 months was eliminated. The following chart
                        shows the time line dates and tasks:

                                             Revisions to Workplan
                        Tasks                   June 1999     Jan 2000

                        Hiring the Nurse          May-June-99 Jan-00 (actual)
                        Asthma Busters            Aug-Oct-99 Jan-Nov-00

                        Identify 20 children* Sep-Oct-99            To be completed by
                                                                    Feb-00

                        Followup Activities       Feb-00            Task Eliminated
                        *       Including an additional 10-20 children for a comparison
                                group, the total # of target study children should be 30-40.


                        Difficulties recruiting a nurse, a technical resource for the
                        project and community day care center, caused initial
                        delays. She was to conduct a clinical study, identify 20
                        asthmatic children for target study, collect monthly hospital
                        reports, collect children’s profiles, and followup child and
                        family after 6 and 10 months. Since the nurse played a key
                        role in most activities, progress was severely jeopardized
                        until her January 2000 recruitment.



                                   16

                                       Region 2's Management of Children’s Health
                                                Risk Initiative and Related Projects

Asthma Buster Recruitment   Problems in Asthma Buster (AB) training and retention

and Retention               delayed progress since they “were central to all efforts”. 

                            The project aimed to develop 10-15 teams of 2-3 ABs each

                            (20-45 ABs) to provide information to 500 residents, and

                            environmental risk and asthma trigger training for 100

                            families. 


                            ABs were awarded $25 stipends upon completing training,

                            conducting a workshop, and distributing literature. As of

                            May 2000 only $1,350 of $11,000 for the AB initiative was

                            expended. As of June 2000 the project had only retained six

                            ABs which adversely affected project accomplishment. 

                            The Project Coordinator acknowledged that the project

                            would not meet the goals by August 2000, but hoped to

                            have 10-15 ABs by the September 2000 training session. 


Target Study                AB recruitment and retention problems caused significant
Not Implemented             target study delays because they play an important role
                            assisting the Coordinator and nurse with the target study.
                            Six months after the nurse was hired, the target study had
                            not started. Initially, the project planned an intervention
                            group of at least 20 pre-school asthmatic children to study
                            asthma symptoms, environmental triggers and health
                            outcomes (school absences, hospitalizations and emergency
                            department visits). The EPA contractor’s July 14, 1999
                            memo stated the target study outcome information and
                            other educational interventions would be preliminary and
                            weak. Also, results would not be very convincing, because
                            an external comparison group was lacking.

                            To strengthen the outcome the recipient agreed to add a
                            comparison group of 10 to 20 children. Project staff would
                            measure results and compare outcomes for both groups. In
                            December 1999, 20 children were identified, but after three
                            months the number was reduced to seven. As of May 2000,
                            children for neither group had been identified and the target
                            study had not started.

                            The recipient also unilaterally eliminated the followup
                            activity (planned for February 2000). As of June 2, 2000
                            the PO was unaware of this decision, and agreed it would


                                      17

                                    Region 2's Management of Children’s Health
                                             Risk Initiative and Related Projects

                        not be feasible to conduct the followup task within the
                        project period. The PO stated that the target study might
                        have to be eliminated and EPA would settle for a lessor
                        product, where the recipient would perform “something.”

                        The EPA contractor acknowledged our concerns and
                        rescheduled site visits. The contractor planned a March
                        2000 visit. However, because of problems recruiting ABs
                        and the nurse, the visit was postponed to June. Moreover,
                        due to target study problems it was rescheduled for July or
                        August, when they hoped progress would have been made.
                        If problems continued they would alert EPA for possible
                        retooling activities. The contractor noted that Region 1's
                        pilot project encountered problems, but it was timely
                        redesigned and redirected to overcome difficulties.

Lack of Evaluation      A project evaluation team was required to monitor
of Project Activities   progress, and measure accomplishment of goals. Followups
                        and quarterly monitoring of targeted families would
                        measure program effectiveness on the frequency and
                        severity of asthma episodes and school absences. Monthly
                        team meetings were required to review Project Coordinator
                        reports, assess progress, evaluate effectiveness, and propose
                        modifications.

                        The project coordinator acknowledged as of May 2000,
                        required evaluations and reports were not prepared.
                        Although she claimed progress was evaluated during
                        monthly team meetings, no meetings were held in the last
                        few months. Ongoing evaluations would have determined if
                        objectives were being met, and modifications (i.e. retooling)
                        were needed. This would have been especially helpful for
                        the delayed target study.

Progress Reports        Quarterly progress reports were required covering work
                        status and progress; difficulties encountered; preliminary
                        results; and subsequent period activities. Reports should
                        discuss expected expenditures compared to percentage of
                        the project completed to the project schedule, and explain
                        significant discrepancies. From July 1998 through
                        September 2000 eight reports were required. However, as


                                  18

                                    Region 2's Management of Children’s Health
                                             Risk Initiative and Related Projects

                         of June 1, 2000 only four were submitted. These untimely
                         reports did not always contain project status and other
                         required information, overlapped time periods, and
                         contained the same narrative as previous reports.

                         The January 1999 report was two months late. Although
                         the format covered major aspects, it was not subsequently
                         used. On June 1, 1999 the PO reminded the recipient to
                         submit the second report and timely submit future reports
                         detailing tasks completed, barriers encountered, contacts
                         made, sums expended (and how), and future activities.
                         The June 11, 1999 report included expenditures, but not
                         upcoming activities. The third report was repetitious
                         (February to December 1999) and lacked financial
                         information or future activities. The last report (September
                         to December 1999) had no financial information, upcoming
                         activities, or difficulties encountered. We could not
                         determine dates of the last two reports.

Personnel Expenditures   The PO had not reviewed financial information since the
                         original budget data. Although the PO approved the original
                         $35,000 funding for $7,800 (personnel) and $25,102 (other
                         costs), the recipient agreed to “submit an itemized budget
                         detailing the Other category once project goals are
                         determined.” The PO never requested and the recipient
                         never submitted this required information. However,
                         without the PO’s knowledge or approval, the recipient
                         unilaterally reallocated $19,543 from the Other category to
                         increase personnel salaries (from $7,800 to $27,343). The
                         PO stated she was not concerned with financial monitoring
                         as long as the work got done.
                         The original budgets estimated $7,800 and $52,000
                         personnel expenditures. The first budget estimated a level
                         of effort for one person (Coordinator). However, actual
                         expenditures tripled and included increased efforts for four
                         people. The second budget estimated expenditures for the
                         Coordinator ($25,000), Assistant ($10,000), Translator
                         ($5,000) and Nurse ($12,000).




                                   19

                            Region 2's Management of Children’s Health
                                     Risk Initiative and Related Projects

                 The recipient’s time distribution system did not comply with
                 required documented payrolls (actual employee activity)
                 approved by a responsible official. The Coordinator
                 transferred information from her appointment book to a
                 “time sheet.” However, the timesheet was incomplete, did
                 not segregate EPA asthma work from other asthma
                 activities, and lacked supervisory approvals. Also, the
                 Executive Director and nurse amounts were based on
                 estimated hours. For example, as of April 30, 2000 the
                 recipient claimed $4,000 of the $12,000 budgeted for the
                 nurse.

Status Updates   The PO’s June 26, 2000 status indicated the project was
                 successfully accomplishing certain goals. She believed Goal
                 1 was accomplished, community participation (Goal 2)
                 would not be at a high level, and Goals 3 and 4 did not have
                 predictable outcomes. EPA does not have a measurement
                 aspect and outside of hospital reports (not being received)
                 and the target study (which hasn’t begun) “all we have is
                 anecdotal reports.”

                 The PO acknowledged the AB campaign was proceeding
                 “slower than we hoped,” the target study has not yielded
                 results, the recipient will request a no cost time extension
                 (NCTE), and delays and workplan changes are “par for the
                 course when a project is not a contract.” She concluded
                 that if in the end the community’s awareness was raised and
                 there were “some reductions” in asthma symptomatology, “I
                 would consider this to have been a very successful effort.”
                 The PO thought the outcome percentages were
                 unreasonably high (first two goals unreasonable, and other
                 two goals potentially reasonable). Also, the target study
                 had not begun because recruitment had been unsuccessful,
                 (“predictable in a community based project”). Finally, the
                 PO believed the recipient’s goals were extremely ambitious
                 and OCHP officials should have rectified them during their
                 review. Therefore, “lack of delivery on these goals is not
                 surprising and is not the fault of the recipient.”




                           20

           Region 2's Management of Children’s Health
                    Risk Initiative and Related Projects

RIAB’s July 17-21, 2000 Highlights noted the significant
target study delays and a new plan was being formulated
which would provide “some evaluation information.”

•	     The target age will be expanded from 3-4 years old
       to children 12 and under.
•	     Rather than a study design, progress and symptom
       improvement will be evaluated from individual
       before-and-after comparisons.
•	     A home visit with followup and coordination will be
       part of the new plan.

The RIAB Chief’s July 25, 2000 memorandum stated two
goals were successfully achieved, and the third goal (asthma
busters) should be fully successful after a NCTE was
completed. The fourth goal (targeted study) contained
“ambitious” measures, and “if we had realized this we
would have cut back the expectations.” He noted the fact
that the recipient is revising the study strategy makes us
believe they will make some significant progress toward
being able to measure the success of their efforts. The Chief
said if one were to conclude that one of the goals were not
met, it was not as a result of grant management but because
we were naive to believe the goals were achievable with the
level of support we were providing. “I wish I could say we
were 100% successful at this time with this grant, but I am
not ashamed of 75%.”

We do not fully agree with some of these observations.
Regarding ambitious goals, RIAB’s February 15-19, 1999
Highlights reported two PO meetings to work with the
recipient “to develop measurable goals for asthma risk
reduction.” Also, OCHP’s contractor would review “the
measurable goals and potential for effective evaluation.” In
addition, OCHP on May 18, 1999 specifically asked the PO
to determine whether the recipient had evidence that the
anticipated outcomes would be so positive. Since outcomes
were not revised, it appears that the PO and recipient
believed they were achievable.



          21

                                  Region 2's Management of Children’s Health
                                           Risk Initiative and Related Projects

Conclusion             Project monitoring needed improvement to assure work was
                       proceeding according to the Action Plan. The PO was
                       responsible for monitoring project progress, providing
                       technical assistance, working with the grants specialist (GS)
                       to assure compliance with terms and conditions, reviewing
                       status reports and other products for timeliness and
                       completeness, maintaining technical project files, and
                       conducting periodic reviews. However, The PO
                       acknowledged in June 2000 she had been very busy, had not
                       reviewed the project file in a long time, and was unaware of
                       many important issues that affected the successful
                       completion of the project goals. Also, the PO’s financial
                       monitoring was virtually non-existent.

                       RIAB’s recent PO and Branch Chief’s updates and the July
                       17-21 Highlights indicate the Region and recipient are
                       finally addressing the conditions noted. The project has not
                       been, and we do not believe it will be, fully successful. We
                       believe more effective EPA project management could have
                       made the PO aware of problems, and appropriate retooling
                       actions could have been taken sooner. Since the project
                       period is about to end, planned Asthma Busters (“the
                       campaign’s link to the community”) have not been
                       recruited, the target study has not started, a control group
                       has not been identified, the followup component has been
                       eliminated, and a one year NCTE extension will be
                       approved, we cannot understand how the Region can be
                       happy with the success of this project.

Indoor Air Quality -   EPA developed an Indoor Air Quality - Tools for Schools
                       (IAQ - TFS) kit containing guidance to empower schools to
Tools for Schools      prevent and resolve IAQ problems. The kit features forms,
                       a checklist, video, and a problem solving wheel for tracking
                       health related complaints of school building occupants.
                       Since 1996 more than 30,000 kits had been distributed.
                       EPA Headquarters directs the program through agreements
                       with various associations, and is responsible for oversight
                       and monitoring the IAQ - TFS program.




                                 22

            Region 2's Management of Children’s Health
                     Risk Initiative and Related Projects

A database had been established to record schools which
received the kit, but there is no system to determine which
schools actually implemented the kit.

EPA’s Office of Air and Radiation’s October 1998
Memorandum of Agreement with Region 2 stated that by
2005, 15 percent of the nation’s schools will adopt good
IAQ practices consistent with EPA’s TFS guidance, and
1,600,000 students, faculty, and staff will experience better
IAQ in their schools. It also stated that Regional
performance measures would continue to encourage IAQ -
TFS implementation so that 25-50 additional Region 2
schools will have “documented implementation” in FY
1999.

During FY 1999 the Region claimed documented
implementation in 39 schools improving air quality for
20,000 children and staff. It also worked with New York
City schools on a long-range plan to improve air quality,
completed two pilots, and created specialized training
through the IAQ - TFS Network. The Region believed IAQ
- TFS implementation had not been successful during 1995-
1996 because they assumed kits would be used. Therefore
the Region changed its strategy and developed a program
for schools planning to utilize the kit, accompanied IAQ
teams conducting walkthroughs, and awarded agreements
to implement IAQ - TFS in remote school districts.

The following minimum elements for successful IAQ - TFS
implementation are the beginning of a systematic approach
to improving a school’s indoor environment.

1.     IAQ Coordinator and/or Team established.
2.     Walkthrough completed.
3.	    Checklist distributed and some returned, ventilation
       completed and teacher, maintenance, and renovation
       begun.
4.	    Management plan developed which identifies major
       issues and priorities, and repair schedule set.



          23

                                         Region 2's Management of Children’s Health
                                                  Risk Initiative and Related Projects


WNYCOSH IAQ - TFS             Two IAQ - TFS grants were awarded to the Western New
                              York Council On Safety and Health (WNYCOSH). On
                              September 1, 1998, grant X992924-01 ($20,000) was
                              awarded to oversee TFS implementation in six Buffalo, NY
                              schools from October 1, 1998 to September 30, 1999. The
                              consultant was to spend 15 hours per school for
                              walkthroughs, data review, training sessions, report
                              preparation, presentation of walkthrough results, and
                              followup assistance. This project was to assist schools in
                              preventing and addressing IAQ problems by implementing
                              seven workplan steps. Quarterly progress reports and a
                              final report of project accomplishments were required.

                              Eight months after the project started the PO requested the
                              “quarterly” progress report. On June 22, 1999 WNYCOSH
                              submitted the first report and a 60-day NCTE to November
                              30, 1999. The extension was necessary because the grantee
                              included more schools than planned, and walkthroughs were
                              not completed. EPA extended the project to April 2000
                              because of the project’s apparent success. The final report
                              was submitted on April 24, 2000. As of August 7th the
                              project has not been closed out.

                              Step 4 required a checklist data review, hands on
                              walkthrough of problem areas, and an IAQ team meeting to
                              communicate findings of the building walkthrough. Step 5
                              entailed the consultant’s Technical Report analyzing
                              walkthrough data and recommendations for abating
                              problems. Step 6 required discussing the report findings
                              and data analysis with each school’s IAQ Coordinator, staff,
                              parents and interested constituencies; recommending areas
                              that require attention; and addressing an action item list.
                              Step 7 required the Coordinator and team to develop a
                              schedule for maintenance and repairs identified in the
                              walkthrough and followup on problem areas.

Wilson District - 4 Schools   WNYCOSH did not fully complete steps 4, 5, 6, and 7.
                              Step 4 checklist data was reviewed, but hands-on training
                              walkthroughs focusing on problem areas and generating
                              actual data was not conducted, and the technical report was


                                        24

                                            Region 2's Management of Children’s Health
                                                     Risk Initiative and Related Projects

                                 not written or presented (steps 5, 6, and 7). WNYCOSH
                                 (no evidence of PO’s approval) deviated from the work plan
                                 and provided assistance to the school in developing skills
                                 for a management plan. The PO was unaware of this until
                                 we brought it to her attention.

Starpoint District - 4 Schools   Although work plan steps, including preparing and
                                 presenting the technical report, were performed for the
                                 Frianco Elementary School, no reports were prepared or
                                 presented for the remaining three schools. Also, no
                                 documentation was available to determine if walkthroughs
                                 were conducted or problems identified.

Waterfront District - 1 School   TFS checklists were distributed, but only three checklists
                                 were returned. A new IAQ team was formed; checklists
                                 were redistributed; checklist data was reviewed and
                                 summarized; and a walkthrough conducted. Although the
                                 walkthrough identified many issues a technical report with
                                 corrective actions was not prepared, no presentation was
                                 made, and no follow up conducted. The grantee offered
                                 “on-going assistance” in setting up a management plan and
                                 would subsequently meet with the team.

Salamanca District - 4           Checklists were distributed to the Middle School, a new
Schools                          IAQ team was created and IAQ coordinator/team training
                                 was set. In January 2000 checklists were distributed, an
                                 Elementary School walkthrough was conducted, and team
                                 members reviewed IAQ complaint procedures developed by
                                 other schools. However, no reports were prepared for any
                                 of the four schools.

Batavia District - 5 Schools     The final report noted more than 11 hours were expended
                                 for training and meetings, but the grantee was unable to
                                 complete the TFS program in any of the five schools.

Bennett Park District - 1        Checklists were distributed, data reviewed, and a
School                           walkthrough conducted. Although problems were found
                                 (water leakage, moisture problem, poor housekeeping,
                                 improper classroom storage, concern with paint fumes for
                                 newly painted area, etc.) no reports were prepared,


                                          25

                                Region 2's Management of Children’s Health
                                         Risk Initiative and Related Projects

                    presented, or follow up, activities conducted. The project
                    was completed in October 1999.

Subsequent Grant	   On September 25, 1999 another grant ($15,000) was
                    awarded to implement TFS in four schools (actual number
                    would be higher since they would work with the Rochester
                    School District). Interestingly, work plan steps 5 and 6
                    (writing and presenting technical report) which had not been
                    fully performed during the first grant, were modified. Step
                    5 stated that if enough data is generated from the
                    walkthrough training, the consultant will write a report
                    analyzing walkthrough results with recommendations.

PO Memorandum	      As a result of OIG audit concerns the PO’s June 27, 2000
                    memorandum acknowledged the workplan required the
                    consultant to analyze walkthrough data and make
                    recommendations for abating IAQ problems. The
                    memorandum stated that the status report indicated in the
                    first district, not enough data was generated to write a
                    detailed report because these schools did not have
                    significant problems that needed formal abatement. Our
                    review of this report noted the statement, “not enough
                    actual data was collected to generate a written report”
                    (emphasis added). The report did not mention the specific
                    problems identified. The PO’s explanation was a “technical
                    report of data analysis” was not needed.

                    The PO further stated that WNYCOSH informed her that a
                    technical report would only be prepared where enough data
                    was generated, or problems were serious. The PO stated
                    this was acceptable, although there was no prior written
                    approval for this workplan change. The PO acknowledged
                    the grantee’s final report included only one technical report
                    for one school where serious problems were found. She
                    indicated this was done with her “knowledge and prior
                    approval.” These statements significantly differ from the
                    PO’s prior comments to the OIG.

                    Contrary to the definition of implementation, RIAB’s July
                    25, 2000 memo stated they made “appropriate trade-offs”


                              26

                                      Region 2's Management of Children’s Health
                                               Risk Initiative and Related Projects

                          to get more schools to implement the TFS kit (underlying
                          GPRA goal) at the expense of not having management plans
                          for schools which implemented TFS, and did not have
                          problems requiring management plans while discussing
                          “actual implementation.” An EPA Headquarters official
                          stated the plan must be developed identifying and
                          prioritizing issues (irrespective of the magnitude), and
                          scheduling corrective actions.

Conclusion                The project was completed by March 2000 and the final
                          report submitted on April 24, 2000. The grantee believed
                          the project had been far reaching because it worked with
                          five districts, which represented 19 schools. EPA was also
                          very satisfied with the apparent success of the project
                          because it believed the grantee actually implemented TFS in
                          19 schools. However, we have concerns because four of
                          seven important work plan steps were not fully performed
                          for all schools. In addition, the final report acknowledged
                          that in one district (Batavia) the TFS program was not
                          completed in any of the five schools. Although EPA might
                          have gotten its “bean count” for 19 schools, the primary
                          objectives of assisting the schools in identifying, preventing
                          and resolving IAQ problems were not fully met.

                          The lack of accomplishment was primarily caused by
                          inadequate post award monitoring. During the 18-month
                          period the grantee only submitted one progress and a final
                          report, which the PO had not timely or adequately
                          reviewed. Moreover, the PO was unaware of the grantee’s
                          non-performance or deviation from certain work plan steps
                          until we brought it to her attention. She stated those steps
                          were not critical and would request WNYCOSH to submit a
                          statement that these steps were not done.

NIAID - Hunts Point IAG   On September 29, 1997 EPA initiated an IAG ($103,650)
                          with the National Institute of Allergy and Infectious Disease
                          (NIAID) from October 1, 1997 to September 30, 1998 to
                          supplement an ongoing Inner City Asthma Study (ICAS).
                          A NCTE extended the project to September 30, 1999.
                          Prior to the award the PO contacted the parties to concur


                                    27

                                   Region 2's Management of Children’s Health
                                            Risk Initiative and Related Projects

                        on a project that EPA could fund. As September 30th
                        approached, EPA rushed to get an award approved.

                        The original scope of work attached to the IAG was “An
                        Environmental Intervention in Homes of Inner City Children
                        with Asthma.” Environmental intervention of 12 months
                        and home visits was to take place within 2 weeks of the
                        baseline home evaluation, which would follow the baseline
                        clinical evaluation conducted at the Bronx Asthma Study
                        Unit (ASU) research center. Allergy skin tests would
                        determine whether children have been sensitized.
                        Intervention specialists would make 3 home intervention
                        visits during the first 3 months of the intervention year and
                        then quarterly visits for the remaining 9 months. Repeat
                        home evaluations would be conducted 3, 6, and 12 months
                        after the baseline evaluation to assess outcomes. Outcome
                        assessments were to be completed on environmental
                        intervention; environmental tobacco smoke mitigation,
                        irritant chemical mitigation, cockroach mitigation, cat
                        and/or dog mitigation, dust mite mitigation, rodent
                        mitigation and mold mitigation.

                        The Bronx ASU (Albert Einstein College of Medicine at
                        Jacobi Medical Center) would use EPA funding to replicate
                        ICAS environmental intervention in Hunts Point. Eligible
                        children will be identified from asthma-related admissions
                        and visits to Lincoln Hospital and then recruited for study
                        enrollment between intervention and control groups.

                        The Region’s response provided additional events prior to
                        the project award and the change in the original plans. It
                        acknowledged that the project plan failed, Einstein College
                        encountered difficulties implementing this plan, and in
                        October 1998 they proposed another plan (collaborating
                        with the NYC Department of Health Asthma Initiative).
                        The PO orally approved the new plan, but it was not until
                        January 1999 that she received documentation of the new
                        project plan.

Revised Scope of Work   In the latter part of 1998 the PO became aware that the

                                  28

            Region 2's Management of Children’s Health
                     Risk Initiative and Related Projects

original scope of work had been significantly revised even
though a proposed budget for the “slightly revised” project
was faxed to her on September 25, 1997. The new project,
Targeting the Environment for Asthma in Hunts Point,
revised scope was transmitted to the PO on January 6, 1999
(15 months after the award). She reluctantly accepted the
change detailed in Jacobi Medical Center’s document to
NIAID. To date EPA has not amended the project scope.

An August 3, 1998 Amendment extended the budget period
to September 30, 1999 as the ICAS work had been delayed
for technical reasons. The Amendment “will permit the
Region to fulfill activities we have previously committed to”
(emphasis added). These statements clearly relate to the
original statement of work activities.

On January 13, 1999 (3½ months after the IAG expired) the
PO realized the recipient never signed the August 1998
NCTE Amendment (finally signed on February 3, 1999).
On May 3, 1999 the grants specialist (GS) asked the PO if
the revised September 30, 1999 date was reasonable and
will another extension be necessary. The PO responded that
no extension was necessary and “the end date at this point
seems reasonable.” More than 14 months later the project
continued without a further NCTE. We were subsequently
advised that on August 24, 2000 another NCTE was issued
to extend the project period to December 31, 2000. As of
December 11, 2000 the recipient had not returned the
confirmation letter.

On February 12, 1999, 16 months after the award, Jacobi
Medical Center personnel finally sent the PO a narrative
description of the project. The PO currently states this
project leverages the experience and sources of the Jacobi
Medical Center group, and the New York City Department
of Health’s asthma intervention network, using 30 homes
participating in the Asthma Initiative’s program. The City
will perform intensive asthma education. The Jacobi
Medical Center group will perform ICAS baseline home
evaluation, minus air sampling, in 30 asthmatic homes,

          29

                                   Region 2's Management of Children’s Health
                                            Risk Initiative and Related Projects

                       analyzing dust samples for allergen levels at different project
                       stages, and collect asthma morbidity data.

                       The recipient’s May 10 and September 22, 1999 interim
                       reports noted problems recruiting and completing baseline
                       activities. As of May 10, 1999 only 14 families completed
                       baseline home evaluations, and the study accrual has been
                       slower than anticipated. Also, Hunts Point staff insisted on
                       accompanying recipient staff on home visits. Therefore,
                       scheduling followup visits became more complicated and
                       involved specific coordination. The recipient had to recruit
                       new families to replace those deactivated prior to
                       completion of baseline activities.

                       There was a lack of communication and coordination
                       between EPA’s PO, NIAID and the medical group. As of
                       May 16, 2000 the PO was not sure of the project status. On
                       numerous occasions she requested information from
                       NIAID, but had not received any response. The PO said
                       this was a difficult project since she could not contact
                       Jacobi Medical Center doctors to discuss project issues.

                       On June 13, 2000 the medical group stated that the original
                       scope of work attached to the IAG “was a very early draft
                       for discussion purposes. There was no agreement on the
                       scope of the work by our group in September 1997.”
                       Although EPA’s PO and GS believed the original scope of
                       work was finalized, the group responsible for the work
                       totally disagreed. As a result, there was no approved work
                       scope at the time of award.

Decision Memorandum	   GCMB’s September 30, 1996 guidance requires a decision
                       memorandum before awarding an IAG which includes:

                       •	     A description of the project’s objectives and
                              explanation how the IAG will accomplish them.
                       •	     If the funded work is part of larger project, the
                              description should be clear as to which parts of the
                              work are funded by the IAG.



                                 30

                                Region 2's Management of Children’s Health
                                         Risk Initiative and Related Projects

                    •      A determination that the cost of the work is
                           reasonable based on an independent cost estimate or
                           other appropriate EPA cost information.
                    •	     Assurance that all technical and scientific measures
                           will be performed in accordance with an approved
                           Quality Assurance Plan.

                    The August 29, 1997 decision memorandum did not address
                    these areas. In fact, the PO’s September 19, 1997
                    memorandum contradicts using an IAG: “Since EPA is no
                    longer actually supplementing the Inner City Asthma
                    Study, which was our plan and was the reason for having
                    done this as an IAG in the first place, next year if we secure
                    repeat funding we will give it to Einstein in the form of a
                    grant.”

Status Reports      The PO was not sure of the project status. The original 12-
                    month project (October 1, 1997 to September 30, 1998),
                    extended to September 30, 1999, is still incomplete and no
                    further extension has been granted. The recipient has
                    estimated the project completion date as September 30,
                    2000 and has been paid the full amount of $103,650.

                    No required status reports were submitted from the award
                    date until May 10, 1999 (almost 20 months). The three
                    untimely submitted reports (May 10, 1999, September 22,
                    1999, and March 24, 2000) lacked relevant technical
                    information, activities or reference to the scope of work;
                    omitted expenditure information; and had no indication of
                    PO review. If the PO had requested timely and detailed
                    status reports she could have been aware of current
                    activities.

Special Condition   This IAG included a Special Condition that the recipient
                    should hold monthly telephone consultations with EPA’s
                    PO. On May 16, 2000 the PO indicated she was unsure of
                    the project status and requested information from the
                    recipient, but has not received any return phone calls. There
                    is no indication of compliance with this condition.



                              31

                                  Region 2's Management of Children’s Health
                                           Risk Initiative and Related Projects

Financial Monitoring   The PO did not monitor the financial status or review any
                       expenditure data. The PO approved payment invoices on
                       May 12 and August 19, 1999 without reviewing supporting
                       cost documentation. The PO said the GS was responsible
                       for financial matters. On May 30, 2000 the medical group
                       informed the OIG that salary costs claimed were based on
                       estimated percentages of time budgeted (actual time
                       distribution records are not maintained). Comparing the
                       original budget to the latest submission indicated percentage
                       variances allocated for three of five personnel categories.
                       For example, the research assistant budgeted amount was
                       15 percent (total salary $3,323). However, the June 20,
                       2000, budget submission revised the research assistant
                       expenditure to 40 percent (total salary $13,449).

IAG Closeout           Between January and April 2000 GCMB requested the PO’s
                       status for closeout of the expired (September 30, 1999)
                       IAG. On May 4, 2000 GCMB informed the PO that the
                       agreement expired and asked how long it would take to
                       finish the project, and whether it should be extended. As of
                       June 2000 the project period had not been amended.
                       RIAB’s August 7, 2000 Grants Matrix indicated the project
                       will close on December 31, 2000.

Conclusion             This IAG was awarded without a final approved workplan,
                       and the original 12-month project period is now estimated
                       to be completed 33 months after the project start. There
                       were untimely and inadequate status reports, no financial
                       monitoring, and non-compliance with the special condition
                       requiring monthly telephone consultations.

                       After we informed the PO of our concerns on June 26, 2000
                       she prepared a project status update. The PO stated that
                       although she approved the original workplan, she was aware
                       in July 1997 that “EPA’s money needed to be used for
                       another purpose.” An alternate plan was developed, and we
                       saw it first in October of 1998" (emphasis added). This
                       statement shows that improved communication and
                       coordination was necessary in managing the various
                       projects’ scope of work. The memorandum describes


                                 32

                                     Region 2's Management of Children’s Health
                                              Risk Initiative and Related Projects

                          revised workplan activities which duplicates Dr. Crain’s
                          May 30, 2000 progress status update presented to the OIG.
                          This information was not previously submitted to the PO.

                          The Region’s response noted that the OIG critique of this
                          project was accurate on many counts such as the convoluted
                          paperwork and unsatisfactory level of iteration with NIAID.
                          Despite our concern we believe that when completed, this
                          will be an effective project and a good use of EPA funds.

Rutgers Training Center   In FY 1991 Region 2 entered into a $51,000 IAG with the
                          US Department of Agriculture - Rutgers University
IAG Amended Nine          Training Center for IAQ training. Between FY 1993 and
Times                     FY 1996 six amendments were approved for a total of
                          $212,761 for additional IAQ training.

                          On September 30, 1996 Amendment 7 ($25,000) expanded
                          IAQ programming to include inner city schools (IAQ
                          Investigation of PS 48). Phase 1 involved examining
                          building conditions to report all findings. Phase 2 entailed
                          IAQ - TFS workshops. The budget period was October 1,
                          1996 to September 30, 1997. On July 14, 1997 another
                          Amendment 7 was approved ($35,000) for a distinct
                          project, English/Spanish Video on Integrated Past
                          Management (budget period October 1, 1997 - September
                          30, 1998). The PO or GS were not aware of the duplicative
                          Amendment 7's. However, the GS corrected these
                          Amendments in August 1999 when a NCTE was issued and
                          after the PO became aware of this problem. As of
                          November 16, 2000 the Spanish version of the video had
                          not been finished, since Region 7 is completing the
                          translation. Also, the remaining funds will be used to
                          purchase and distribute additional video copies.
                          On September 24, 1997 Amendment 8 ($58,059) added
                          another distinct project (Radon Tech Support and Training
                          For New York and New Jersey) from October 1, 1997 to
                          September 30, 1998. Amendment 9 ($245,000), approved
                          with Amendment 8 (same budget period), was entitled IAQ
                          TFS/Hands on Training and School Walkthroughs in
                          Regions 2, 3, 4, 5 and 9 school buildings.



                                    33

                                      Region 2's Management of Children’s Health
                                               Risk Initiative and Related Projects

No Cost Time Extensions   On July 28, 1998 EPA’s program office requested a NCTE
(NCTEs)                   (Amendment A) to September 30, 1999 since the Training
                          Center had not spent the existing resources. Another
                          NCTE to September 30, 2000 (Amendment B) was
                          requested and approved on August 20, 1999 because the
                          Training Center “has not yet had adequate time to spend the
                          existing resources. Assisted building walkthroughs and the
                          development of an asthma triggers video will result from
                          this extension.” The NCTE related to the Amendment 7
                          and Amendment 9 projects. Amendment B also adjusted
                          the IAG amount to $626,836 due to the error in awarding
                          two Amendment 7s.

                          The Region’s response noted that the recruitment of schools
                          had been slower than anticipated, and rushing to complete
                          the project in late Spring or early Fall would have resulted
                          in a less satisfactory product. The NCTE resulted in a 25
                          percent increase in the number of schools to be counted in
                          the GPRA goal.

IAG Should Be For A       PO responsibilities outlined in the Office of Administration
Distinct Project          and Resources Management’s (OARM) “Managing Your
                          Financial Assistance Agreement” and Resource
                          Management Directives System (RMDS) 2550-C-04 state
                          each IAG should be for a distinct project with a closely
                          defined objective or work product. Agreements may not
                          combine separate projects, or include unrelated activities
                          that do not serve the same objective. We believe this IAG
                          erroneously combined several distinct projects.

Financial Monitoring      RMDS 2550-C requires the PO to monitor IAGs. The
                          responsibility includes monitoring EPA’s receipt of goods
                          or services, and reviewing detailed cost information
                          required of the Agency providing goods or services. The
                          PO must also review the other Agency’s payment requests.
                          Each IAG includes the following condition:

                                 When requesting payments, a breakdown of the
                                 cost associated with billing request must be provided
                                 to the PO. This information should be adequate to


                                    34

                        Region 2's Management of Children’s Health
                                 Risk Initiative and Related Projects

                    allow the PO to determine that costs billed to EPA
                    are necessary and reasonable. If information is not
                    provided, the PO will notify the Financial
                    Management Division to suspend or charge back the
                    payment.

             The PO neither complied with this condition nor reviewed
             any cost information prior to approving payment requests.
             For example, the PO approved the August 10, 1998
             payment requests for $303,068 on August 17, 1998 without
             reviewing cost documentation. As a result EPA had limited
             assurance that funds were spent for the intended purpose.

Conclusion   We do not believe this IAG should have been amended nine
             times for non-related projects to increase the amount to
             $626,836. Also, the PO should have reviewed cost
             documentation before approving payment.

             This IAG should not have included four unrelated
             amendments ($363,069). New IAGs or other agreements
             should have been issued for these distinct projects to ensure
             better accountability. Adding new projects caused additional
             problems. For example, it wasn’t until July 1999 that the
             Region realized two Amendment 7s were issued for
             separate projects ($25,000 and $35,000) and award
             documents had not accounted for $35,000. Also, the
             recipient requested two NCTEs to extend the period from
             September 30, 1998 to September 30, 2000 and a third
             NCTE might be needed to complete committed work. As
             of August 7, 2000 neither the walkthroughs nor the Spanish
             version of the video had been completed.

             Amendments for separate activities impacted the Rutgers
             Training Center’s financial accountability as noted in its
             February 21, 2000 status report. For example, its general
             operating account was overdrawn by $10,000. Its IAQ -
             TFS account (Agreement X99297-01) expenditures were
             erroneously charged to a different EPA agreement, and
             journal entries and salary adjustments were made to correct
             this mistake. Various IAG amendment amounts were


                       35

                                Region 2's Management of Children’s Health
                                         Risk Initiative and Related Projects

                    consolidated in Account 4-24372 (EPA IAQ Training)
                    “where the bulk of the problem exist.”

                    This account covers four Amendment workplans. Direct
                    and indirect expenses were erroneously charged to this
                    account rather than other EPA and non-EPA accounts. For
                    example, EPA’s IAG account was erroneously charged for
                    salaries in an agreement between Rutgers and New Jersey.
                    These errors were corrected prior to the OIG audit.

Camden - Asthma &   On September 15, 1999 EPA was requested to fund an
                    asthma and lead abatement project in Camden and
Lead Abatement      Philadelphia. The next day the PO noted that the applicant
                    had “not worked out a lot of details” and EPA would “need
                    a revised workplan by November 15th.” On September 27,
                    1999 the Region awarded a Cooperative Agreement
                    ($253,551) for the period October 1, 1999 to September
                    30, 2000. After the award many problems surfaced.

                    The PO had not approved the workplan and time line, and
                    constantly reminded the recipient to submit these
                    documents. The recipient’s principal investigator (PI)
                    constantly provided excuses for submitting untimely or
                    incomplete documents. For example, the November 1,
                    1999 time line noted three activities (hire program
                    coordinator by November 29, 1999, initial launch by
                    December 15, 1999, and begin training by January 5, 2000).
                    These dates were not met.

                    On November 16, 1999 the recipient submitted the first
                    proposed workplan, which EPA rejected. On December 16,
                    1999 the recipient apologized for the project proceeding at
                    such a slow pace. Another revised proposal was submitted
                    on January 10, 2000. Also, the recipient notified the PO
                    that the launch date would be further delayed, and they
                    were still seeking a program coordinator.

                    On January 31, 2000 an EPA official informed the PI: “I
                    am having a crisis of confidence, not over this incident but
                    over a larger pattern. My bottom line question is can you
                    handle this project? There is money involved, deadlines,

                              36

                                  Region 2's Management of Children’s Health
                                           Risk Initiative and Related Projects

                      receipts and your word has to have credibility.” During
                      March another draft workplan was submitted and the PO
                      sent a letter to the PI regarding his ability to handle the
                      Camden project, based on “consistently missed deadlines,
                      failure to finish a workplan, and not consulting with us on
                      issues we requested.” The letter requested a meeting to
                      discuss proposed dates for all activities. At the April 10th
                      meeting the PI promised to submit a new workplan,
                      estimate, budget breakdown and time line by April 24th.

                      Another revised proposal was submitted on April 14, 2000,
                      but EPA officials were not satisfied. In May 2000 EPA and
                      the recipient terminated the services of the PI because of
                      the problems described and a new workplan was finally
                      approved. As a result, eight months have gone by without
                      any substantial activities being performed.

                      The RIAB Branch Chief’s July 25, 2000 memorandum
                      agreed this project was rushed to be issued by September
                      30th. The Branch did not have the ability to get a workplan
                      in place prior to the award since the original grant support
                      and schedule was dictated from outside the Branch. The
                      Chief believed “we did the best we could with what we had
                      when we had it.” Finally, eight months after the award, the
                      project has a workplan and a project manager, and will be
                      extended for one year.

Montefiore - Asthma   On August 20, 1998 EPA approved a grant ($80,000) to
                      Montefiore Medical Center from September 1, 1998 to
                      August 31, 1999. EPA subsequently approved an
                      amendment for another $80,000 and the project period was
                      extended to August 30, 2000. The purpose of study was to
                      develop interventions to improve the health of severely
                      asthmatic children by enrolling 30 families. Only two of six
                      required status reports were submitted as of May 2000.
                      The recipient experienced difficulties in recruiting
                      candidates for the study. In March 1999 the recipient
                      informed the PO that recruiting effort increased and there
                      was “renewed hope that we’ll meet our commitment.” The
                      latest status report (May 3, 2000) indicated that a key

                                37

                              Region 2's Management of Children’s Health
                                       Risk Initiative and Related Projects

                  person left, and another person left but recently returned.
                  Employment problems continued, involving coordinating
                  activities and recruiting and enrolling subjects. Despite
                  altering entry criteria which would result in a trade off, the
                  recipient was still largely unsuccessful in recruiting subjects
                  over the past 18 months (only 18 children in 14 families
                  from the 30 targeted). The recipient made concessions to
                  enlarge the potential pool (i.e. lowering history severity of
                  the disease). As of the date of our review it appears that the
                  project will not be fully successful and a NCTE until August
                  30, 2001 will be approved.

                  The Region’s response noted that recruitment for this study
                  was difficult, the Project Manager displayed flexibility and
                  intelligence and modified the process, and through these
                  recent modifications the project is now fully successful.

Puerto Rico DOH   On September 23, 1996 the Puerto Rico Department of
                  Health (DOH) submitted an application to hire a
                  coordinator to address asthma prevalence, consistent with
                  the Catano Workshop recommendations. The coordinator
                  was to implement a plan, develop and evaluate data related
                  to accomplishing the plan objectives leading to concrete
                  recommendations, and identify shortfalls and recommend
                  actions. On September 27, 1996 a cooperative agreement
                  ($58,500) was approved from October 1, 1996 to
                  September 30, 1997. EPA requested a waiver from the
                  Intergovernmental Review Process due to the untimely
                  application submission since Region 2 “must execute this
                  award by October 1, 1996 or funds may be rescinded.”
                  Status reports were sporadically submitted between January
                  1997 and March 1999. Two NCTEs were approved to
                  extend the project from September 30, 1997 to September
                  30, 1999, and the PO was unaware that a final report had
                  not been submitted until informed by an OIG auditor. This
                  project had significant problems from recruiting activities,
                  purchase of office equipment, resignation of original
                  coordinator, and untimely completion.




                            38

                                      Region 2's Management of Children’s Health
                                               Risk Initiative and Related Projects

                          Between May and July 2000 the PO tried to locate the
                          missing final report to close out the agreement. On August
                          7, 2000 the Branch Chief advised that the recipient finally
                          submitted the final report which will be reviewed by the PO.
                          The PO and Branch Chief acknowledged this was not a
                          successful project.

                          The Region’s response provided additional details regarding
                          the unqualified person filling the asthma coordinator
                          position. It agrees this was not a successful project, but
                          was not a result of inadequate project monitoring. We
                          emphasize that improved project monitoring could have
                          negated many of the problems noted.

Montefiore Lead Busters   On September 26, 1997 EPA Headquarters awarded a
                          $249,720 grant to Montefiore Medical Center to develop a
                          self-sustaining community-based outreach program to
                          eliminate lead poisoning in high risk New York City
                          neighborhoods. This Community University/Partnership
                          (CUP) grant was monitored by Region 2's DECA-PTSB.
                          Community volunteers (lead busters) will be trained to
                          perform outreach efforts by disseminating information.

                          The recipient’s efforts have met many project goals and
                          objectives. However, problems have been encountered
                          especially in recruiting lead busters to perform outreach
                          actions, and replacing the co-principal investigator. The
                          eventual replacement was simultaneously handling two
                          functions which caused project delays.

                          Initially, 30 lead busters started to be trained, but only 15
                          completed the required courses. Currently, only 6 lead
                          busters are available, training at the Manhattan site has not
                          commenced for at least nine months, and all future
                          recruiting has ceased. The Principal Investigator does not
                          believe the project will be self-sustaining without future
                          EPA funding. The OIG as well as the PO are concerned
                          that the original workplan did not have measurable goals to
                          determine project success. Measurable goals might include
                          such items as conducting 50 training sessions, conducting


                                    39

                                  Region 2's Management of Children’s Health
                                           Risk Initiative and Related Projects

                      one hour presentations to 5,000 people, or sponsoring a
                      health fair expecting 1,000 parents and children to attend.

IPM - Lehman Houses   The following illustrates a successful project due to the
                      PO’s and recipient’s outstanding efforts.

                      On September 17, 1998 a cooperative agreement was issued
                      to the New York City Department of Health for $159,454
                      (matching funds of $127,540) for the period October 1,
                      1998 to December 31, 1999. The application provided a
                      detailed statement of work to implement Integrated Pest
                      Management (IPM) practices in the New York City
                      Housing Authority (Lehman Houses).

                      A detailed budget showing the level of effort for 13
                      individuals and other consultants was presented. The terms
                      and conditions required quarterly progress reports and a
                      final report. The final report must include a project
                      overview including completed workplan activities; project
                      successes, including how problems were overcome;
                      activities not fully accomplished, and any substituted
                      activities; methods to be used to disseminate project
                      information or continue benefits of the project; and
                      materials generated (workshop announcements, newspaper
                      articles, pamphlets). On September 24, 1999 a continuation
                      agreement for $157,404 ($81,871 matching share) was
                      issued to continue funded activities.

                      The project progressed in an efficient manner. The January
                      20, 1999 project team meeting discussed initial steps at the
                      Lehman Houses “intervention” and “control” buildings.
                      The intervention building would undergo intensive IPM
                      inspection, maintenance, etc. The March 1, 1999 progress
                      report and Highlights noted project activities (“residents are
                      enthusiastic, project team is motivated, and entire effort is
                      becoming increasingly focused”). On April 16, 1999 the
                      recipient (based on a PO request) submitted a preliminary
                      expenditure report noting completion of most preliminary
                      project stages, and recipient and consultant expenditures.
                      Since the recipient had not submitted an April 1, 1999

                                40

                                Region 2's Management of Children’s Health
                                         Risk Initiative and Related Projects

                    progress report, the PO’s June 1, 1999 letter reminded the
                    recipient of this matter. At the June 2, 1999 project team
                    meeting the current areas of concern were discussed. The
                    November 17, 1999 and April 17, 2000 progress reports
                    discussed specific workplan activities.

                    On May 18, 2000 the recipient provided an overview of
                    projects goals and objectives, training efforts and
                    accomplishments. To date, 90 apartments in the
                    intervention building have been tested; 41 of 45 control
                    building apartments have been completed. Success
                    involving significant reduction of cockroach, mice, and
                    pesticides use has been achieved (first year’s goal). The
                    second year goal is to receive similar treatment for the other
                    450 apartments. The project validated that IPM produces
                    better results than pesticides. Currently, the recipient is
                    completing the replication plan and final report, and the
                    project will be extended to accomplish allergen sampling.
                    We were recently advised that the New York City Council
                    has agreed to fund replication of this project on a much
                    larger scale.

Conclusion          The Region made great strides in initiating its children’s
                    health initiatives, but further actions are necessary. We
                    acknowledge that all EPA funded projects will not always
                    be fully successful. However, more effective post award
                    monitoring and oversight should assure greater success in
                    achieving a successful project. We have summarized eight
                    projects which at the present time have not been fully
                    successful, and indicated areas where the PO could have
                    improved project management. We also included one
                    project which appears to be achieving EPA’s and the
                    recipients’s desired goals and objectives.

                    In Chapter 3, we will discuss the overriding issues that have
                    contributed to the varying success that children’s health
                    initiative projects have achieved. We will also provide
                    specific recommendations to improve the program.

Region 2 Response   The Region’s November 16, 2000 response provided

                              41

            Region 2's Management of Children’s Health
                     Risk Initiative and Related Projects

updated project information or clarified certain matters. For
all projects other than the Child Health Champion Campaign
Pilot and the Indoor Air Quality - Tools for Schools
WNYCOSH projects, comments are provided in the
appropriate section of the report.

Regarding the Child Health Champion Campaign Pilot the
response stated this project was intended to test methods of
reducing risk from environmental problems, and test
outcomes to learn from program successes and failures.
Success or failure of individual project activities did not
indicate failure of overall program or individual site’s goals.
During the audit the target study was uncertain, recruiting
methods were not successful, and the study lacked much
statistical power because of the limited participants. On
August 11, 2000 a revised target study was submitted to
EPA which condensed the original plan, expanded the
childrens age range from 3-4 years to 12 and under, and
eliminated the control group. Although the revised version
had a less rigorous evaluation component, the Region
believed the project would indicate progress or lack of
progress based upon the intervention methods, and that was
a good start.

Although the PO and OCHP approved the grantee’s
numerical goals, EPA was somewhat unfamiliar with the
realistic project expectations. Also, difficulties in recruiting
participants (i.e., nurse), and conducting studies that do not
include large incentives and require home and clinic visits
were not unusual. Moreover, the grantee, a community-
based, grassroots group with lower-budget operations, was
inexperienced in performing outreach/intervention with a
technical evaluation aspect.

Regarding WNYCOSH the Region concurred that portions
of the IAQ - TFS kit and work plan elements were not fully
completed , but believed the program had been largely
successful. Steps were omitted because they were not
important and “there was reasonable certainty that no IAQ
problems were apparent.” By omitting steps the grantee

          42

                            Region 2's Management of Children’s Health
                                     Risk Initiative and Related Projects

                implemented IAQ - TFS in more schools which led to more
                risk reduction without placing an undue burden on the
                schools. Also, work plan steps were omitted with the PO’s
                full knowledge and approval.

                The response stated the success of any first-time grant
                (WNYCOSH) dealing with a voluntary program is
                dependent upon the grantee’s flexibility to adjust and refine
                the approach as difficulties were encountered. WNYCOSH
                was one of the first organizations to pilot IAQ - TFS in
                school districts without significant EPA hand holding. The
                Region viewed this grant as a learning process, and lessons
                learned were addressed in subsequent agreements. The
                Region agreed that only one required quarterly report was
                submitted eight months after the project started, but did not
                view project management as a problem.

                Regarding work plan steps 5 and 6 (writing and presenting a
                technical report) the Region stated that a report written for
                its own sake yields no benefit to the school nor improves
                the health outcomes for its occupants. The workplan was
                viewed as a “good faith effort” to capture IAQ
                improvements. Moreover, EPA’s April 17, 2000 definition
                of implementation stated that a management plan should be
                developed identifying major issues, determining priorities
                and setting a repair schedule, but did not indicate a formal
                written report be prepared. Also, a walkthrough summary
                (not a formal report) could list major issues and priorities to
                be addressed, and many problems could be fixed during the
                walkthrough without a formal repair schedule. Schools
                without significant air quality problems did not need a
                management plan.

OIG Comments	   We do not believe the Child Health Champion Campaign
                Pilot project’s sole intention was to learn lessons, whether
                efforts were successful or not. Since Federal funds were
                expended to develop and implement an Action Plan with
                specific EPA approved goals, we should be more interested
                in accomplishments than lessons learned. We have no doubt
                this project will disclose many lessons learned. EPA must

                          43

            Region 2's Management of Children’s Health
                     Risk Initiative and Related Projects

accept its share of responsibility and acknowledge that close
EPA oversight is necessary for pilot projects to succeed.
While it is understandable that difficulties could occur
during the implementation phase, the project should have
been more closely monitored from the beginning and
immediate actions taken as difficulties occurred.

For example, on June 2, 2000 (five months after
implementation) the recipient’s coordinator realized the
project was not progressing as expected. Only six asthma
busters were on board and recruitment of required 20 - 45
asthma busters by the project end date (August 31, 2000)
was not possible. Since the recipient could not obtain
monthly/quarterly hospital and school reports on children’s
admissions, emergency room visits and school absences, the
recipient changed the plan to obtain information from
parents. The recipient also considered changing target
study follow up activities after 6 and 10 months to monthly
(since the study had not started) and eliminating the control
group. Therefore, we suggested that the recipient meet
with the EPA to discuss project changes.

On the same day we discussed the project status with the
PO, who had been busy with many other projects and not
reviewed the project file in a long time. She was satisfied
with the overall progress, but agreed that we had more
updated information than she did. She acknowledged the
target study had not started, the control group would be
eliminated, planned asthma busters were not recruited,
follow up of children after 6 and 10 months would not be
conducted within the project period, and all action plan
goals would not be met.

As a result of the revised plan (20 days prior to the project
end date) nine families had been recruited to participate.
However, based on the project history there was no
certainty regarding retention of these families. The response
noted that studies with small incentives to participants and
multiple home and clinic visits were notorious for a difficult
recruitment period. If such difficulties were known during

          44

           Region 2's Management of Children’s Health
                    Risk Initiative and Related Projects

the action plan development, other activities should have
been considered to achieve more effective and timely
outcomes. If difficulties were not known until
implementation, increased monitoring should have been
performed to evaluate the recruitment status, and revisions
made when reasonable progress was not achieved. The
response acknowledged difficulties in hiring a nurse.
However, after hiring the nurse, other activities did not
progress as planned. Seven months passed until EPA
recognized that the action plan could not be fully
implemented without revising or eliminating activities.

If the PO’s workload had not overwhelmed her and she had
time to more closely monitor this project, EPA would have
received a more successful product. EPA spent $35,000 to
produce an action plan and many months reviewing,
modifying and approving it. Then allotted $100,000 to
implement the plan, and is now trying to salvage the project
since the original plan was not achievable. While reviewing
the proposed action plan OCHP asked the PO whether the
anticipated outcomes would be achieved. Since the PO and
the recipient determined these goals to be realistic, they
were not revised.

The Region deemed the grantee capable of accomplishing
project goals because of a prior working relationship and
background in community based non-EPA projects. If
subsequently the grantee was deemed incapable, it was
important to monitor the project more closely, require
timely and complete status reports, review those reports and
take appropriate actions. OCHP’s memo to the PO
reiterated the importance of monitoring this agreement, and
the recipient’s progress reports would be used for the
national evaluation. Therefore, additional measures should
have ensured activities were progressing and progress
reports contained all relevant information, and were timely
received and reviewed. However, between July 1998 and
September 2000 the PO only received four of eight required
reports, all were late, and did not contain all required
information.

          45

            Region 2's Management of Children’s Health
                     Risk Initiative and Related Projects

Eliminating the control group, substituting potentially
unreliable parental information rather than hospital and
school reports, and monthly target study followup rather
than after 6 and 10 months raise questions whether the
intended results would be achieved. Although failure of
individual activities does not indicate failure of overall
project goals, failure of many significant individual activities
(although there may have been some justification) severely
impacted the overall project accomplishment. We are not
concluding this was a failed or unsuccessful project, but it
appears that it will not achieve many of its intended goals.

On January 30, 2001 the PO advised us that the August 11,
2000 revised study was not proceeding as planned. She
recently learned from the recipient that the 10 people
identified for the six month study “disappeared” and
therefore the study could no longer be conducted.
However, she believed that the Asthma Buster component
of the project was working well. Since the extended project
period will end in April 2001, she asked the recipient to
focus on the Asthma Buster component and “forget about
the study.” She stated that the non-performance of the
study will be noted in the final report. This further confirms
our concerns that even after revising the plan the project
will not be fully successful.

Certain aspects of the WNYCOSH program were very
successful, while others were not, and agree that some
flexibility might be needed for project success. However,
work plan deviations should not be an arbitrary grantee
decision without prior written PO approval. Contrary to the
statement that certain steps were omitted with the PO’s
approval, this deviation was not concurrently documented.
Specifically, on May 22, 2000 OIG auditors asked the PO if
the grantee’s April 24, 2000 final report complied with all
work plan steps. The PO had not completed such review
and was unaware of the grantee’s non-performance of
certain steps. On June 27, 2000, the PO memorialized
WNYCOSH work plan changes. We do not view the work
plan only as a “good faith effort” to capture IAQ

          46

            Region 2's Management of Children’s Health
                     Risk Initiative and Related Projects

improvements, but also the project blueprint to be followed.
All work plan changes must be pre-approved by the PO and
documented in the file. Nonperformance of significant work
plan steps does not provide adequate assurance that project
goals were met and EPA received what it paid for.

Project management responsibilities include ensuring that
the recipient complies with the programmatic requirements
of the award. EPA guidance requires the PO to effectively
monitor the project and review recipients’ progress reports,
or, if feasible, conduct on-site reviews. In the absence of
on-site reviews, the PO should have effectively assured that
all work plan steps were being followed by reviewing
required quarterly reports. However, the Region
acknowledged that during the 18-month project period only
one progress and a final report was submitted.

EPA’s April 17, 2000 definition of implementation clearly
described four elements as the “minimum starting point” and
“beginning of a commitment to a process of a systematic
approach to improving a school’s indoor air environment.”
EPA’s May 1995 IAQ Coordinator’s Guide stated that
everyone affected (students, parents, teachers, staff, and
administration) should receive a report of IAQ issues, and
the management plan was not complete until others knew
the air quality status in the respective school. It also stated
that good communication could help prevent IAQ problems
and allay unnecessary fears.

If WNYCOSH fully complied with the work plan, the
consultant would have prepared written reports (not
necessarily a long report) analyzing walkthrough data and
making recommendations for abating IAQ problems. For
example, in the Bennett Park school various problems
(water leakage, moisture, poor house keeping, improper
classroom storage, and concerns with paint fumes) were
noted, but no report was prepared. Also, step 6 required
the consultant to present and discuss the report with the
IAQ Coordinator, Team, school staff, parents and other
interested constituencies. In addition, the grantee should


          47

            Region 2's Management of Children’s Health
                     Risk Initiative and Related Projects

have recommended areas that required attention and an
action list of items to be repaired/addressed. This was not
done.




          48

                                  Region 2's Management of Children’s Health
                                           Risk Initiative and Related Projects

                       CHAPTER 3

       MANAGEMENT OF ASSISTANCE AGREEMENTS NEEDS

                     IMPROVEMENT



What Was Found        Region 2 needs to significantly improve its management of
                      children’s health initiative and related assistance agreements
                      (grants, cooperative agreements) and IAGs. Specific
                      system problems included (i) inadequate review and
                      approval of applicants’ project narrative/workplan; (ii)
                      incomplete decision memoranda; (iii) untimely submitted
                      required progress and final reports, exclusion of all relevant
                      technical and financial details, and lack of evidence of PO
                      review; (iv) lack of financial monitoring; (v) frequency of no
                      cost time extensions; (vi) inadequate documentation of
                      project monitoring actions (conversations, meetings, on-site
                      reviews); (vii) projects not reviewed and evaluated; and
                      (viii) untimely project closeout. In addition, weaknesses
                      were noted in recipients’ accounting systems to properly
                      allocate actual personnel expenditures to EPA awards.

Why It Occurred       These conditions were generally caused by the program
                      office’s inadequate controls over assistance agreement post
                      award monitoring activities. Specific contributing factors
                      were: PO’s inadequate project files which were incomplete
                      and not in accordance with Headquarters requirements;
                      numerous projects assigned to one PO and other program
                      priorities; and an inadequate system for tracking untimely
                      progress reports.

What Was The Effect   As a result, children’s health related projects were not
                      always completed timely and often did not provide the
                      promised research, education, or outreach environmental
                      products. Thus, anticipated progress on children’s
                      environmental health issues were not always attained.
                      Specific illustrations of untimely, incomplete, or less
                      successful projects were noted in Chapter 2 of this report.

Background            In 1996 the Office of Inspector General (OIG) found the
                      Agency had a material weakness in the management of

                                49

           Region 2's Management of Children’s Health
                    Risk Initiative and Related Projects

assistance agreements. The OIG reported that files lacked
documentation that EPA monitored progress, or required
recipients to complete projects and submit required closeout
documentation. In FY 1997, the Deputy Administrator
requested each Senior Resource Official conduct a
vulnerability assessment “Management Effectiveness
Review” (MER) of assistance agreement activities. The
program offices reported:

%      Lack of documentation of monitoring activities.
%      Lack of PO understanding of their role in closing
       out an agreement.
%      Incomplete decision memoranda lacked crucial
       information (noncompeting not justified, no
       justification for award as assistance vs. acquisition).
%      Project work plans did not contain clear objectives.
%      Lack of training on how to monitor assistance
       agreements financial expenditures.
%      Lack of training for managers.

Assistance agreements are EPA’s primary vehicle to deliver
environmental and public health protection. EPA’s 1998
Integrity Act Report to the President and Congress included
grant closeouts and assistance agreement oversight as a
material weakness. The OIG considers high risk recipients
to include those that did not accomplish the required scope
of work.

Region 2's FMFIA letters addressed assistance agreement
oversight and post award management. During FY 1997
the Grants and Contracts Management Branch (GCMB)
reviewed post award management, issued PO approval
memoranda guidance, and completed a grants management
MER. The MER evaluated PO training and performance
standards; pre-award activities; award monitoring; and
closeout. The Region’s action plan addressed areas needing
improvements.

During FY 1998 GCMB implemented a strategy for closing
assistance agreements comprising: enhanced post award

          50

           Region 2's Management of Children’s Health
                    Risk Initiative and Related Projects

monitoring, communication, coordination and awareness;
and implementation of enhanced systematic procedures.
The Communication Division implemented improvements to
environmental education and environmental justice grant
management. POs focused on grant followup, worked
closely with grantees, and actively monitored progress and
final reports. The Region ensured final reports were in
place to close out grants, and increased site visits.

GCMB and the Grants Customer Relations Council
(GCRC) implemented a Post-Award Management Plan and
Procedures, and the Assistance Agreement Closeout
Strategy. The Post-Award Management Procedures
included PO baseline monitoring requirements. The
Closeout Strategy provided for 90-day letters to remind
recipients of expiring agreements and the need to submit
final reports. It also provided for close monitoring of
closeouts and monthly reporting of open grants.

GCMB also issued guidance to implement EPA Order
5700.2 (Small Grants Policy) and updated Region 2's
Assistance Agreement Application Kit and PO Approval
Recommendation Memorandum to implement the Small
Grants Policy requirements. GCMB continued to provide
POs guidance on grant requirements, policy changes, and
new policies. In addition, GCMB and DEPP trained over
30 new POs to manage assistance agreements and IAGs.

The Region also developed guidance for CFR Part 30 and
Part 31 small grant recipients. Additionally, all IAGs were
reviewed to identify closeout steps needed. Moreover,
Regional target dates were established for submitting
assistance agreement applications, PO approval
recommendation memoranda, and expiring grant
information to ensure timely processing.

In FY 2000 a MER focused on post award monitoring of
assistance agreements and IAGs. The main finding was that
project files often lacked evidence of post award
monitoring. Other vulnerabilities included maintaining IAG

          51

                                Region 2's Management of Children’s Health
                                         Risk Initiative and Related Projects

                     award and status data and closeouts. The Region took the
                     following actions to address these concerns:

                     •      Updated the Post-Award Management Plan and

                            Procedures and Region 2 FY 2000 Assistance

                            Agreement Closeout Strategy.

                     •      Developed a monitoring module to heighten

                            awareness of post award management requirements,

                            including the need to maintain documentation of

                            monitoring activities in project files.

                     •      Developed a post award monitoring fact sheet which

                            is attached to the award document as a reminder of

                            management responsibilities.

                     •      Developed a no-cost time extension policy and

                            identified responsibilities for managing extensions.

                     •      Continued periodic guidance to POs on grant

                            requirements, and new policies. 


Project Monitoring   Despite recent improvements, further actions were
                     necessary to improve management of children’s health
Conditions           related assistance agreements and IAGs. POs are
                     responsible for managing specific projects to ensure that a
                     quality and timely product is completed in a cost effective
                     manner. The ensuing paragraphs outline specific project
                     monitoring conditions. Although some isolated items may
                     not always impact project accomplishment, systemic
                     conditions could affect the timely and effective
                     accomplishment of the projects’ goals and objectives.

1.	   Incomplete/    The approved workplan is the basis for awarding,
      Unapproved     managing, and evaluating performance under the agreement.
      Workplan       The workplan should justify proposed financial, facility,
                     equipment, and resource needs. It must describe the need
                     for the project, its objectives, method to accomplish the
                     objectives, and the public benefits or results expected. An
                     effective workplan quantifies expected outputs, links
                     outputs to funding, identifies target dates and milestones,
                     requires periodic reporting, and explains accomplishments.
                     It also should contain well-defined commitments and
                     outputs that foster accountability.

                               52

                                       Region 2's Management of Children’s Health
                                                Risk Initiative and Related Projects

                            Certain post award workplan changes cannot be made
                            without a formal amendment. A recipient’s written request
                            for a proposed revision must be accompanied by a narrative
                            justification and submitted to the PO.

                            Certain projects lacked a complete, final and approved
                            workplan, and major workplan changes did not have formal
                            amendments. Chapter 2 described specific workplan
                            problems and related consequences pertaining to the
                            Camden and Hunts Point projects. Since required workplan
                            steps in the WNYCOSH project were not completed, we
                            believe that a formal amendment or prior written approval
                            should have been made. Since a new plan will be
                            formulated for the Newark target study, a formal
                            amendment may be needed.

2.	   Incomplete Decision   Assistance agreements and IAGs require a program office
      Memoranda             decision memorandum to document the basis for the project
                            award. Accuracy and completeness are critical to assure a
                            timely award. EPA’s PO Training Manual and the One-day
                            Refresher Course Handbook discuss adequate justification
                            for not competing an award in the decision memorandum.
                            Fact Sheet # 9 (Competition for Assistance Agreements)
                            requires Agency managers develop solid justification if they
                            do not use competition, and provides five examples of
                            appropriate justification criteria.

                            a.     Competition excluded by statute or Congressional

                                   intent;

                            b.     Compelling evidence of unique and/or superior

                                   qualifications to the extent no other source could

                                   fulfill the project/program’s objective;

                            c.     Urgency to start the project (crisis conditions

                                   endangering public health or environment);

                            d.     Supplemental application to extend project based on

                                   legitimate programmatic considerations, provided

                                   supplement enhances original work and scope is not

                                   significantly expanded;

                            e.     Unsolicited proposals offering unique ideas.




                                      53

            Region 2's Management of Children’s Health
                     Risk Initiative and Related Projects

On May 31, 1994 EPA’s Deputy Assistant Administrator
for Administration and Resources Management informed
senior resource officials to ensure “adequate justification for
assistance agreements awarded noncompetitively.” EPA’s
1996 Integrity Act Report to the President also reported
actions to correct deficiencies in assistance activities.
Actions included the need to reinforce preparation of a
complete decision memorandum.

All seven noncompetitively awarded Regional projects
lacked adequate justifications as noted below.

         Description                       Projects
 No Justification at all                      2
 Inadequate Justification                     5

The Puerto Rico DOH and American Lung Association’s
memoranda lacked required noncompetitive justifications.
The Montefiore, IPM-Lehman, Camden Asthma and Lead,
and both WNYCOSH justifications were inadequate.
Justification for these projects were “Program has limited
competitive nature and the number of qualified candidates
to complete the work who are in the Region is limited” or
“Selected party is the only one appropriate to carry out the
work.” In these cases, EPA lacked assurances that it
obtained the most qualified organization at the best price.
The Region’s response did not address these seven decision
memoranda.

It should be noted that OCHP’s memorandum justifying the
Newark Pilot was excellent. It stated that competition was
not sought since communities were contacted to determine
if they believe they would benefit from such a program.
Criteria was established which required the size of the
community should be such that the measurable results
would be obtained, and there must be at least one border;
one agricultural; one tribal; and one inner city disadvantaged
community. The pilot was to support communities in


          54

                                       Region 2's Management of Children’s Health
                                                Risk Initiative and Related Projects

                           setting specific goals to protect children from environmental
                           hazards, and develop a specific action plan to eliminate
                           children’s health risks.

3.	   Missing, Untimely,   Required progress reports were missing or untimely
      and Incomplete       submitted in 15 of 16 projects reviewed. When reports
      Progress and Final   were submitted, incomplete information presented generally
      Reports              did not comply with requirements.

                           Progress reports are the POs’ best source of information on
                           project activities. POs should ensure reports are received
                           and reviewed to monitor the workplan performance, the
                           funds the recipient is receiving, and the programmatic terms
                           and conditions are being met. The PO Handbook states the
                           report should require information on the rate of expenditure
                           versus project progress, actual accomplishments, and
                           problems encountered which may interfere with meeting
                           project objectives. It is the PO’s responsibility to ensure the
                           recipient complies with all programmatic terms and
                           conditions, and provide recipient comments on the progress
                           reports.

                           The GS provides an assistance agreement package to all
                           newly awarded recipients. This package includes a checklist
                           requiring grantees to maintain financial management and
                           record keeping systems, discuss project changes with the
                           PO, and submit required progress reports. These reports
                           should compare actual accomplishments with specific goals
                           and objectives, reasons why goals were not met, and other
                           pertinent data (i.e. rebudgeting needs).

                           Although the first three Puerto Rico DOH reports were
                           timely, there was only one report between June, 1997 and
                           March 17, 1999. Also, recent reports were incomplete. On
                           June 1, 1999 the PO requested the April 1, 1999 progress
                           report to describe tasks completed, barriers encountered,
                           sums expended, and a forecast of next quarter’s activities.
                           No report was found in the PO’s file. Moreover, the final
                           deliverable was not timely submitted. This project was
                           completed on September 30, 1999, but as of July 25, 2000 a

                                     55

                                     Region 2's Management of Children’s Health
                                              Risk Initiative and Related Projects

                          final report had not been received. It should have been
                          submitted by December 31, 1999.

                          Our review of Montefiore Medical Center disclosed that
                          only two of the six required reports were submitted after the
                          PO’s request. No reports were submitted between February
                          1999 and March 2000. Our review of the American Lung
                          Association indicated that although 1997 reports were
                          timely submitted, there were no reports between January
                          1998 and June 1999 (final report).

                          Review of IPM-Lehman disclosed missing and untimely
                          progress reports. The project began on October 1, 1998
                          and the only reports were dated March 1, 1999, November
                          17, 1999, and April 17, 2000. Although the PO (January 5,
                          and June 1, 1999) requested overdue reports with specific
                          information, the submitted reports did not include
                          information of expenditure versus project progress. The
                          recipient agreed, upon OIG request, to prepare future
                          reports in accordance with workplan tasks.

                          The Region’s response acknowledged there were projects
                          that had untimely progress reports.

4.	   Lack of Financial   Children’s health awards were given to community
      Monitoring          recipients with limited experience managing Federal funds.
                          These entities may not meet the Single Audit threshold for
                          required audits or EPA awards may not constitute a major
                          program. Therefore, these projects may not undergo any
                          intense scrutiny. EPA must initiate a systematic financial
                          monitoring approach to ensure funds are used as intended.
                          The PO and GS share responsibility for initial
                          conferences/seminars; on-site reviews; and review of
                          financial/expenditure data, financial status reports (FSRs),
                          and payment requests. The PO must also review the
                          proposed budget against the workplan to determine whether
                          the budget is reasonable from a programmatic perspective.

                          The Handbook requires the PO to determine that costs are
                          eligible and reasonable, while the GS is responsible for

                                    56

            Region 2's Management of Children’s Health
                     Risk Initiative and Related Projects

determining allowable and allocable costs. The PO serves
as a source of programmatic oversight and should review
the payment request and FSR, and determine if progress is
consistent with the request and payment should be made.
Also, the Integrated Financial Management System (IFMS)
gives disbursement information which a PO can use to
compare funds spent with progress on the project.

POs did not review FSRs or payment requests for any of the
16 projects reviewed. In addition, progress reports did not
generally contain expenditure data. POs believed the GS
was responsible for all financial matters. During the OIG
entrance conference one PO responsible for most children’s
health projects said payment requests were sent directly to
the GS, and she had little concern as long as deliverables
were received.

During a meeting with the OIG, a major recipient indicated
a need for expertise in financial matters to gain knowledge
to submit proper financial reports. It was suggested that a
fiscal advisor be present at the initial conference to explain
EPA procedures for proper and timely preparation of FSRs.

The Puerto Rico DOH project was an example where FSR
reviews would have alerted the PO or GS to a problem.
The recipient received an 80 percent ($46,800) advance
payment in March 1997. EPA regulations and the award
terms and conditions required the recipient to minimize time
elapsing between transfer of funds from EPA and
disbursement of those funds. Advanced funds must be
disbursed within 90 days of issuance, and failure to comply
may result in EPA issuing a Bill for Collection to recover
unexpended funds. The advanced $46,800 should have
been disbursed by June 1997. However, FSRs submitted
showed only $24,916 disbursed as of July 31, 1997 and
$35,547 as of September 30, 1998. Adequate review of
three FSRs and an expense report submitted between July
31, 1997 and September 30, 1998 would have alerted the
PO and GS to this condition.



          57

                                   Region 2's Management of Children’s Health
                                            Risk Initiative and Related Projects

                        POs also approved IAG invoices without obtaining
                        supporting documentation for costs billed. This occurred
                        because POs were not aware of their responsibilities for
                        approving IAG invoices, and the other Federal Agency
                        submitting the invoice did not provide supporting cost
                        information. As a result, EPA’s Financial Management
                        Center recorded these transactions with limited assurance
                        that invoices were valid, appropriate and allowable. Two
                        IAG invoices approved without reviewing supporting
                        documentation were previously noted in Chapter 2.

                        The Region’s response indicated that the PO’s financial
                        monitoring was “consistent with the information required in
                        the grantee’s periodic reports and with PO training.” When
                        problems were encountered requiring review of project
                        finances, such data was requested. We strongly believe that
                        adequate financial monitoring is necessary for all projects.

5.	   Routine No Cost   Region 2 was concerned about the number and frequency of
      Time Extensions   NCTEs per agreement, and justifications for approving
      (NCTEs)           extensions. During FY 1999, Region 2 approved more than
                        200 NCTEs (33 percent of all grant actions). Therefore, on
                        March 30, 2000 the Region provided Guidance for
                        Processing No-Cost Time Extensions for Grants and
                        Cooperative Agreements. To reduce NCTEs, the guidance
                        stated POs should ensure the original project and budget
                        period are sufficient to complete the project, and that the
                        project is proceeding on schedule. A one-time NCTE is
                        authorized without EPA approval, and subsequent requests
                        must be submitted 60 days prior to expiration of the
                        project/budget periods. A formal amendment is required to
                        approve any subsequent NCTE. Region 2's goal was to
                        complete all NCTE amendments prior to award expiration,
                        provided documentation was timely received.

                        Our review disclosed that at least one NCTE was approved
                        in 90 percent of all children’s health projects awarded
                        during FY 1998 and FY 1999. Two or more extensions
                        were approved in 23 percent of these cases. Subsequent
                        NCTEs were generally submitted less than 60 days from the

                                  58

            Region 2's Management of Children’s Health
                     Risk Initiative and Related Projects

expiration date, not approved until after expiration date, and
formal amendments were not always issued.
For example, the American Lung Association’s second
NCTE was submitted less than 60 days prior to the project
end date. EPA approved the first NCTE (November 26,
1997) on February 17, 1998 (after expiration date) changing
the expiration date from December 31, 1997 to December
31, 1998. The second NCTE was submitted on November
16, 1998 to extend expiration date from December 31, 1998
to May 30, 1999. This request should have been submitted
by October 31, 1998 (within 60 days of the project end
date). The Grant Management Office took almost six
months to approve this extension.

The Columbia University two year grant (October 1, 1996
to September 30, 1998) received two NCTEs. The first
NCTE was requested on September 17, 1998.
Headquarters Grants Administration approved the request
on November 17, 1998 (after it expired) to extend the
period to September 30, 1999. The Regional PO informed
the recipient that further NCTEs would have to be
submitted no later than 60 days prior to expiration. On
September 17, 1999 (13 days prior to expiration) the
recipient requested a second NCTE until September 30,
2000. On February 7, 2000 (almost five months after the
project expired) the NCTE was approved.

On October 21, 1999 the IPM-Lehman recipient submitted
a NCTE to extend the period from December 31, 1999 to
March 31, 2000. However, the PO had not acted on the
request as of April 2000, because she believed the request
was misfiled. We found the form in the PO’s file.

Although the RIAB Chief believes frequent NCTEs were
not a problem, the Region’s March 20, 2000 Guidance was
issued to address this concern. POs’ improved monitoring
activities would contribute to more timely project
completion and reduce the need for many NCTEs.




          59

                                      Region 2's Management of Children’s Health
                                               Risk Initiative and Related Projects

6.	   Documentation of     In all cases reviewed, POs did not adequately document
      Monitoring Actions   important project activities including workplan review;
                           important conversations and meetings with recipient and
                           other personnel; and progress and final report reviews. As a
                           result, there was limited assurance that the PO was fully
                           aware of project activities, problems in meeting goals and
                           objectives, and staffing or resource problems. Lack of
                           written documentation violates file management
                           requirements that all significant actions be documented,
                           provides incomplete project historical record, requires
                           personnel to recount history by memory, prevents personnel
                           from substantiating facts if a dispute arises, results in
                           vulnerability if an audit is conducted, impedes staff
                           members’ ability to respond to questions, and creates an
                           appearance of poor administration and oversight.
                           Documentation is critical for managing assistance
                           agreements and IAGs. The PO file documents provide
                           programmatic and fiscal information on the purpose,
                           performance and history of an award. The POs’ Handbook,
                           Appendix Q, and Fact Sheet # 10 provide guidance. “It is
                           the PO’s responsibility to document all correspondence.
                           DO NOT RELY ON MEMORY.”

                           POs should document the following situations:

                           •      Memos and communications

                           •      Issues that raise concern

                           •      Significant project actions or decisions

                           •      Conversations with recipients or EPA staff that have 

                                  significant bearing on project performance 

                           •      Electronic mail messages sent or received

                           •      Attempts to contact recipients but receive no

                                  response (record attempts and dates)

                           •      Progress report comments provided to recipient

                           •      Documentation on conference calls and telephone

                                  calls, noting issues discussed and resolutions.


7.	   Projects Not         Projects should be adequately reviewed and evaluated to
      Evaluated            assure program goals were met and beneficial
                           accomplishments were promoted (best practices and lessons

                                     60

                                          Region 2's Management of Children’s Health
                                                   Risk Initiative and Related Projects

                              learned). Successful projects should be promoted for
                              widespread application to benefit affected communities.
                              POs should develop a system to review, evaluate and
                              disseminate recipients’ final reports to serve as model
                              programs. Reviews could have provided information
                              related to the program’s progress and accomplishments.
                              Such information would help future efforts by building on
                              existing projects and identifying new ones in hopes that
                              EPA can devise a comprehensive and coordinated approach
                              to deal with children’s environmental health issues. We
                              were advised that RIAB has no mechanism for sending
                              asthma final reports to Headquarters. As a result, EPA’s
                              ability to recognize and promote model programs or learn
                              from successful programs was significantly impaired.

                              For all final reports we reviewed, the project file had no
                              evidence that the PO evaluated the deliverable and provided
                              comments. The Region must also initiate specific
                              performance measures, (outcomes) for various areas (i.e.
                              asthma interventions) and compare them to individual
                              project’s goals and objectives to determine if a quality
                              product has been delivered. Moreover, recipients must be
                              held accountable for spending Federal funds as intended in
                              the approved workplan.

                              The Region’s response indicated that POs have a system to
                              disseminate final reports (i.e. monthly IAQ conference calls;
                              RIAB staff are on a Headquarters team; and information is
                              shared with partners at conferences, meetings, and outreach
                              sessions). Although, we acknowledge these outreach
                              efforts, RIAB has not generally provided written evaluations
                              and disseminated completed projects.

8.   Untimely Certification   Projects were not always timely certified and closed out in
     and Project Closeout	    accordance with Agency policies and procedures. Delays
                              can unnecessarily tie up obligated but unexpended funds.
                              Closeout also becomes more difficult with the passage of
                              time because persons responsible for project management
                              may resign, retire or transfer; memories of events are less
                              clear; PO interests may shift to other priorities; and award

                                        61

                                     Region 2's Management of Children’s Health
                                              Risk Initiative and Related Projects

                          documents may be lost. The PO should timely review and
                          approve technical reports (including final performance
                          reports) in accordance with award and statement of work
                          requirements; ensure deliverables are received and
                          acceptable; and certify to the GS within 90 days of project
                          completion that work was satisfactorily completed and all
                          award conditions were met.

                          Our review of 16 projects disclosed three projects were not
                          closed out in a timely manner, two projects were closed out
                          timely, and 11 ongoing projects (many with NCTEs) were
                          not due for closeout. One delayed closeout was the
                          American Lung Association project which expired May 30,
                          1999 (after two NCTEs). On June 14, 1999 the recipient
                          submitted the final report. The GS sent the PO the baseline
                          monitoring checklist and requested responses (no PO
                          response). On January 31, 2000 (eight months after project
                          expiration) the GS asked the PO for a final status of
                          programmatic requirements by March 1st. Finally on April
                          27, 2000 (after we reviewed the file) the PO responded.

                          The Puerto Rico DOH project closeout was also delayed.
                          The PO had not responded to the GS request (December 4,
                          1999) to provide a final status of programmatic
                          requirements by January 31, 2000. The project period
                          ended September 30, 1999 and was still open in July 2000
                          because the final report was not delivered.

                          POs must comply with the above Agency policies and timely
                          inform the GS of project completion so that the agreement
                          can be closed out.

9.	   Recipients’         We had meetings with five recipients to discuss their
      Accounting System   financial management system controls for allocating payroll
      Weaknesses          costs to EPA grants. All five recipients stated that
                          allocation of payroll costs to Federal awards were generally
                          based on budget hours rather than specific actual hours
                          worked. The recipients generally stated they worked on
                          grant and non-grant activities and did not complete
                          timesheets to specifically account for actual activities.



                                    62

            Region 2's Management of Children’s Health
                     Risk Initiative and Related Projects

For example, The IPM-Lehman’s principal investigator
indicated that proper financial reports were not submitted
and specific expenditure data were not available. Time
charges were based on estimated time worked on the
project, and actual time sheets were not used.

40 CFR Part 30, “Grants and Agreements with Institutions
of Higher Education, Hospitals, and Other Non-Profit
Organizations,” requires financial management systems to
accurately and completely disclose financial details for all
Federally-sponsored activities. The system must include
written procedures for determining reasonableness,
allocability and allowability of costs in accordance with
Federal cost principles and conditions of the award. Also,
accounting records including cost accounting records must
be supported by source documentation.

Office of Management and Budget (OMB) Circular A-110,
Uniform Administrative Requirements for Grants and
Agreements with Institutions of Higher Education,
Hospitals and Other Non-Profit Organizations, provides
procedures for reporting financial and program
performance. Progress reports shall compare actual
accomplishments with goals and objectives. When program
or project output can be quantified, such quantitative data
should be related to cost data for computation of unit costs.

OMB Circular A-122, Cost Principles for Non-Profit
Organizations, requires charges for salaries and wages,
whether direct or indirect costs, to be based on documented
payrolls approved by a responsible official. Distribution of
salaries and wages must be supported by personnel activity
reports maintained for all professional and nonprofessional
staff whose compensation is charged (in whole or in part)
directly to awards. Reports must:

a.	    Reflect an after-the-fact determination of the actual
       activity of each employee. Budget estimates (i.e.,
       estimates determined before services are performed)
       do not qualify as support for charges to awards.


          63

                                            Region 2's Management of Children’s Health
                                                     Risk Initiative and Related Projects

                                b.	    Account for total activity for which employees are
                                       compensated and which is required in fulfillment of
                                       their obligations to the organization.
                                c.	    Be signed by the individual employee, or by a
                                       responsible supervisory official having first-hand
                                       knowledge of employee activities.
                                d.     Be prepared at least monthly.

                                Nonprofessional employee salary charges must also be
                                supported by records of daily hours worked maintained in
                                conformance with Department of Labor regulations. In
                                addition, employee salaries used to meet cost sharing or
                                matching requirements must be supported in the same
                                manner as salaries claimed for reimbursement from
                                awarding agencies.

Reasons Why Conditions          Project monitoring weaknesses including unorganized PO
                                files, large workload in addition to other responsibilities,
Occurred                        and lack of progress report tracking were the main causes
                                for the conditions noted. We recognize that POs have large
                                workloads and other duties and responsibilities, but a higher
                                priority must be given to effective project management.
                                POs must be knowledgeable of management responsibilities
                                and devote additional efforts to ensure projects are timely
                                and effectively proceeding in accordance with the workplan.

Organization of Project Files   The Handbook requires organized assistance agreement files
                                to ensure the Agency documents obligations and
                                responsibilities of all parties before, during, and after the
                                agreement. A well documented file consists of a collection
                                of documents that provide programmatic and fiscal
                                information and is an excellent reference tool for personnel
                                administrating the project. The Handbook outlines a six-
                                part format to file all assistance agreement documents (i.e.,
                                application, correspondence, agreement and amendment,
                                financial information, and technical reports).

Excessive PO Workload           RIAB only had four POs to manage asthma, radon, IAQ,
                                and other assistance agreements. One PO was responsible
                                for 15 to 28 projects in addition to other duties and

                                          64

            Region 2's Management of Children’s Health
                     Risk Initiative and Related Projects

responsibilities. This was a difficult situation as indicated by
the illustrations in Chapter 2. The three other POs also had
substantial workloads. The Branch Chief was aware of this
situation and looked into possible solutions, but could not
resolve the matter based on the available resources. The
Chief believed projects were successfully managed, and
EPA was getting what it paid for.

We strongly believe one dedicated PO could not effectively
manage all her projects. The Newark pilot project alone
should have required a great amount of time, but she was
involved in many other activities. For example, the March
1999 Branch Highlights listed some of her other activities.

•	      Met with HHS representatives to discuss an asthma
        intervention study (no date mentioned)
•	      February 18th had three meetings in Camden with
        potential asthma grant recipients
•       Will be attending Environmental Justice workshops
•	      February 24th met with HUD regarding a
        demonstration project
•	      March 3rd presented EPA’s asthma activities with
        OCHP and HHS on Interagency Asthma Strategy
•	      March 18th attended a meeting with the Catano
        working group
•	      March 22nd scheduled to attend the National
        Academy of Science meeting in Washington
•       March 23rd, IAQ lecture in North Carolina
•	      From April 12-15, attended IED meeting in
        Washington
•	      April 15, scheduled to give an Indoor Air/Asthma
        presentation at Columbia University

The New England Region PO who managed their Child
Health Champion pilot project was only responsible for this
one children’s project. However, she was also the PO for
two environmental justice grants of $20,000 each (one is
completed), two source water assessment grants ($17,779
and $38,614) and a drinking water contamination outreach



          65

                              Region 2's Management of Children’s Health
                                       Risk Initiative and Related Projects

                  grant for $9,111. We believe that this was a manageable
                  PO workload.

                  Another New England Region PO was responsible for 14 to
                  20 small projects. For the upcoming fiscal year she will
                  only be responsible for seven projects. The PO’s workload
                  was reduced because it was difficult to manage and she
                  encountered problems. The PO stated that “due to a lack of
                  time and staffing it is difficult to follow-up on IAQ projects
                  such as Tools for Schools, Environmental Toxic Smoke,
                  and Asthma Initiative.” Her project files were not always in
                  accordance with requirements since “trade-offs” were
                  necessary. She had one person working with her on Tools
                  for Schools projects who will be managing that program
                  next year. These actions clearly illustrate difficulties in
                  managing too many projects.

                  We were recently informed that RIAB was given an
                  additional person to perform certain PO functions. We
                  believe this person should either have specific projects
                  assigned, or work with other POs on specific projects. As
                  noted above, the New England Region used their extra
                  person to assist the PO on Tools for Schools matters.

Progress Report   Virtually all assistance agreements require the recipient to
Tracking System   submit periodic progress reports and a final report. It is
                  very difficult for a PO who is responsible for many
                  agreements to keep track of due dates for progress reports.
                  We previously discussed the value of receiving timely and
                  complete reports and the fact that non-submittal or late
                  submittal was a systemic problem.

                  Progress reports are due at different times, and POs must
                  establish and implement a system to track receipt or non-
                  receipt of required reports. If reports continue to be
                  submitted inadequately or untimely, the Branch Chief and
                  GS should be notified and appropriate action taken. If the
                  PO waives submittal of progress reports, a system is needed
                  to justify such action. We do not believe that waivers are



                            66

                              Region 2's Management of Children’s Health
                                       Risk Initiative and Related Projects

                  prudent decisions unless special circumstances warrant a
                  waiver from the award terms and conditions.

RIAB’s Actions	   The RIAB Branch Chief acknowledged that monitoring
                  improvements were needed in aspects of asthma related
                  grants. To address our concerns he made a good faith
                  effort to implement certain improvements, especially
                  assuring files were in accordance with requirements. The
                  Chief stated that all files are now properly organized, and he
                  met with POs to discuss responsibilities for maintaining
                  files, status of projects, and other OIG concerns. The POs
                  agreed to “save all e-mails which are sent” documenting
                  reviews, meetings and telephone conversations in a separate
                  folder. The Chief believed “the crux of this issue involved
                  the fact that much of this documentation is done by e-mail
                  and not saved.” He will add a page to the Highlight
                  summary which will contain the status of all agreements,
                  and file location for back-up documentation.

                  The Chief noted that POs have now been instructed to
                  document the Highlight summary sheet when they change
                  quarterly reporting requirements. Although the Chief
                  believes the lack of financial information in progress reports
                  is a GCMB matter, he will support and carry out whatever
                  requirement EPA imposes. He believes that quarterly
                  financial data is of little use to the PO, and prefers obtaining
                  such data “on line” when problems arise.

Conclusion	       Recipients must be held accountable for achieving project
                  results. To demonstrate accountability, performance
                  measures should be included to demonstrate progress in
                  meeting workplan goals. We recognize that all projects may
                  not meet all intended goals and objectives. However, POs
                  should effectively manage their projects through on-site
                  meetings, evaluations, receipt and review of detailed
                  progress reports, or other communications to address
                  problems or barriers impeding successful and timely
                  completion.




                            67

                                Region 2's Management of Children’s Health
                                         Risk Initiative and Related Projects

                    Effective project management will allow the PO and
                    recipient to revise strategies and make necessary
                    modifications in a timely manner. POs should constantly
                    track recipients’ actual performance against planned
                    actions. Such oversight is especially relevant for non-profit
                    community based recipients (first-time grantees) with
                    limited knowledge or expertise managing Federal funds.

Recommendations 	   We recommend that the Regional Administrator instruct the
                    Chief, Radiation and Indoor Air Branch, Division of
                    Environmental Planing and Protection to:

                    3-1    Periodically review the recently revised project files
                           to ensure they are complete, organized and in
                           compliance with requirements.

                    3-2    Reduce the number of projects assigned to a PO by
                           redistributing workload, assigning fewer future
                           projects, combining agreements into larger projects,
                           or assigning alternate POs to assist the PO in certain
                           areas.

                    3-3    Limit certain PO responsibilities for attending
                           conferences, conducting training, and performing
                           outreach activities, to enable them to devote more
                           time to monitoring numerous assigned projects.

                    3-4    Verify that detailed final statements of work are
                           submitted containing specific goals, objectives and
                           performance measures. They should be adequately
                           reviewed and approved after determining the
                           reasonableness of the recipient’s goals, anticipated
                           outcomes, and project/budget periods. A workplan
                           checklist form should be considered.

                    3-5    Submit a complete and accurate program office
                           recommendation for award (decision memorandum).
                           A non-competitive award justification must be
                           included to provide a reasonable basis for the award.


                              68

           Region 2's Management of Children’s Health
                    Risk Initiative and Related Projects

3-6	   Develop an outline for technical and financial data
       that recipients should provide in progress and final
       reports. This outline could be in the form used by
       EPA’s New England Region. (Exhibit 2)

3-7	   Initiate a system for tracking progress report due
       dates, PO reminder letters, non-submissions, late
       and incomplete submissions, and documenting
       justifications for waiving reports. Recurring
       reporting problems should be brought to
       management’s attention for further actions.
3-8	   Schedule a conference or other mechanism with on-
       going and new recipients to discuss/reinforce EPA
       requirements and technical and financial
       responsibilities. A GCMB representative should
       discuss financial matters. Other topics should
       include content of progress and final reports.

3-9	   Develop and implement a system to document the
       review of assistance applications, workplans, time
       lines, progress and final reports, and other
       deliverables. Comments should be provided to
       recipients when applicable.

3-10	 Design and implement telephone/meetings logs or
      standardized forms to document relevant actions.
      Store electronically relevant information (i.e. e-
      mails).

3-11	 Reduce the number of initial and subsequent no cost
      time extensions and ensure they are timely requested
      and processed by implementing the March 30, 2000
      Regional guidance.

3-12	 Evaluate all completed projects to determine
      whether objectives were accomplished, problems
      were encountered, and lessons were learned.
      Develop a PO evaluation form and additional
      performance measures to evaluate such projects.



         69

           Region 2's Management of Children’s Health
                    Risk Initiative and Related Projects

3-13	 Certify within 90 days of project completion that all
      deliverables were received and reviewed, and all
      work was satisfactorily completed so that projects
      can be timely closed out.

We also recommend that the Regional Administrator
instruct the Chief, Grants and Contracts Management
Branch to:

3-14	 Schedule meetings with program offices to reinforce
      PO responsibilities and discuss the PO Handbook
      and recent Region 2 policy and guidelines.

3-15	 Expand the award terms and conditions narrative for
      required progress and final reports to include
      additional information. EPA’s New England format
      (Exhibit 2) should be considered.

3-16	 Increase PO knowledge of financial monitoring
      responsibilities regarding: (a) review of FSRs and
      reimbursement requests, (b) expenditure information
      provided in progress reports, (c) recipients’ time
      distribution system to allocate actual personnel costs
      to specific awards, (d) budget
      modification/redistribution requirements, (e)
      recipients’ responsibility to timely expend advanced
      funds, and (f) review of IAG cost documentation
      prior to approving payment requests.

3-17	 Determine whether recipients have developed and
      implemented adequate internal control and financial
      management systems that comply with OMB and
      EPA regulations, specifically dealing with
      time/payroll distribution system.

3-18	 Verify that program office decision memoranda is
      fully completed with required information.
      Incomplete forms should be returned to program
      office.



          70

                                Region 2's Management of Children’s Health
                                         Risk Initiative and Related Projects

                    3-19	 Increase coordination with POs regarding recipients’
                          performance. For example, periodically conduct
                          recipient technical assistance reviews with POs to
                          ensure compliance with regulations.

Region 2 Response   The Region’s response agreed with certain OIG
                    observations, but disagreed with others. It disagreed that
                    assistance agreement monitoring needs improvement, since
                    their projects have been “largely successful.” Unsuccessful
                    projects or failure to meet a specific objective were not
                    caused by assistance agreement management, but by other
                    issues (i.e. obtaining qualified health professionals, qualified
                    grantees, and volunteer candidates for the studies). While
                    the Region agrees “some improvements in managing
                    assistance agreements is warranted,” none of the serious
                    difficulties were caused by poor management. Further,
                    most recommendations involved an improved electronic
                    tracking system and upgrading of files. The following
                    paragraphs contain the Region’s positions.

                    The Region believed that recommendation 3-1 should be
                    removed since the revised project file organization was
                    completed, and a June 2000 file review was a standard
                    practice. Regarding recommendation 3-2 the response
                    stated that redistribution to reduce workload of one PO
                    results in a greater workload for another PO, combining
                    agreements into larger projects seems like an admirable
                    goal, and alternate POs already assist other POs. RIAB’s
                    PO workload situation has been the subject of a Division
                    Director/Regional Administrator management review and a
                    recent memo discussed an additional IAQ position.

                    Recommendation 3-3 should be eliminated “as it runs
                    counter to every practice that has yielded positive and
                    constructive results for the program.” The Region believes
                    it is critical to keep up-to-date, particularly as asthma in
                    children is an emerging issue, and to interact with others to
                    fund worthwhile projects. Attending conferences, meetings
                    and doing outreach is partly how information is transferred



                              71

            Region 2's Management of Children’s Health
                     Risk Initiative and Related Projects

to customers, and can influence people to include EPA’s
message into their goals and strategies.

Recommendations 3-4 and 3-5 are already standard
practice, and certain grant approvals were expedited as a
result of regional priorities. The Region agreed with the
recommendation 3-6 benefit to providing additional
guidance to POs. Therefore, in FY2001 GCRC will
develop guidance to assist POs in identifying and
communicating information that should be provided in the
recipient’s progress and final reports.

Regarding recommendation 3-7, a tracking system was
instituted as noted in the draft report (RIAB’s Action), and
the OIG reviewed the tracking summary sheet. GCMB will
work with RIAB to identify an “appropriate mechanism” for
communicating/reinforcing EPA grant requirements
regarding recipient’s technical and financial responsibilities
(recommendation 3-8).

Regarding recommendation 3-9, the Region has established
procedures for documenting reviews of assistance
application, workplans, timelines and other deliverables.
Application and workplan reviews are documented through
the decision memorandum, and Baseline monitoring
checklists and telephone log forms in Region 2's Post-
Award Monitoring Procedures are a mechanism for tracking
reports and other deliverables and documenting followup
actions. The baseline monitoring checklist will be enhanced
to include review questions regarding content and
acceptability of technical reports and deliverables.

POs have been directed to save all e-mails which document
reviews, meetings and conversations. Checklists and
telephone log forms are found in Region 2's Post-Award
Monitoring Procedures (recommendation 3-10). NCTEs
(recommendation 3-11) have only been requested to extend
projects to meet their goals, and the level of NCTEs seems
consistent with the nature of the projects and the time
frames. Although RIAB traditionally used a one fiscal

          72

                            Region 2's Management of Children’s Health
                                     Risk Initiative and Related Projects

                project period for its grants, recently it has been making
                more realistic time appraisals to complete projects. The
                response did not address recommendations 3-12 and 3-13.
                Regarding the recommendations made to GCMB, the
                response stated that recent PO regional and National
                policies, procedures and guidance are disseminated during
                PO basic and refresher courses, e-mail messages, and the
                Intranet. Additional mechanisms for information
                dissemination are being evaluated (recommendation 3-14).

                Regarding recommendation 3-15, GCMB indicated that it
                limited the terms and conditions for small grants ($100,000
                or less) to those conditions stated in regulations or statutes.
                Region 2 transmits guidance to small grantees with the
                award document (previously included as a term and
                condition). During FY2001 GCRC will develop guidance
                to assist POs in identifying and communicating information
                that recipients should provide in progress and final reports.
                The Region did not address recommendation 3-16.

                Region 2 has established procedures for determining an
                applicant’s compliance with financial management
                standards. To further address adequate financial
                management systems, the OIG will work with GCMB to
                develop guidance to make recipients aware of their
                requirements (recommendation 3-17). The Region’s
                procedure is that incomplete decision memoranda are
                returned to the program office identifying the deficiency
                (recommendation 3-18). Grant Specialists currently
                conduct (when appropriate) post award monitoring
                activities, including technical assistance reviews with POs
                (recommendation 3-19).

OIG Comments	   We strongly believe the Region (RIAB) must significantly
                improve post award monitoring of children’s health related
                assistance agreements. While acknowledging unsuccessful
                projects or those that failed to meet specific objectives,
                RIAB must share in the responsibility rather than merely
                blaming the recipient. Many systemic problems noted could
                have been averted, corrected, or more timely alternative


                          73

           Region 2's Management of Children’s Health
                    Risk Initiative and Related Projects

solutions implemented if more effective project monitoring
had occurred. We believe that RIAB’s recent corrective
actions as well as our 19 recommendations will address the
OIG’s concerns and further improve project monitoring
activities.

Recommendation 3-1: Project file reorganization was not
completed during July 2000 since the PO informed the OIG
in August 2000 that she could not locate some files to be
revised. Hopefully these files have been located and
subsequently revised. Since our audit disclosed numerous
concerns regarding inadequate or incomplete project files,
periodic reviews (which are not standard practice) should
occur to ensure these concerns have been addressed. Such
reviews would also ensure that recent Branch improvements
(i.e. saving and filing e-mails, documenting Highlight
summary sheets) were being implemented.

Recommendation 3-2: Workload distribution was a major
RIAB and Regional concern and actions were previously
taken. However, further actions are necessary if RIAB
continues to award many assistance agreements.
Specifically, one PO cannot effectively manage 15-28
awards and attend numerous conferences, meetings and
outreach sessions. Combining small awards into larger
projects would be useful. For example, instead of awarding
five asthma projects ($20,000 each) to five different
recipients, consider awarding a $100,000 grant to a
recognized grantee (i.e. American Lung Association).
Instead of reviewing and approving five grant applications,
workplans, financial data, quarterly progress reports,
NCTEs, revised plans, final reports and other deliverables,
only one grantee would be involved. For five grantees
different situations and problems would surface, and
extensive PO time would be needed to resolve the matters.

Recommendation 3-3: We fully recognize the value of
voluntary outreach programs, but a PO responsible for 15-
28 projects cannot effectively manage them and continually
attend conferences, meetings, conduct training sessions, and


          74

            Region 2's Management of Children’s Health
                     Risk Initiative and Related Projects

perform other outreach activities. The Branch Chief must
decide if a particular PO can effectively handle numerous
project responsibilities as well as other important matters.
Our report clearly shows that the PO in question made a
valiant attempt to handle all her responsibilities, but in
certain instances project monitoring suffered.

Recommendation 3-4: Complete final, rather than tentative,
statements of work must be submitted, reviewed and
accepted prior to project award. This is not a standard
practice as evidenced by the Region’s comments that the
Newark pilot project’s goals, anticipated outcomes, and
project periods were not reasonable. Many of the
statements of work were very general and did not contain
specific goals and performance measures.

Recommendation 3-5: The response addressed neither the
seven specific incomplete decision memoranda noted in the
draft report, nor the Headquarters policy for adequate
justification for noncompetitive awards. On numerous
occasions RIAB submitted incomplete decision memoranda.

Recommendation 3-6: We are pleased that GCRC will
develop guidance in FY’01 regarding information to be
provided in progress and final reports. We hope this
guidance will provide both technical and financial
information.

Recommendation 3-7: The response refers to a sentence
under RIAB’s Action which states the Branch Chief will add
a page to the Highlight summary which will contain the
status of all agreements and file location for back-up
documentation. This sentence does not address a progress
report system. A tracking summary sheet was presented to
the OIG which listed various information (i.e. name, type of
agreement, amount, location of files, start/end date, overall
status). While this information is a useful monitoring tool if
kept up to date, it does not fully address our concerns that
specific progress report issues be tracked.



          75

           Region 2's Management of Children’s Health
                    Risk Initiative and Related Projects

Recommendation 3-8: We are pleased that GCMB will
work with RIAB to identify an appropriate mechanism for
communicating/reinforcing grant technical and financial
responsibilities. Please provide us the completed product.

Recommendation 3-9: Although the Region has established
procedures and mechanisms for documenting reviews of
certain documents, RIAB has not generally implemented
them. Our review of project files did not generally disclose
documentary evidence of such reviews (i.e. written
comments, weaknesses, necessary revisions or
modifications, followup actions). The enhanced baseline
monitoring checklist, which will include questions focused
on content and acceptability of submitted technical reports,
should be a valuable tool if properly completed.

Recommendation 3-10: Although POs have agreed to save
e-mails sent regarding reviews, meetings and conversations,
there is no assurance that all relevant actions (i.e. oral
conversations) will be documented and e-mailed. RIAB
POs have generally not used telephone log forms found in
the Post-Award Monitoring Procedures.

Recommendation 3-11: We do not understand why RIAB
disagrees with implementing the March 30, 2000 Regional
guidance. One can readily see that when most recipients
require one or more NCTEs to complete their projects, a
project monitoring problem exists. Also, how could one
disagree that a NCTE should be requested and approved in
a timely manner is accordance with Regional guidance? The
Region did not provide any comments regarding
recommendations 3-12 and 3-13.

Recommendation 3-14: We are pleased that GCMB is
disseminating relevant assistance agreement policies,
procedures and guidance to POs and additional
dissemination mechanisms are being evaluated. We believe
that individual sessions with selected program offices
responsible for project management actions should be
considered.


          76

           Region 2's Management of Children’s Health
                    Risk Initiative and Related Projects

Recommendation 3-15: We are pleased that GCRC is
planning to develop guidance to assist POs in identifying
and communicating recipient information that should be
provided in progress and final reports.

Recommendation 3-16 was not addressed.

Recommendation 3-17: We are pleased that GCMB will
work with the OIG to address the issue of recipient financial
management systems by developing guidance to make
recipients aware of their requirements.

Recommendation 3-18: Region 2's procedure for returning
deficient decision memoranda has not always been
implemented.

Recommendation 3-19: Although Region 2's procedures
provide for post-award monitoring activities, including
technical assistance reviews, such reviews were not
performed for any of the projects reviewed. During FY 01
we recommend that at least one joint review be conducted
for a RIAB children’s health project.

On December 27, 2000 Region 2 issued its Post-Award
Management Plan and Procedures for Monitoring
Assistance Agreements. It stated that POs should determine
and monitor frequency and content of progress reports;
verify that project periods provide sufficient time to
complete project; document monitoring activities (telephone
logs, e-mails, memos, checklists); provide feedback upon
reviewing progress reports; monitor payments, drawdowns
and unliquidated obligations; and ascertain the need for
changes to the agreement. The document also provided
progress report guidelines and a suggested format; a PO
baseline monitoring checklist; and a telephone log to note
person contacted, title, date and summary of discussion.
The progress report format included a project description;
tasks, objectives, and accomplishments; upcoming
events/assistance required; funding status; and other
information.


          77

 Region 2's Management of Children’s Health
          Risk Initiative and Related Projects




78

                                Region 2's Management of Children’s Health
                                         Risk Initiative and Related Projects

                      CHAPTER 4
                    OTHER MATTER



Children’s Health   Region 2's October 1998 Strategic Plan stated the Region
                    will coordinate children’s health activities through its
Workgroup           recently formed Children’s Health Workgroup. The
                    Workgroup was formed in 1998 and currently has 18
                    members. The members were to be their division’s contact
                    person, share children’s health information with other
                    Workgroup members, and be the divisional focal point for
                    children’s activities.

                    The Workgroup initially focused on brainstorming ideas for
                    incorporating children’s health issues into the Region’s
                    activities and developing an Action Plan. A matrix was
                    developed identifying children’s health activities and
                    highlighting possible partnership opportunities. A series of
                    meetings were devoted to exploring various options and
                    ranking their worth and significance. The Workgroup
                    identified lead, pesticides and exposure to indoor air
                    pollutants as threats to children.

                    Although the Workgroup initiated many worthwhile
                    initiatives, we believe that they could have been even more
                    productive. During the course of time the Workgroup
                    merely existed with minimal interaction as a group. In fact,
                    many months have passed since the last official meeting.

                    This absence of group interaction was evident when we
                    requested the Coordinator to provide Region 2's inventory
                    of children’s health initiative and related projects. Since this
                    inventory was not current, the Coordinator had to contact
                    program offices to obtain requested data. In the absence of
                    criteria describing which projects qualify under the
                    children’s health initiative, each program office listed
                    projects based on differing criteria. Although Region 2's
                    “finalized” inventory was fairly complete, we found such
                    errors as projects not yet awarded, and incorrect project

                              79

                              Region 2's Management of Children’s Health
                                       Risk Initiative and Related Projects

                   status and agreement amounts. EPA Headquarter’s OCHP
                   previously listed many of these projects in the 1998 Children
                   Environmental Health Yearbook and others will be listed in
                   the 2000 Yearbook . After the inventory was developed,
                   Region 2's Children’s Health Coordinator acknowledged the
                   value and utility of this inventory to provide an accurate
                   snapshot of current Regional projects.

Recommendations	   We recommend that the Regional Administrator instruct the
                   Workgroup to:

                   4-1    Continue to maintain an accurate, complete and
                          updated inventory of Regional children’s health
                          activities.

                   4-2    Conduct periodic meetings to discuss current
                          children’s health activities; develop specific
                          measures and evaluate success of specific projects;
                          recommend improvements or modifications; identify
                          additional children’s health activities; and develop
                          monitoring mechanisms to gauge overall
                          effectiveness of the Regions children’s health
                          program.

                   4-3    Develop a mechanism to share children’s health
                          project deliverables, best practices and lessons
                          learned with Headquarters OCHP and other
                          Regions.

                   The response did not address the recommendations. It
                   noted that the Workgroup members and direction have
                   changed, and it was more productive to work internally with
                   members working on the issues in focus. The Workgroup
                   has been expanded to include participating in inter-agency
                   workshops.




                             80

                                           Region 2's Management of Children’s Health
                                                    Risk Initiative and Related Projects

                                                                           EXHIBIT 1


                           Projects Reviewed


                                                              AWARD
  RECIPIENT        AGREEMENT                AMOUNT             DATE             AREA

1 ICC - Newark     CA - X826844-01               $35,000       08/05/98         Asthma
                                                $100,000       08/09/99

2 Puerto Rico DOH CA - X992433-02                $58,500       09/27/96         Asthma

3 Montefiore       Grant - X992921-01            $80,000       08/20/98         Asthma
                                                 $80,000       09/24/99

4 American Lung    Grant - X992556-01            $25,000       09/19/96         Asthma
  Assn.

5 Rutgers - Camden CA - X982146-01              $253,551       09/27/99        Asthma /
                                                                                Lead

6 Columbia         Grant - EQ825009-01          $244,920       08/27/96         Asthma
  University

7 IPM - Lehman 	   Grant - CAX992932-01         $159,454       09/17/98         Asthma
                   Grant - CAX982128-01         $157,404       09/24/99

8 Hunts Point -    IAG - DW75941776-01          $103,650       09/29/97         Asthma
  Intervention

9 WNYCOSH          Grant - X992924-01            $20,000       09/01/98          IAQ

10 WNYCOSH         Grant - X982114-01            $15,000       09/25/99          IAQ




                                          81

                                                Region 2's Management of Children’s Health
                                                         Risk Initiative and Related Projects


11 USDA - Rutgers IAG - DW12941562-01                 $51,000        03/91            IAQ
                                                                                    Training

                      Amend 1                          $7,065        09/93            IAQ
                                                                                    Training
                      Amend 2                         $40,000       08/19/94          IAQ
                                                                                    Training
                      Amend 3                         $60,000       09/27/95          IAQ
                                                                                    Training
                      Amend 4                         $24,000       06/12/96          IAQ
                                                                                    Training
                      Amend 5                         $16,702       09/17/96          IAQ
                                                                                    Training
                      Amend 6                         $65,000       09/30/96          IAQ
                                                                                    Training
                      Amend 7                         $25,000       09/24/96          IAQ
                                                                                  Intervention
                      Amend 7                         $35,000       06/23/97       IPM Video

                      Amend 8                         $58,069       09/24/97        RADON/
                                                                                    Training

                      Amend 9                        $245,000       09/24/97       IAQ Walk
                                                                                    throughs
                                        Total        $626,836

12 Chinese           CA - X9928750-01                 $29,000       07/07/98          Lead
   Progressive Assn.

13 NY Society         CA - X992874-01                 $20,460       07/07/98          Lead
   for Prevention

14 Montefiore         Grant - EQ825742-01            $249,720       09/26/97          Lead

15 Non - PRASA        Unknown
   Initiative

16 	Vega Baja Solid   Site Assessment
    Waste


                                            82
                                                  Region 2's Management of Children’s Health
                                                           Risk Initiative and Related Projects

                                                                                     EXHIBIT 2



           Sample Award Conditions Used By EPA’s New England Region



1.     PROJECT REVIEW

To evaluate adequacy of program progress, the recipient agrees to host site visits with the Project
Officer. The review will include an overview of the project and project expenditures. The time
frame for project reviews will be negotiated between the recipient and Project Officer.

2.     QUARTERLY REPORTS

All grantees are required to submit to the EPA Project Officer a quarterly progress report. The
report should be a minimum of one page and must follow the format provided. The report is to
be completed and mailed to the Project Officer by January 30, April 30, July 30. The format for
the quarterly progress report will be distributed at a training session to be conducted for all
grantees. If quarterly reports are not received within 5 working days of due dates listed above,
the Project Officer has the option to delay approval of the next quarterly payment request until the
quarterly report is received and approved.

3.     MANDATORY MEETINGS AND CONFERENCES

All grantees will be required to attend the grantee orientation and training, midterm meeting and a
grantee conference.

4.     FINAL REPORT

Within 30 days after the end of the project period, the recipient agrees to submit two copies of the
final project report. The report must clearly address the items below:

a.	    Provide an abstract or overview of the project in terms of its overall process and
       outcomes. Include which eligible activities and/or EPA criteria were addressed and how
       these were fulfilled.

b.	    Include information on the target audience, such as local residents, community activists,
       businesses, demographics of the target audience, etc.

                                                83

                                                  Region 2's Management of Children’s Health
                                                           Risk Initiative and Related Projects


c.     Description of evaluation measures and results. Include evaluation tools where applicable.

d.	    Plans for dissemination of project results in terms of method of dissemination and target
       audience (i.e., conference presentations, educator networks, community forums, etc.)

e.	    Were any problems encountered that prohibited the completion of the project goals or
       objectives? If yes, how were they overcome?

f.     What benefits were gained from this program?

g.     How could EPA have been more effective in assisting you with this project?

After review of the final report, the EPA Project Officer may request additional information of the
recipient. In addition to the report, the recipient should also supply EPA two copies of all
tangible final products created for the funded project (i.e., videos, research findings, curriculum,
presentations, etc.).




                                                84

                                                  Region 2's Management of Children’s Health
                                                           Risk Initiative and Related Projects

                                                                                   EXHIBIT 2a


                                 Sample Quarterly Report Format


Grantee Name:                                                Grant Award ID Number;


Project Leader/Contact Information:


Grant Award Amount:


Project Period:


Reporting Quarter: (1st, 2nd, 3rd, 4th)


Brief Project Description: (2-3 sentences)


Projected Tasks, Objectives & Accomplishments: (MOST IMPORTANT SECTION)


1.	     Task 1: (from Workplan)
               Accomplishments:
               •	     Detail accomplishments during the quarter’s activity relative to Workplan
                      tasks and objectives.

2.	     Task 2: (from Workplan)
               Accomplishments:
               •	     Detail accomplishments during the quarter’s activity relative to Workplan
                      tasks and objectives.

Funding Status:

(Provide information on $$ drawn down, remaining account balance, any changes that needed to
be made to the budget, etc.)

Upcoming Events/Assistance Required:

(List upcoming events related to the project or organizations involved, request any additional
assistance needed by Project Officer - including technical assistance.


                                                85

                 Region 2's Management of Children’s Health
                          Risk Initiative and Related Projects




This page intentionally left blank




               86

                                                             Region 2's Management of Children’s Health
                                                                      Risk Initiative and Related Projects

                                                                                             APPENDIX A
                                      Region 2 Response to the Draft Report

                                 UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                                     REGION 2

DATE:       Nov 16, 2000

SUBJECT:	   Region 2 Comments on OIG Draft Audit of
            Region 2's Management of Children’s Health Risk Initiative and Related Projects

FROM:	      Herbert Barrack (signed)
            Assistant Regional Administrator for Policy and Management

TO:	        Paul D. McKechnie
            Divisional Inspector General, Eastern Audit Division


            Overall, Region 2 finds that the above-referenced report, dated September 19, 2000, misses the
            larger context in which the Children’s Health Risk Initiative is being carried out. While we agree
            that some aspects of the administration of the program can be improved, and have taken a number
            of steps to do so (some in response to this report), we also believe that your recommendations
            and conclusions lack an understanding of the main thrust of this initiative, which is to amplify
            minimal resources into a major Regional effort. To do this requires that we pilot new types of
            projects and partner with a variety of groups. We are learning through experience what works
            well, and we are applying the lessons learned to other ongoing and future projects. We believe
            the draft report misses this context in evaluating the performance of our projects.

            This report would have been of much more value to the Region had it focused on what was
            working and why, instead of only raising many administrative issues, most of which have little
            impact on the outcome of these projects. Our specific comments are provided as Attachment 1 to
            this memorandum.

            If you have any questions, please let me know or have your staff contact Scott Opis, Policy,
            Planning and Evaluation Branch, at (212) 637-3699.

            Attachment

            cc: H. Maletz, OIG


                                                           87

                                                   Region 2's Management of Children’s Health
                                                            Risk Initiative and Related Projects

                                                                                       Attachment 1

                          Region 2 Comments on OIG’s Draft Report

                                   Region 2's Management of

                    Children’s Health Risk Initiative and Related Projects


Region 2's specific comments and responses to recommendations are as follows:

2.	    Draft Audit Report: Page ii, last paragraph, second sentence omits the word ‘Pilot’
       from the Child Health Champion Campaign Project.

Region 2 Response: This project is a pilot and is therefore, by definition, a testing of
methodologies. The Agency’s expectations in funding this project were that we would learn from
whatever happened in this effort, whether the results were successful or not. Further discussion
on the Child Health Champion Campaign Pilot Project is contained later in this response.

3.	    Draft Audit Report: Page iii, Results in Brief section, first sentence on the page
       indicates that “The project is about to end and... a one year no cost time extension will be
       approved.”

Region 2 Response: Since there will be a no-cost time extension, the project will not end.

4.	    Draft Audit Report: Page iii, second paragraph, the OIG states that “... four of seven
       important workplan steps were not fully performed for all schools and primary objectives
       of assisting the schools in identifying, preventing and resolving IAQ problems were not
       fully met.”

Region 2 Response: While it is true that certain portions of the Indoor Air Quality (IAQ) Tools
for Schools (TFS) Kit were not fully completed, this was because the portions cited were either
not relevant to the school or the school did not have any significant indoor air quality problems in
those particular areas (or in toto) to warrant the completion of those portions of the IAQ TFS
protocol. Since completion of the IAQ TFS protocol was connected with elements in the work
plan, then certain work plan elements were not completed. However, this did not prevent or
inhibit resolution of IAQ problems. To the contrary, the steps were omitted when there was
reasonable certainty that no IAQ problems of that type were apparent.

During staff interviews with the audit team, it was apparent that there was a fundamental


                                                 88

                                                  Region 2's Management of Children’s Health
                                                           Risk Initiative and Related Projects

misunderstanding of the IAQ TFS Kit. A successful implementation of the IAQ TFS Kit does not
require that all sections of the kit be implemented, only those which are relevant to the school.
There are sections in the kit dealing with food handling and HVAC systems. If the school does
not have a cafeteria or an HVAC system, then these sections need not be completed. If, after the
diagnostic portions of the kit are completed, there are no IAQ problems, then the need for a
management plan to deal with IAQ problems is unnecessary. It was this type of important work
plan step that was omitted with the full knowledge and approval of the Project Officer (PO). The
PO’s rationale for doing this was so that more schools could actually be subject to the TFS
implementation project and, therefore, more risk reduction could potentially be achieved. This
also served to maximize the number of schools which could be covered per dollar of available
resources and which meets a numerical GPRA goal.

5.	    Draft Audit Report: Page iii, last paragraph, last line (and carrying forward to the next
       page) the OIG states that “... children’s health related projects were not always completed
       timely and often did not provide the promised research, education, or outreach
       environmental products. Thus, anticipated progress on children’s environmental health
       issues were not always attained.” This assertion is, in part, attributed to the fact that PO’s
       project filing system was not in accordance with Headquarters’ requirements.

Region 2 Response: We take issue with several points of the assertion as well as its link to the
contributing factor. First, with regard to the issue of timely project completion, it must be noted
that traditionally, grants have had a one fiscal year project period. The one-year project period
introduces a mandatory point whereby we have to review the progress of the grant, i.e., at the end
of the fiscal year (FY). In many cases, a no-cost time extension is granted at this time so the
grantee can finish the work based on our feedback and based on the information the project has
provided to-date. If, in the end, no matter what the time period turns out to be (including no-cost
time extensions), the grant project provides the outputs desired in a time frame which is usable,
then we would view this grant as timely. The audit team would not. The question then remains,
whether a grant was completed within its original time frame versus within a time frame that made
the results of the grant project useful? We believe that most of our grants are completed timely
based on the second criterion.

Secondly, we disagree with the assertion that because project files were not in a condition that
was commensurate with Headquarters’ guidance, that anticipated progress on children’s health
issues was not always attained. This will be discussed specifically for each project examined by
the auditors and where they arrived at this conclusion.

5.	    Draft Audit Report: Page iv, Recommendation No. 3, suggests improvement of
       assistance agreement management may be attained, in part, by “...limiting (PO)



                                                 89

                                                   Region 2's Management of Children’s Health
                                                            Risk Initiative and Related Projects

       responsibilities for attending conferences, conducting training, and performing outreach
       activities.”

Region 2 Response: This statement clearly indicates the lack of understanding for how
voluntary/outreach programs work. These programs typically are not statutory. Program output
is our information and our GPRA goals are based on how many people we get to act on the
information provided. Our sphere of influence is determined by whether or not people see us as a
source of new and useful information. Attending conferences, meetings and doing outreach is
partly how information is transferred and how we become more valuable to our customers. Even
when we do not bring funds to the table, our presence can influence large groups of people to
include EPA’s message into their goals and strategies. Moreover, our own asthma projects are
enhanced by this knowledge. We have a much better idea what works and what doesn’t. Our
outreach activities help us determine how successful our message is at reaching different
audiences.

6.	    Draft Audit Report: Page iv, RECOMMENDATIONS suggests improvements in
       assistance agreements and makes five recommendations.

Region 2 Response: The major thrust of these recommendations is that assistance agreement
management needs improvement for the purpose of improving the quality of the results of various
projects resulting from such agreements. We disagree with this entire premise. We believe that
the results of the projects we have undertaken for children’s health protection, asthma risk
reduction, and Indoor Air Quality (IAQ) Tools for Schools (TFS) have been largely successful.
When projects have not been successful or have failed to meet a specific objective, it has not been
caused by assistance agreement management but by other issues. There are a number of key
factors we believe that have lead to difficulties.

First, the difficulty in obtaining the services of qualified health support professionals (nurses, in
particular) when called for in such agreements was the major factor, or a major factor in the
difficulties in the Puerto Rico Asthma Coordinator grant, and the Child Health Champion
Campaign Pilot Project (CHCCPP). Second, the extreme difficulty we have encountered in
finding qualified grantees to perform the projects in the locations desired has been the root cause
of delays with the Camden project cited in the report. The report points out that the final work
plan was not in place when the grant was awarded, however, a tentative workplan had been
proposed. The report also alludes to the fact that both the PO, the PO’s Branch Chief, and the
Senior Regional Urban Coordinator devoted extensive time to working with the grantee’s project
manager to improve and finalize the work plan. When this was not achieved within approximately
six months from the beginning of the grant, the grantee’s management and Regional management
mutually concluded that the project manager was unqualified to do the work and another project
manager was put in place. Shortly thereafter, an acceptable work plan was in place. We offer this


                                                 90

                                                   Region 2's Management of Children’s Health
                                                            Risk Initiative and Related Projects

specific example to show that, to the contrary of the conclusions and recommendations of this
report, management of assistance agreements at all levels was a prime reason for overcoming
difficulties on the particular project. A third difficulty that was encountered in several of the
projects was the difficulty in getting people, or in the case of IAQ TFS, school districts, to
volunteer to be candidates for the studies. Grantees, POs, and regional management all have
miscalculated the time it would take to get volunteers from the public or the public sector to
volunteer to be subjects of various projects. This has nothing to do with assistance agreement
management. This is an important lesson learned from these projects and, as a result, this
difficulty is being addressed in subsequent agreements.

Detailed responses to the specific recommendations are provided below. While we agree with the
draft report that some improvements in the management of assistance agreements is warranted,
none of the more serious difficulties in any of the projects reviewed were caused by poor
management of these agreements. Further, most of the improvements recommended involved
improved electronic tracking system and the upgrading of files. All of these improvements were
drafted and sent to the audit team manager for comment prior to the end of the team’s fieldwork.
All of these improvements have been put in place. Therefore, we believe most, if not all of these
recommendations are unwarranted or should be re-written to reflect that they have been
successfully achieved, during the fieldwork period of this review.

7.	    Draft Audit Report: Page iv, Recommendation No. 4, “We recommend that the Region
       2 Administrator improve assistance agreement management by developing an outline for
       information recipient [sic] should provide in progress and final reports, and scheduling a
       conference with on-going recipients to remind/reinforce EPA requirements and recipient
       technical and financial responsibilities.”

Region 2 Response: EPA’s grant regulations (i.e., 40 CFR §30.51 and 40 CFR §31.40)
prescribe the minimum requirements for the contents of a performance report. However, we do
agree that there is a benefit to providing additional guidance to Project Officers (POs). Therefore,
the development of guidance to assist POs in identifying and communicating to recipients the
types of information that should be provided in progress and final reports is on the Region 2
Grants Customer Relations Council’s (GCRC’s) agenda for FY’01.

8.	    Draft Audit Report: Page 5, second full paragraph, last sentence reads: “Our fieldwork
       was performed from April 1, 2000 to June 20, 2000.”

Region 2 Response: According to records kept by DEPP-RIAB, fieldwork continued past the
June 20, 2000 date, if fieldwork is to be considered visits to PO and management work stations.
Specifically, information was requested and provided concerning the Puerto Rico Asthma
Coordinator grant on August 7, 2000 and information concerning both the 1999 MOA and related


                                                 91

                                                    Region 2's Management of Children’s Health
                                                             Risk Initiative and Related Projects

backup material concerning TFS implementations reported as part of the MOA reporting process
were provided as late as during the last week of August. Finally, the draft report cites a reference
for July 17-21, 2000 on page 20 in the fourth paragraph, clearly showing that field work carried
on past the June 20th date. Therefore, we request the report be changed to reflect accurately the
dates fieldwork stopped and for which data collection stopped from the affected organizations.
We believe this perspective is key to an understanding of the issues involved in this report, since
the data collection ended about one month before the end of FY 2000, and the end of fiscal year
time frame is traditionally one in which grants and IAG’s are assessed, reviewed, extended or
closed out.

9.	    Draft Audit Report: Page 14, seventh line reads, in part, “...many projects reviewed did
       not achieve the desired goals, objectives or results.”

Region 2 Response: We disagree with this assertion and discuss these matters on a per project
basis below.

10.	   Draft Audit Report: Page 14 and following concerning the Child Health Champion
       Campaign Pilot Project overall, finds fault with this project from the standpoint of
       achieving desired results.

Region 2 Response: The CHCCPP is, as previously mentioned, a pilot project initiated by the
Office of Children’s Health Protection (OCHP) which began in 1998. The intention of this pilot
program was to test a number of methods of reducing risk from environmental problems and to
test the outcomes, thereby learning from the successes and failures of the program. By definition,
pilots serve as tentative models for future experiment or development. The words tentative,
experiment, and development in this definition all point to the nature of these projects as trials.
The success or failure of the individual site projects’ activities does not indicate the failure of the
overall program goals nor even of the individual site’s goals, as the overarching intent is to test
the methods chosen. This understanding is not reflected in the OIG report. Additional specific
points follow.

11.	   Draft Audit Report: Page 15, Difficulties During Implementation Stage section, fourth
       sentence states that “...follow up of the target study family and child...was eliminated.”

Region 2 Response: This is incorrect. During the time when OIG was interviewing the project
officer and project manager about the CHCCPP, the Target Study aspect of the project was
uncertain. It was, at the time, becoming clear that the existing recruiting methods for the Target
Study were not successful. However, no final decisions or changes had been made at the time the
OIG was evaluating this project. The project manager was having conversations periodically
throughout this time with the PO at EPA and also with Mathematica Policy Research, Inc., a


                                                  92

                                                 Region 2's Management of Children’s Health
                                                          Risk Initiative and Related Projects

consulting firm that was hired by OCHP for the express purpose of helping to design these studies
such that their results could best provide a quantitative evaluation of their risk reduction
methodologies. In conjunction with Mathematica, the project manager of CHCCPP arrived at a
revised plan regarding the Target Study. This was submitted to EPA on August 11, 2000. The
revised Target Study includes the following changes:

       •	      A name change to ‘Asthma Busters Project’. The project manager received
               feedback from the community that part of their reluctance to being included in the
               study was that the name sounded daunting and implied a significant time
               commitment. This name change gives the impression of something friendlier, less
               formal, and more helpful to the participants.
       •       Expansion of the age range for children from 3-4 years old to 12 and under.
       •	      Condensation of the original Target Study plan. Individuals, in staggered order
               according to their dates of recruitment, are entered into a six month program
               including:
               - Initial intake appointment with RN, spirometry reading, Asthma 101 education
               - 1st home visit with Asthma Buster, Environmental triggers education
               - 2nd appointment with RN, IPM education
               - 2nd home visit, education evaluation/review
               - 3rd home visit
               - 3rd appointment with RN, evaluation.
       •	      Elimination of a control group. Instead, each participant will serve as their own
               control/comparison from the start of the intervention to the end.
       •	      Incentives of $20.00 for each appointment kept, and $50.00 upon completion of
               the project (in the form of gift certificates to Pathmark) will be given to
               participants to help keep them in the study.

As a result of these changes, as of mid-September 2000, nine families had been recruited to
participate in the Asthma Busters Project.

The original Target Study would not have had a lot of statistical power because of the very small
numbers of participants. This version of the project has the additional handicap of having a less
rigorous evaluation component. However, the project will still yield an indication of progress or
lack of progress based upon the intervention methods, and that is a good start.

12.	   Draft Audit Report: Page 21, second paragraph takes issue with the PO’s and
       recipient’s perception of the reasonableness of the measurable goals for asthma risk
       reduction associated with the CHCCPP program.




                                               93

                                                    Region 2's Management of Children’s Health
                                                             Risk Initiative and Related Projects

Region 2 Response: It is true that the EPA project officer and OCHP representatives were
aware of the numerical goals that the CHCCPP participants were formulating, and reviewed and
approved the numbers. However, in line with the pilot aspect of the project, these EPA personnel
were also, to some extent, unfamiliar with what realistic expectations might be for this type of
project. This project has been a learning experience for all involved, as was the intention all
along. This should be seen as a learning situation.

13.	   Draft Audit Report: Page 22, second paragraph, last sentence presents contradictory
       information and in such a way as to imply that our failure is clear and obvious to anyone
       seeing the facts. The report states that the goals set out have not completely been met,
       and lists the fact that a no-cost time extension has been approved by EPA as just one more
       in an ongoing line of failures.

Region 2 Response: This is misleading. The approved no-cost time extension extends the time
available for the project to complete its goals, and was the reason for granting it. We have every
reason to believe the project will be successful in its new time frame.

To some extent, some realism is called for in reviewing the progress of this project. A
community-based, grassroots group accepted our call to perform an outreach/intervention project
with a technical evaluation aspect with which they were inexperienced. Their willingness to reach
beyond their previous ability to take on something that was, essentially, in the domain of
professional research, is admirable. Their difficulty in recruiting participants is not unusual to this
type of project, including those conducted by professionals in the field. Studies that do not
include large incentives to participants and require multiple home visits and clinic visits are
notorious for a difficult recruitment period. The difficulty in finding and hiring a nurse is hardly
limited to this project. Associated Press wrote on August 1, 1999 about the nurse shortage in the
State of New Jersey that was compromising the State’s ability to deliver adequate health care.
Add to this the fact that the position which the project manager was trying to fill needed to be
bilingual, and was only part-time, and it seems surprising rather that the project found a nurse as
quickly as it did.

While the OIG report is quick to point out the timeliness of the Region 1 CHCCPP, in fact seven
of the eleven CHCCPP sites across the country have requested no-cost time extensions, and two
more have indicated their plan to do so. While the OIG may see this as a failure extending beyond
EPA Region 2, in fact, it demonstrates the difficulties involved with this type of project and with
community-based work in general. The reality of these organizations’ lower-budget operations
and everyday difficulties in working within their neighborhoods means that very often delays are
encountered.




                                                  94

                                                     Region 2's Management of Children’s Health
                                                              Risk Initiative and Related Projects

Nonetheless, EPA has chosen to conduct much of its work through community-based groups
because it is a more efficient use of money and reaches the target population more effectively.
Learning to work with community-based groups is something that EPA project officers have been
doing slowly over the past several years as more EPA programs become oriented in this direction.
Improving and learning from this type of interaction is one of the goals of the CHCCPPs.

14.	    Draft Audit Report: Page 22, third paragraph, last line, the OIG states that “EPA
        Headquarters...is responsible for oversight and monitoring of the Regional IAQ - TFS
        program.”

Region 2 Response: This is incorrect. Region 2's DEPP RIAB is responsible for monitoring the
Regional IAQ TFS program and not EPA Headquarters.

15.	    Draft Audit Report: Page 23 and following make several assertions concerning
        management of the Western New York Council on Safety and Health (WNYCOSH) IAQ
        - TFS project.

Region 2 Response: The first and most important point that must be understood is that the IAQ
Tools for Schools program is a voluntary initiative. The program is designed for schools to pick
up the kit and coordinate, execute and complete a great number of activities over time. Almost
nowhere in the country did this ever happen without intervention. There are no visible incentives
for schools to follow the program - there are only anecdotal stories of success, and the hope that
schools will want to “do the right thing”.

Each school, even within a school district, is very much an individual. They will vary widely in
their building characteristics, their culture, their status in terms of the “health” of the building, and
their awareness level of things that influence IAQ.

This was the first year of the grant, and it was a learning process - at the time the grant was
awarded, there was not much of a national track record for implementation. WNYCOSH had to
make adjustments along the way as they encountered difficulties. During the initial phase of the
project, the official definition of implementation, as issued by EPA headquarters, had not been
decided upon (was not, in fact, issued, until April 17, 2000.) The WNYCOSH proposal was a
good faith effort to capture IAQ improvements in the absence of a formal, less stringent,
definition of implementation.

It is clear from the OIG report that OIG staff and EPA technical staff do not view implementation
of IAQ TFS and improved health outcomes in the same way. OIG staff have determined that
unless step Nos. 1-7 occur, it is not reasonable to assume that objectives have been met.
Technical staff field experience, however, proves the need for flexibility and adaptability in order


                                                   95

                                                    Region 2's Management of Children’s Health
                                                             Risk Initiative and Related Projects

for a voluntary program such as IAQ TFS to be successful. Improved health outcomes can be
attained with the basic implementation definition (as defined by EPA on April 17, 2000) which
is a far less strict set of guidelines than WNYCOSH originally proposed. We have tried several
times to impress upon the OIG the need to remain flexible based on field experience and how this
helps attain more support for a program such as IAQ TFS. Apparently, the audit team either do
not understand or do not agree with this view. Additional specific comments follow.

16.	   Draft Audit Report: Page 24, first paragraph, the OIG states that “As of August 7th, the
       project has not been closed out.”

Region 2 Response: The project was subsequently closed out on September 12, 2000.

17.	   Draft Audit Report: Pages 25 and 26, Subsequent Grant section, first paragraph, the
       OIG states that “Interestingly, work plan steps 5 and 6 (writing and presenting technical
       report) which had not been fully performed during the first grant, were modified.”

Region 2 Response: As with any first-time grant dealing with a voluntary program, changes
based on prior experiences help serve to strengthen the program. The reporting requirements
were changed to allow more flexibility to WNYCOSH and the participating schools. If the
building checklist activity/walk-through does not yield large amounts of data (which often can be
the case) it is not reasonable to require that a formal report be written. This flexibility is based on
the reality that a report written for its own sake yields no benefit to the school nor does it improve
the health outcomes for its occupants.

18.	   Draft Audit Report: Page 27, Conclusion section, first paragraph, the OIG states that
       “EPA was also very satisfied with the apparent success of the project because it believed
       that the grantee actually implemented TFS in 19 schools.”

Region 2 Response: Based on the official definition of implementation, as determined by EPA
HQ (April 17, 2000), a “countable” (for GPRA purposes) IAQ TFS implementation need only
include the following steps:

       1. IAQ Coordinator and/or Team Established
       2. Checklists distributed and some returned, Ventilation completed and Teacher,
       Maintenance, and Renovation begun
       3. Walk-through completed
       4. Management Plan developed which identifies major issues and priorities determined
       and repair schedule set. This step does not necessarily indicate that a formal written
       report be prepared. IAQ TFS itself constitutes an IAQ management plan in that it
       involves components of staff education, notification of activities to the community at


                                                  96

                                                  Region 2's Management of Children’s Health
                                                           Risk Initiative and Related Projects

       large, and complaint/response mechanisms. A walk-through summary (again, not
       necessarily a formal report) in most cases can be used as a list of major issues identified
       and priorities that need to be addressed. Often, in our experience, many of the “fixes” are
       of such a nature as to be “fixable” during the walk-through itself and would not need to be
       included on a formal “repair schedule.”

The seven steps that WNYCOSH outlines in its original proposal both preceded and exceeded the
current acceptable definition of successful IAQ TFS implementation. To that end, with the
exception of the Batavia District, the remaining districts/schools had met the basic requirements
of implementation by selecting a coordinator, forming a team, distributing and collecting relevant
checklists, and having IAQ technical training as part of the walk-through process.

19.	   Draft Audit Report: Page 27, first paragraph, last sentence, the OIG states that
       “Although EPA might have gotten its “bean count” for 19 schools, the primary objectives
       of assisting the schools in identifying, preventing, and resolving IAQ problems were not
       fully met.”

Region 2 Response: In fact, the 19 schools associated with this WNYCOSH project have not
been counted as part of the MOA/GPRA reporting requirements as the agreement had not yet
been completed and it was not appropriate to “bean count” schools in a project that was not yet
completed. Only those schools which met the four criteria listed above will be reported for
GPRA purposes, now that the agreement has been closed out. Further, the assertion that not
conducting all seven steps somehow means that the project objectives were not met is simply not
accurate. While issuing a final written report for each school was not done in all cases, it hardly
follows that no improvements in identifying, preventing, or resolving IAQ problems occurred or
that improved health outcomes were not met. Due to the voluntary nature of the IAQ TFS
program and that the very nature of the program relies on flexibility, certain elements are not
going to be applicable or appropriate in all cases. This does not mean, however, that no
demonstrable impact on health outcomes occurred.

The second agreement with WNYCOSH was amended to accommodate for more flexibility in
working with the individual schools and to not create a reporting requirement if significant
findings were not in evidence from the checklist/walk-through activities. WNYCOSH was one of
the first organizations nationwide to pilot IAQ TFS in school districts without significant hand
holding by EPA. As such, as the project has progressed, the approach used has been refined to
allow more flexibility for schools in implementing the program without placing an undue burden
on them by requiring steps which may not be relevant.

20.	   Draft Audit Report: Page 27 and following make several assertions concerning
       management of the NIAID - Hunts Point Inter-Agency Agreement (IAG).


                                                97

                                                   Region 2's Management of Children’s Health
                                                            Risk Initiative and Related Projects


Region 2 Response: The assertions made in this section are incorrect. This is not terribly
surprising due to the difficult and confusing nature of this project. Some history is necessary. In
the spring of 1997, the PO for this project began interacting with a manager at the National
Institute for Allergy and Infectious Disease (NIAID). She was inquiring as to the possibility of
arranging similar asthma projects concurrently in the South Bronx and Puerto Rico in
collaboration with NIAID. The discussions with this party led the PO to believe that EPA funds
would go to supplement an NIAID-supported asthma project site in the Bronx, and Regional
Geographic Initiative (RGI) funds were solicited and obtained within the Region for this purpose.
In exchange for this, EPA Region 2 was to be considered a collaborator on a potential similar
project to be conducted in Puerto Rico. A number of the e-mails transmitted between these two
individuals are part of the file record.

Subsequently, the manager left NIAID and was replaced. Continuing discussions with the new
manager led to the same plan, that EPA funds would supplement the Bronx site, which was the
Region’s goal. The PO attended a meeting in Bethesda, Maryland with NIAID which discussed
the ongoing asthma project in question. At this point, still prior to the award date, conversations
were occurring between the project officer and NIAID as well as the study group in the Bronx
which would implement the project.

In mid-September of 1997, NIAID changed their position and said that it would disturb the
statistical congruity of their study, which included numerous sites across the country similar to the
site in the Bronx, if EPA expanded the Bronx site with supplemental funds and additional
subjects. Therefore, we needed to use the EPA funds for an adjunct, rather than integral, asthma
project. While this was disappointing to us, the resulting project which we agreed upon used the
same protocol as the original project, only on a smaller scale, and so we proceeded. Because the
agreement was now separate from the NIAID-funded project, it was not necessary to give these
funds through an IAG as we had originally planned. However, we soon realized that most of
EPA’s funds would be consumed by the recipient’s (Einstein College of Medicine) indirect
charges if they were awarded through a grant or cooperative agreement. Consequently, Region 2
opted to enter into an IAG with NIAID, which subsequently awarded a subagreement to Einstein
College of Medicine to carry out activities under the IAG.

This project plan, however, failed. Einstein College encountered difficulties in implementing this
plan, and as a result, in October 1998, they proposed to NIAID another plan, involving
collaborating with the New York City Department of Health (NYCDOH) on their Asthma
Initiative. NIAID contacted the PO and she gave oral approval of the switch to the new plan.
However, it was not until January of the following year, four months later, that she received any
written documentation of the new project plan. Additional specific comments follow.



                                                 98

                                                  Region 2's Management of Children’s Health
                                                           Risk Initiative and Related Projects

21.	   Draft Audit Report: Page 28, third paragraph, first sentence, the OIG states that “In the
       latter part of 1998 the PO became aware that the original scope of work had been
       significantly changed even though a proposed budget for the “new” project was faxed to
       her on September 25, 1997.”

Region 2 Response: This is incorrect. The new project described to the PO in September of
1997 was only slightly revised from the original she had been planning with NIAID all along. The
change, of which she became aware in October 1998, was the second change to the current
project which now involved working with the NYCDOH.

22.     Draft Audit Report: Page 29, third paragraph highlights delays in completion of project
        tasks.
Region 2 Response: Regarding delays, see the discussion under Child Health Champion
Campaign Pilot Project regarding delays in community work and barriers to recruiting for asthma
intervention projects.

23.	   Draft Audit Report: Page 30, third paragraph, last sentence indicates that certain
       comments attributable to the [RIAB] Branch Chief “...do not appear to be in line with
       previously mentioned documents.”

Region 2 Response: We do not see how “these comments” are inconsistent with “previously
mentioned documents.” This paragraph should therefore be removed or explained.

24.	   Draft Audit Report: Page 32, last paragraph, sentences two and three allege “...the PO’s
       lack of communication and coordination in managing this project.”

Region 2 Response: Again, the confusion here is between the two separate changes that
occurred in this project. What the project officer became aware of in the Fall of 1997 was a
minor change from the original planned scope of work. The changes she became aware of in Fall
of 1998 were more extensive and changed the nature of the project.

Finally, the critique of this project, while accurate on many counts such as the convoluted
paperwork and unsatisfactory level of interaction with the funds recipient (NIAID), misses the
point that this is, indeed, still a very effective project and is a good use of EPA funds. Projects
like this, collaborating with significant scientific partners around the Region and with the
NYCDOH, are not only effective for our program but have been partially responsible for a 28.4%
reduction in hospitalization rates for childhood asthma in New York City from 1997 to 1998. See
the conclusions for more discussion on this.




                                                99

                                                 Region 2's Management of Children’s Health
                                                          Risk Initiative and Related Projects

25.    Draft Audit Report: Page 33, Rutgers Training Center IAG Amended Nine Times
       section, implies an inherent problem with multiple amendments to this project.
Region 2 Response: The fact that the IAG in question was amended nine times instead of
processed as a series of new agreements is simply an issue as to the methods used by the Regional
Management for such agreements. In itself this is not poor management.

26.	   Draft Audit Report: Page 33, second paragraph, points out that two separate
       amendments were both numbered “7".

Region 2 Response: The PO was aware of the duplicate numbers sometime after 1997. This
paragraph implies that no one connected with the IAG, either in DEPP-RIAB or in OPM-GCMB,
realized that two different Amendment No. 7s had been processed until the OIG audit. In fact,
the Grant Specialist (GS) corrected the record in 1999 when the no cost time extension (NCTE)
was processed, a point that the OIG did not include in the report. We request that either the full
story of this matter be portrayed in the audit report or that the reference to this duplication be
deleted as it had no material effect on the management of the IAG or the resulting project
outputs. We suggest that the sentence that states, “The PO or GS were not aware of the
duplicative Amendment 7's.” be changed to read that “The GS corrected the duplicative
Amendment No. 7's when the 1999 NCTE was issued and after being notified of the problem by
the PO in 1998.”

27.	   Draft Audit Report: Page 33, second paragraph states that “As of June 27, 2000 the
       Spanish version of the [Integrated Pest Management] video had not been completed.”

Region 2 Response: After the English/Spanish Video on Integrated Pest Management was
awarded, Region 2 learned of an asthma triggers video being undertaken by Region 7. Combining
the development efforts of these videos made for a better final product, one which EPA will use
as a part of its national asthma strategy. Additionally, combining the development effort avoided
duplicative use of EPA resources. Region 7 is currently completing the translation of the video
into Spanish. As soon as that translation is complete and reviewed, the remaining funds under this
video project will be used to purchase and distribute additional video copies.

As such, the occurrence of duplicative Amendment 7's did not cause the Spanish video to be
completed after June 27, 2000, but rather, the video was delayed by the PO’s decision to combine
development efforts with Region 7. This was done to save money and enable more copies of the
video to be available for distribution. These copies will be available in FY’01, soon enough to
help us achieve our overall asthma GPRA goals for FY’05. We, therefore, request that the report
be re-worded to clarify the above.




                                               100

                                                   Region 2's Management of Children’s Health
                                                            Risk Initiative and Related Projects

28.	   Draft Audit Report: Page 33, third paragraph indicates that Amendment No. 8 added
       “Rodent Tech Support and Training....”

Region 2 Response: In fact, this Amendment added “Radon” Tech Support.... Please make that
correction in the final report.

29.	   Draft Audit Report: Page 33, No Cost Time Extensions (NCTEs) section implies a
       problem with such extensions on the Rutgers Training Center project.

Region 2 Response: In 1997, ORIA provided a sum of money for Regions to obtain
implementation of IAQ Tools For Schools using assisted walk-throughs. Up to that time the
Regions had limited experience in performing these walk-throughs. Two walk-throughs had been
performed in Region 2, neither of which included IAQ consultants. Hence the reason for this
funding. Region 2 and ERRTC estimated costs for travel, walk-throughs, etc. and specified that
40 walk-throughs would be performed for the amount allocated. Because the Training Center
exercised great care in selecting qualified IAQ professionals and in getting travel savings through
the use of single trips to do multiple schools, 51 walk-throughs have been performed to-date, and
there are still funds available to do walk-throughs in more schools. During the performance of
this project, it became clear that because this is a voluntary program and recruitment of schools
has been slower than anticipated, it would take longer than previously thought to get candidate
schools. Because of the first year successes, recruitment increased substantially over the last
school year, so we anticipate project completion this FY.

Since walk-throughs are best performed during heating season in most areas, rushing to complete
the project in late Spring or early Fall would have resulted in a less than satisfactory product. The
NCTE on the walk-through portion of the project has resulted in a 25% increase over our original
estimate to-date, in the number of schools we can count toward our FY’05 GPRA goal. When the
project is complete during FY’01 we estimate that the increase will approach 50%. Therefore,
the impression that may be obtained from this report, i.e., that NCTEs delayed this project, is
totally wrong and clarification is requested. Further, we request that the actual level of success in
achieving GPRA goals be stated for the record.

As noted above, DEPP-RIAB had traditionally used a one fiscal year project period for its grants.
In the past year or so, we have been making a more realistic appraisal of the time needed to
complete projects and providing adequate time in the initial project period.

30.	   Draft Audit Report: Page 34, Decision Memorandum section, states that “A decision
       memorandum was not prepared for the first eight amended amounts and the one for
       Amendment 9 was incomplete.”



                                                101

                                                  Region 2's Management of Children’s Health
                                                           Risk Initiative and Related Projects

Region 2 Response: In fact, the PO’s file included such a memorandum for Amendment No. 8
and the following three amendments. The incoming correspondence concerning this audit
indicated that the review would focus on the last three years. Since Amendment No. 8 was signed
in 1997, for the last three years there has been a decision memorandum with each agreement.
Since the decision memoranda do exist and are in the project file, we request the paragraph be
changed accordingly. Information about the perceived deficiencies to the ninth amendment were
not provided by the audit team during the audit or in the draft report. We request such
information be provided. A copy of this Decision Memorandum is attached (Attachment 2).

31.	   Draft Audit Report: Page 34, IAG Should be for A Distinct Project section cites
       Agency guidance documents as calling for each IAG to cover only one distinct project.

Region 2 Response: The Region agrees with this. However, we would recommend some care in
the design of future IAGs so that the Region can maintain the same flexibility that allowed us to
amend the projects to obtain additional outputs over those originally specified, as well as to allow
us to avoid duplicative efforts such as could have occurred with the English/Spanish video.

32.	   Draft Audit Report: Page 34, third paragraph, last line indicates that IAGs must contain
       a condition that “When requesting payments, a breakdown of the cost associated with
       billing request must be provided to the PO.” Further, “If information is not provided, the
       PO will notify Financial Management Division to suspend or charge back the payment.”

Region 2 Response: This statement does not apply to the IAGs under review since the
agreements included advance payments. Cost information was provided with the original work
plan and, for deliverables such as course presentations, it is clear that stated purpose has been
completed. In addition, the quarterly reports for the walk-throughs include information on costs
incurred.

33.	   Draft Audit Report: Page 35, Conclusion section, reiterates the need for individual
       IAGs for non-related projects and decision memoranda. It also makes note again of the
       shortage of walk-throughs and the incomplete status of the Spanish IPM video. The last
       sentence of the second paragraph indicates that “The Region has reported recent projects
       as separate and distinct elements.” The third paragraph alleges that “Amendments for
       separate activities impacted the Rutgers Training Center’s financial accountability as noted
       in its February 21, 2000 status report.”

Region 2 Response: We agree concerning individual IAG’s; moreover, the latest amendments
have included decision memoranda. See above discussion regarding the completion of walk­
throughs and the Spanish video. We do not understand the statement concerning reporting recent
projects as separate and distinct elements.


                                                102

                                                   Region 2's Management of Children’s Health
                                                            Risk Initiative and Related Projects

Regarding the Rutgers Training Center’s (ERRTC’s) February 21 Status report, this report took
into account the overall condition of the training center’s financial status and was not specific to
the IAGs under review. ERRTC’s general operating account includes course revenues, etc. and
not items from these IAGs. In addition, errors noted by the OIG were found and corrected prior
to this audit.

The crux of the financial problem at the training center was that course revenues were down, a
number of grants were ending and/or became NCTE’s with little salary money left, and as a result,
the ERRTC had to consider reducing its staff. This situation bore no relation to IAG accounting
and should be deleted from this report.

34.	   Draft Audit Report: Pages 37 and 38, Montefiore - Asthma project section, characterize
       this project as likely to “...not be fully successful...”

Region 2 Response: We disagree strenuously with the assessment of this project as being
unsuccessful. As previously stated, recruitment for this type of study is notoriously difficult. The
project manager experienced considerable difficulties in recruiting for his study yet displayed
flexibility and intelligence by his response. Montefiore conducted focus groups to determine the
difficulties presented to community members by the project protocol and incorporated what they
were told into modifying their process. Through their modifications to their approach, this
project is now fully successful. The extension which is being granted is to complete enrollment of
only a few additional families.

This project has compared and contrasted different methods of asthma intervention and had a very
intensive clinical evaluation to measure their relative success. Were it not for the commitment and
extensive in-kind services provided by the grantee to this project, this small amount of EPA
funding could never buy such an in-depth project. We believe that Montefiore Medical Center has
been an excellent grantee and this project one of our best.

35.	   Draft Audit Report: Page 38, Puerto Rico DOH project section, discusses a number of
       issues concerning this project and concludes that “The PO and Branch Chief
       acknowledged this was not a successful project.”

Region 2 Response: Several important items are left out of this analysis. First, the grant was
initiated by the DRA and a Division Director on October 1, 1996. The project proceeded until
Fall of 1997 when the original asthma coordinator hired by the PR DOH left to get her Ph.D. The
PR DOH had difficulty in finding a replacement and it took six months for them to finally hire a
replacement who we believe was simply not as well qualified as the previous coordinator. Since,
the asthma coordinators were responsible for providing the referenced status reports, delayed and
missing reports were the direct result of not having a qualified person filling the asthma


                                                103

                                                  Region 2's Management of Children’s Health
                                                           Risk Initiative and Related Projects

coordinator position or the vacancy itself. We concur with the assertion that this was not a
successful project, but we disagree with the implication that the project was unsuccessful because
of untimely reporting or less than adequate monitoring of the project. We emphasize that the
cause of the failure was the inability of the PR DOH to find and hold a qualified individual in the
position of asthma coordinator.

RIAB has reviewed the final report prepared. Our overall recommendation and conclusion from
this and from other projects where there is a similar reliance on the grantee obtaining services of
qualified health professionals is that unless such services can be reasonably guaranteed, the grant
should not be awarded.

36.	   Draft Audit Report: Page 39, IPM - Lehman Houses project section, first paragraph
       characterizes this as “a successful project due to the PO’s and recipient’s outstanding
       efforts”.

Region 2 Response: We wish only to add to this description of this successful project that as a
direct result of EPA’s pilot project, the New York City Council has agreed to fund the replication
of this pilot on a much larger scale. They will fund the NYCDOH at a level of $900,000 per year
for three years to support NYCDOH and Hunter College in implementing an IPM program in
New York City Housing Authority Buildings citywide.

37.	   Draft Audit Report: Page 42, What Was Found section, first paragraph, item (i)
       “inadequate review and approval of applicants’ project narrative/workplan;”

Region 2 Response: Of the eight RIAB projects for which the audit report provides commentary
between page Nos. 14 and 41, two or perhaps three may be the subject of this comment. In the
case of the CHCCPP, the applicant’s projects were carefully reviewed but, in some cases, as
detailed previously, their goals turned out to be unrealistic. Our ability to determine this was not
a function of the adequacy of our review but of our lack of experience in dealing with this subject.
This was the first project of its kind attempted in Region 2.

38.	   Draft Audit Report: Page 42,What Was Found section, first paragraph, item (ii)
       “incomplete decision memorandum;”

Region 2 Response: This applies only to the IAG with ERRTC, see comments above. The
period covered by this audit survey, as explained at the kickoff meeting was three years. As such
we reviewed the files for that period and found the three decision memoranda for that period
contained in the files. We further note that the Branch Chief for the PO of this agreement was
told by the audit team member who inspected this POs files that the POs files were exemplary. In



                                                104

                                                  Region 2's Management of Children’s Health
                                                           Risk Initiative and Related Projects

light of this comment, we cannot reconcile the statement in the draft report, and as such we
request this be removed from the final report.
39.	 Draft Audit Report: Page 42, What Was Found section, first paragraph, item (iii)
        “untimely submitted required progress and final reports ....”

Region 2 Response: We agree that there were projects that had untimely progress reports as
follows:

       • CHCCPP - 4 of 8 progress reports were late;
       • IAQ - TFS; NIAID - Hunts Point - first report sent in May 1999 — yet while the audit
       team points out that it was 20 months late, the start of the project was commensurately
       late, 16 months. In short, the grantee had nothing to report because the change in the
       project scope had not been satisfactorily changed.
       • Rutgers IAG - progress on this IAG is done via monthly meetings attended by the PO
       who sits on the RRTC steering committee;
       • Camden - Asthma & Lead Abatement - Due to the frequency meetings and close
       collaboration with the grantee under this cooperative agreement, written quarterly status
       reports were not necessary;
       • Montefiore - Asthma - five of six progress reports were received and this was caused by
       the difficulty in recruiting people for the study. The level of reporting was commensurate
       with the activity of the project which was driven by the lack of study subjects.
       • PR DOH - reports were truly untimely and sporadic and caused by the fact that PR DOH
       did not have anybody filling the position required to do the reports. We believe it would
       be more constructive to make a precise and quantitative listing of what occurred so that
       specific improvements could be recorded.

40.	   Draft Audit Report: Page 42, What Was Found section, first paragraph, item (iv) “lack
       of financial monitoring;”

Region 2 Response: Financial monitoring was done by the POs consistent with the information
required in the grantee’s periodic reports and with PO training. When difficulties were
encountered in some of the projects, and when these difficulties required review of the finances of
the project, these data were requested by the PO or the PO’s Branch Chief and received and
reviewed. In most cases this meant that financial data was obtained on a real time basis, instead
of relying on a historical periodic report. We, therefore, request that this statement be removed.
Should the report wish to offer constructive suggestions on how financial monitoring of grantees
can be improved, we would be receptive to that input.

41.	   Draft Audit Report: Page 42, What Was Found section, first paragraph, item (v) cites
       “frequency of no-cost time extensions;”


                                               105

                                                 Region 2's Management of Children’s Health
                                                          Risk Initiative and Related Projects


Region 2 Response: The NCTEs granted are viewed here as a problem. In general, we disagree
with this assessment and our analysis of why we disagree, on a per project basis, follows.

       • CHCCPP - NCTE will be granted to assure that there is sufficient time to finish the
       amended work plan. Of the 11 Regional CHCCPP projects around the country, 9 will
       need a NCTE to finish their work.
       • NIAID - Hunts Point - NCTEs have extended this project so that a revised scope of
       work and the subsequent work could be done. A 28.3% reduction in the Hunts Point
       asthma rate as measured in hospital admissions for children 0-14 may serve as the best
       proof that the NCTEs to keep this project going are not “problems.” While most of this
       reduction is likely attributable to effective patient case management and better medical
       care overall, we cannot help but believe that our support for this project has made some
       positive contribution.
       • Rutgers - IAG - NCTEs were used to extend the IAQ TFS project which has resulted in
       a 25% increase [over the originally proposed number] in the number of schools
       implementing TFS [a GPRA goal] to date and will, in all likelihood, result in about a 50%
       increase by the end of the project. We do not view this as a problem but rather, a benefit.
       • English/Spanish video project - NCTEs which were used to extend this resulted in or
       will result in more Spanish videos ultimately being produced and the avoidance of a
       duplicative effort between Regions 2 and 7. Again, we see this not as a problem but
       rather, a benefit.
       • Camden - Asthma Lead Abatement - a NCTE will be processed so that the work plan
       which was finalized in the Spring can be completed. The NCTE will be the difference
       between an acceptable and successful project and no project at all.
       • Montefiore - Asthma - again, an NCTE is being used to get the desired outputs from the
       project and is not seen as a problem but rather, a benefit.
       • Puerto Rico DOH - the two NCTEs were used in the hope that a new coordinator could
       successfully complete the project. This did happen.

42.	   Draft Audit Report: Page 42, What Was Found section, first paragraph, item (vii)
       alleges “projects not reviewed and evaluated;”

Region 2 Response: All Children’s Health projects, including those examined by the audit team,
are reviewed and evaluated by the Region, both during the course of the project and following
completion (see below for more information on how project results are communicated nationally).

43.	   Draft Audit Report: Page 42, What Was Found section, first paragraph, item (viii)
       alleges “untimely project closeout.”



                                               106

                                                   Region 2's Management of Children’s Health
                                                            Risk Initiative and Related Projects

Region 2 Response: In many cases this again involves the definition of timely. In general, EPA
policy requires that assistance agreements be closed out within 180 days of the expiration of the
project. Of the eight projects discussed in the report, six are ongoing. Two have been completed
and are being closed out within the time frame mentioned above. The PR DOH project is one of
these projects and the untimely closeout is directly related to the inability of the grantee to secure
the services of qualified personnel to do the work and write the final report.

44.	   Draft Audit Report: Page 53, Projects Not Evaluated section, alleges several
       shortcomings with regard to PO review, evaluation, and dissemination of reports and
       other project deliverables.

Region 2 Response: POs have a system to disseminate recipients’ reports and report on progress
prior to completion of a project. Regional IAQ staff have a monthly conference call which
includes a round of news items from each Region. Projects of interest are routinely reported on
and written material provided to interested Regions. Each DEPP-RIAB staff member concerned
with Indoor Environments issues is on a Headquarters team covering asthma, Environmental
Tobacco Smoke, Schools, or Radon. Thus, information shared with the team is often then shared
with National Cooperative partners, as appropriate. This information is also shared by attending
conferences, meetings, and outreach sessions.

EPA’s ability to recognize and promote successful programs is not impaired. In fact the asthma
triggers/IPM video will be used as a national EPA product. IPM and roach issues were included
in National Asthma Intervention Studies; indoor environmental issues are included as a separate
goal of the Pediatric Asthma Coalition of NJ; NYC Housing Authority is looking at IPM and
trigger avoidance in City Housing; NYC Board of Education has begun piloting IAQ TFS in its
1,100 schools because information from the programs of DEPP-RIAB were successfully
conveyed to other groups in person at critical times in their program development. This provides
the Agency with huge leverage in getting our GPRA message incorporated as part of other
groups’ strategies, often at little or no direct cost to EPA.

45.    Draft Audit Report: Page 60, Recommendation No. 3-1

       “We recommend that the Regional Administrator instruct the Chief, Radiation and Indoor
       Air Branch, Division of Environmental Planning and Protection to complete
       implementation of the recently revised PO project files organization. Periodically review
       files to ensure they are complete, organized and in compliance with requirements.”

Region 2 Response: This recommendation should be removed. The subject Branch Chief had
informed the audit team leader at a meeting in June 2000 that periodic review of files did take
place. In addition, the recently revised PO project file organization was completed during the


                                                 107

                                                  Region 2's Management of Children’s Health
                                                           Risk Initiative and Related Projects

month of July 2000 and reported to the audit team leader. There is no reason to recommend
periodic review of files when it is already standard practice. The revised organization of these
files as set forth by the revised PO guidance was undertaken, and completed and reviewed as part
of the mid-year performance process for all staff with PO responsibilities.

46.    Draft Audit Report: Page 60, Recommendation No. 3-2

       “We recommend that the Regional Administrator instruct the Chief, Radiation and Indoor
       Air Branch, Division of Environmental Planning and Protection to reduce the number of
       projects assigned to a PO by redistributing workload, assigning fewer future projects,
       combining agreements into larger projects, or assigning alternate POs to assist the PO in
       certain areas.”

Region 2 Response: Workload redistribution was discussed with the audit team leader and that
discussion is referenced in the audit report. Simply stated, redistribution to lower the workload of
one PO will only result in a greater workload on another fully loaded PO. While combining
agreements into larger projects sounds like an admirable goal, it should be noted that the report
concludes that at least one IAG should have been broken down into many separate agreements. If
this recommendation remains in the report we suggest that the audit team provide specific
examples where they believe combinations can occur.

The idea of having alternate POs assist other POs as a recommendation is, in fact, an existing
practice of the Branch with regard to many of these projects and was discussed with the audit
team leader in the aforementioned June meeting. Additionally, the workload placed on RIAB POs
has been the subject of management review at the Division Director/Regional Administrator level.
A May 22, 2000 memo detailing DEPP FY 2000 position allocations discusses the conversion of
an over-ceiling position to a regular position for IAQ work. This memo was submitted to the
audit team leader and indicates that we are aware that our POs have a heavy workload, but is not
referenced in the draft report. We believe that any reference to the work load of POs without a
concurrent discussion of management’s understanding of the situation and its steps to deal with
the matter results in a lack of perspective in the report on this issue. We, therefore, request that
this section be re-written to reflect senior management’s concerns and subsequent actions.

47.    Draft Audit Report: Page 61, Recommendation No. 3-3

       “We recommend that the Regional Administrator instruct the Chief, Radiation and Indoor
       Air Branch, Division of Environmental Planning and Protection to reduce or limit PO
       responsibilities for attending conferences, conducting training, performing outreach
       activities, etc. to be able to devote more time to monitor assigned projects.”



                                                108

                                                  Region 2's Management of Children’s Health
                                                           Risk Initiative and Related Projects

Region 2 Response: This recommendation should be eliminated as it runs counter to every
practice that has yielded positive and constructive results for the program. Also please see our
comment No. 5. It is critical that employees keep up-to-date, particularly as asthma in children is
still an emerging issue. Our staff needs to interact with other professional colleagues so that we
fund projects that are significant and worthwhile.

48.    Draft Audit Report: Page 61, Recommendation No. 3-4

       “We recommend that the Regional Administrator instruct the Chief, Radiation and Indoor
       Air Branch, Division of Environmental Planning and Protection to verify that detailed final
       statements of work are submitted containing specific goals, objectives, and performance
       measures. They should be adequately reviewed to determine the reasonableness of the
       recipient’s goals, anticipated outcomes, and project/budget periods. (A Workplan
       checklist form should be considered.).”

Region 2 Response: This recommendation should be eliminated since this is already standard
practice. Occasionally, grant approvals are expedited as a result of regional priorities. These
cases have been discussed in detail with the audit team leader.

49.    Draft Audit Report: Page 61, Recommendation No. 3-5

       “We recommend that the Regional Administrator instruct the Chief, Radiation and Indoor
       Air Branch, Division of Environmental Planning and Protection to submit a complete and
       accurate program office recommendation for award (decision memorandum). Specifically,
       a non-competitive award justification must be included to provide a reasonable basis for
       the award.”

Region 2 Response: This recommendation should be eliminated as it is already standard
practice. In the cases where the lack of such a decision memorandum is noted, the audit team
missed the memos during their field work.

50.    Draft Audit Report: Page 61, Recommendation No. 3-6

       “We recommend that the Regional Administrator instruct the Chief, Radiation and Indoor
       Air Branch, Division of Environmental Planning and Protection to develop an outline for
       technical and financial information that grant recipients should provide in progress and
       final reports. This outline could be in the form used by EPA’s New England Region.
       (Exhibit 2)”




                                               109

                                                  Region 2's Management of Children’s Health
                                                           Risk Initiative and Related Projects

Region 2 Response: EPA’s grant regulations (i.e., 40 CFR §30.51 and 40 CFR §31.40)
prescribe the minimum requirements for the contents of a performance report. However, we do
agree that there is a benefit to providing additional guidance to Project Officers. Therefore, the
development of guidance to assist Project Officers in identifying and communicating to recipients
the types of information that should be provided in progress and final reports is on the Region 2
Grants Customer Relations Council’s (GCRC’s) agenda for FY’01.

51.    Draft Audit Report: Page 61, Recommendation No. 3-7

       “We recommend that the Regional Administrator instruct the Chief, Radiation and Indoor
       Air Branch, Division of Environmental Planning and Protection to initiate a system for
       tracking progress report due dates, PO reminder letters, non-submissions, late and
       incomplete submissions, and documenting justifications for waiving reports. Recurring
       reporting problems should be brought to management’s attention for further actions.”

Region 2 Response: This system was instituted. The OIG noted this on page 59 under RIAB’s
Actions, last sentence of the first paragraph of that section. Further, the tracking summary sheet
was submitted to the audit team leader for his review and recommendations prior to the
completion of their field work. No comments were received from the audit team. We also
request that the citation mentioned above on page 59 be amended to include that this tracking
system has been successfully put in place.

52.    Draft Audit Report: Page 61, Recommendation No. 3-8

       “We recommend that the Regional Administrator instruct the Chief, Radiation and Indoor
       Air Branch, Division of Environmental Planning and Protection to schedule a conference
       with on-going and new recipients to discuss/reinforce EPA requirements and technical and
       financial responsibilities. A GCMB representative should discuss financial matters. Other
       topics should include timing and content of progress and final reports.”

Region 2 Response: Grants Specialists and Project Officers currently conduct, when
appropriate, post-award monitoring activities, including technical assistance reviews and other
outreach activities to discuss grant requirements. These joint monitoring activities are conducted
in accordance with the Region 2 Post-Award Management Plan and Procedures, which promote a
cooperative effort between the grants office, program divisions and others in monitoring Region 2
grant and cooperative agreement recipients. However, GCMB will work with RIAB to identify
an appropriate mechanism for communicating/reinforcing EPA grant requirements regarding
technical and financial responsibilities to recipients under RIAB's purview.

53.    Draft Audit Report: Page 62, Recommendation No. 3-9


                                               110

                                                  Region 2's Management of Children’s Health
                                                           Risk Initiative and Related Projects


       “We recommend that the Regional Administrator instruct the Chief, Radiation and Indoor
       Air Branch, Division of Environmental Planning and Protection to develop and implement
       a system to document the review of assistance applications, work plans, time lines,
       progress and final reports, and other deliverables. Comments should be provided to
       recipient where applicable.”

Region 2 Response: Region 2 has established procedures for documenting reviews of assistance
applications, workplans, time lines, progress and final reports and other deliverables. Application
and workplan reviews are documented through the Project Officer Award Approval
Recommendation Memorandum (i.e., the decision memorandum). The Baseline monitoring
checklists and telephone log forms in Region 2's Post-Award Monitoring Procedures provide a
mechanism for tracking the receipt of reports and other deliverables and documenting follow up
with recipients on any issues identified during these reviews. The baseline monitoring checklist
for Project Officers will be enhanced to include review questions focused on the content and
acceptability of technical reports and deliverables submitted by recipients.

54.    Draft Audit Report: Page 62, Recommendation 3-10

       “We recommend that the Regional Administrator instruct the Chief, Radiation and Indoor
       Air Branch, Division of Environmental Planning and Protection to design
       telephone/meetings logs or standardized forms to document relevant actions. Store
       electronically relevant information (i.e. e-mails).”

Region 2 Response: As noted in the draft report, POs have already been directed and have
agreed to save all e-mails and document reviews, meetings and telephone conversations in a
separate folder. Checklists and telephone log forms have already been designed and can be found
in Region 2's Post-Award Monitoring Procedures. Since we have already implemented this
recommendation, we request it be removed.

55.    Draft Audit Report: Page 62, Recommendation No. 3-11

       “We recommend that the Regional Administrator instruct the Chief, Radiation and Indoor
       Air Branch, Division of Environmental Planning and Protection to reduce the number of
       initial and subsequent no cost time extensions and ensure they are timely requested and
       processed by implementing the March 30, 2000 Regional guidance.”

Region 2 Response: NCTEs have only been requested to extend projects so they could meet
their goals. See previous comments above. Also, as noted above, during the past year we have
been reviewing proposed project periods to ascertain their reasonableness. However, the level of


                                                111

                                                  Region 2's Management of Children’s Health
                                                           Risk Initiative and Related Projects

NCTEs utilized seems consistent with the nature of the projects, some being pilot projects, and
the time frames in which results could be achieved. We disagree with this recommendation and
request that it be removed.

56.    Draft Audit Report: Page 62, Recommendation No. 3-14

       “We also recommend that the Regional Administrator instruct the Chief, Grants and
       Contracts Management Branch to schedule meetings with program offices to reinforce PO
       responsibilities and discuss the PO Handbook and recent Region 2 policy and guidelines.”

Region 2 Response: Information regarding recent Region 2 and National policies, procedures
and guidance is currently disseminated to the Project Officers during the Project Officer basic and
refresher courses, periodic e-mail messages and the Intranet. Additional mechanisms for
information dissemination are being evaluated.

57.    Draft Audit Report: Page 63, Recommendation No. 3-15

       “We also recommend that the Regional Administrator instruct the Chief, Grants and
       Contracts Management Branch to expand the award terms and conditions narrative for
       required progress and final reports to include additional information. EPA’s New
       England format (Exhibit 2) should be considered.”

Region 2 Response: In an effort to comply with the requirements of EPA Order 5700.2,
Implementation Order to Streamline Small Grants (Small Grants Policy) with respect to keeping
the administrative terms and conditions to a minimum, Region 2 limited the terms and conditions
for small grants ($100,000 or less) to only those conditions that were stated in grant regulations
or statutes. The minimum requirements for the content of progress and final reports are included
in the regulations (see 40 CFR §30.51 (d) and §31.40 (b)(2)). However, Region 2 provides
guidance to Part 30 and Part 31 recipients of small grants and cooperative agreements through
guidance that is transmitted with the award document. Prior to implementation of the Small
Grants Policy, this information was included as a term and condition of small grant awards.

As indicated previously, development of guidance to assist Project Officers in identifying and
communicating to recipients the types of information that should be provided in progress and final
reports is on the GCRC’s agenda for FY’01.

58.    Draft Audit Report: Page 63, Recommendation No. 3-17

       “We also recommend that the Regional Administrator instruct the Chief, Grants and
       Contracts Management Branch to determine that recipients have developed and


                                               112

                                                  Region 2's Management of Children’s Health
                                                           Risk Initiative and Related Projects

       implemented adequate internal control and financial management systems that comply with
       OMB and EPA regulations, specifically dealing with time/payroll distribution system.”

Region 2 Response: Region 2 has established a procedures for determining an applicant’s
compliance with standards for financial management systems as codified in EPA grant regulations
(40 CFR §30.21 and §31.20). A copy is attached for your information (Attachment 3). To
further address the issue of adequate financial management systems, the OIG agreed to work with
GCMB to develop guidance to make recipients aware of the requirements placed upon them.

59.    Draft Audit Report: Page 63, Recommendation No. 3-18

       “We also recommend that the Regional Administrator instruct the Chief, Grants and
       Contracts Management Branch to verify that program office decision memoranda is fully
       completed with required information. Incomplete forms should be returned to program
       office.”

Region 2 Response: Region 2 has established a procedure whereby incomplete decision
memoranda are returned to the program office. The decision memorandum is returned with a
cover memo identifying the deficiency.

60.    Draft Audit Report: Page 63, Recommendation No. 3-19

       “We also recommend that the Regional Administrator instruct the Chief, Grants and
       Contracts Management Branch to increase coordination with POs regarding recipient’s
       performance. For example, periodically conduct recipient technical assistance reviews
       with POs to ensure compliance with regulations.”

Region 2 Response: The Grants Specialists currently conduct, when appropriate, post-award
monitoring activities, including technical assistance reviews, with Project Officers. These joint
monitoring activities are conducted in accordance with the Region 2 Post-Award Management
Plan and Procedures, which promote a cooperative effort between the grants office, program
divisions and others in monitoring Region 2 grant and cooperative agreement recipients.

61.	   Draft Audit Report: Page 64, the OIG criticizes the Children’s Workgroup for not
       having regular meetings and suggests this impeded its productivity.

Region 2 Response: The Workgroup is meeting, however, as the issues evolved, the members
and direction of the group have changed. Since this program by its very nature is cross-media and
newly emerging, the Children’s Workgroup needs to be able to change to include the best



                                                113

                                                 Region 2's Management of Children’s Health
                                                          Risk Initiative and Related Projects

available partners. Accordingly, we have found it more productive to work internally with staff
members who are working on the issues in focus (lead, asthma, and sun exposure).

To hold meetings with staff that do not have the time nor expertise on the issues as these evolve
would actually be counterproductive to the Workgroup’s mission. Additionally, we have found it
productive to expand the Workgroup to include other agencies. As a result, we have led and
participated in inter-agency workshops on these issues. These meetings and workshops are not
given mention in the draft report.




                                               114

                                                 Region 2's Management of Children’s Health
                                                          Risk Initiative and Related Projects

                                                                                       Attachment 3

     PROCEDURES FOR DETERMINING APPLICANT COMPLIANCE WITH
                    40 CFR §30.21 or 40 CFR §31.20

           (if no previous awards have been made to the applicant by Region 2)


1.           Single Audit Available

             a.	    Require applicant to provide a copy of most recent Single Audit performed
                    in accordance with OMB Circular A-133 or A-128, as applicable.

             b.	    Review Single Audit sections related to financial record keeping and internal
                    controls of Federal assistance programs. If there were any findings or
                    questioned costs, determine whether they relate to the type of activities
                    included in the assistance agreement to be awarded by EPA. If they do,
                    proceed as follows:

                    i	      If they are judged by the auditor as immaterial, include a condition in
                            the grant that addresses the problem included in the finding (e.g., if the
                            finding was that drug-free workplace procedures were not being
                            implemented consistently, include a condition reiterating the drug-free
                            workplace requirements in effect under the assistance agreement).

             .      ii	     If they are judged by the auditor as reportable conditions/material
                            weaknesses, consult with Team Leader and/or Branch Chief regarding
                            whether to impose special conditions in accordance with 40 CFR
                            §30.14 or designate the recipient as a "high risk grantee" in
                            accordance with 40 CFR §31.12 and proceed as described in that
                            section.
             .
                    iii	    If problems are too significant, recommend that grant not be awarded
                            to this applicant (unless the applicant can demonstrate that the
                            problems have been corrected since the Single Audit).

2.   No Single Audit Available but Grants Received from Other Agencies

     a.	     Require applicant to provide a listing of grants received from other Agencies, along
             with name of contact person in the other Agency.


                                              115

                                                 Region 2's Management of Children’s Health
                                                          Risk Initiative and Related Projects

     b.	    Check with a sampling of other Agencies to determine whether problems were
            encountered.

     c.	    Document results of 2.b. in file; if there were problems with the other Agencies'
            grants, proceed as in 1.b.i., 1.b.ii, or 1.b.iii., above, depending on the severity of the
            problem(s).

3.   No Single Audit Available and No Grants Received from Other Agencies

     a.	    Require applicant to submit description of accounting practices and provide
            description of qualifications and experience of person(s) to be responsible for financial
            record keeping.

     b.	    Review description of accounting practices to ascertain whether or not they meet the
            regulatory requirements described in the relevant section of the regulations listed
            above.

     c.	    Review the qualifications of the person(s) to be responsible for financial record
            keeping to ascertain whether or not they have acceptable qualifications and experience
            to perform this function.

     d.	    If there appear to be problems with 3.b and 3.c, above, recommend one of the
            following courses of action to Team Leader and/or Branch Chief:

            i	      Delineating area(s) that need to be revised, and communicating this to
                    applicant in writing; not awarding funds until revisions are made;

            ii	     Awarding funds with condition(s) as described in 1.b.i., or 1.b.ii., above, and
                    precluding costs to be incurred or charged to the agreement, or payments to
                    be requested or made, until the problems are solved.

            iii	    Performing a site visit to obtain additional information or assist applicants in
                    correcting problem(s) with internal control system(s).

            iv.     Proceeding as in 1.b.iii., above.




                                              116

                                               Region 2's Management of Children’s Health
                                                        Risk Initiative and Related Projects

                                                                            APPENDIX B

                                    Report Distribution




Office of Inspector General
       Inspector General (2410)
       Deputy Assistant Inspector General for External Audits (2421)
       Deputy Assistant Inspector General for Internal Audits (2421)
       Headquarters Audit Liaison (2421)
       Divisional Inspector Generals for Audit

Headquarters Offices
      Assistant Administrator for Administration and Resources Management (3101)
      Agency Followup Official (2710A)
      Agency Followup Coordinator (2724)
      Associate Administrator for Congressional and Intergovernmental Relations (1301)
      Director, Office of Children’s Health Protection (1107)
      Associate Administrator for Communications, Education, and Media Relations (1701)
      Comptroller (2731A)
      Acting Director, Grants Administration Division (3903R)
      EPA Library (3404)

EPA Region 2
     Regional Administrator
     Assistant Regional Administrator for Policy and Management
     Chief, Grants and Contracts Management Branch
     Director, Division of Environmental Planning and Protection (DEPP)
     Chief, Radiation and Indoor Air Branch
     Audit Coordinator




                                             117

